<html>
<title> - THE GRAND CANYON NATIONAL PARK</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                     THE GRAND CANYON NATIONAL PARK

=======================================================================

                           OVERSIGHT HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

 ANALYSIS OF NATIONAL PARK SERVICE DATA ON AIR OVERFLIGHT SOUND AT THE 
   GRAND CANYON NATIONAL PARK, AND THE GRAND CANYON RIVER WILDERNESS 
     MANAGEMENT PLAN AND ASSOCIATED COLORADO RIVER MANAGEMENT PLAN

                               __________

                   SEPTEMBER 24, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-109

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources



                      U.S. GOVERNMENT PRINTING OFFICE
 51-282 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho
                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 24, 1998..................................     1

Statements of Members:
    Faleomavaega, Hon. Eni, a Delegate in Congress from the State 
      of American Samoa, prepared statement of...................     4
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     2
    Hayworth, Hon. J. D., a Representative in Congress from the 
      State of Arizona...........................................    33
    Shadegg, Hon. John B., a Representative in Congress from the 
      State of Arizona...........................................    10
        Prepared statement of....................................    11
    Stump, Hon. Bob, a Representative in Congress from the State 
      of Arizona.................................................     3

Statements of witnesses:
    Ahuja, K. K., Professor and Regents Researcher, Georgia 
      Institute of Technology....................................    16
        Prepared statement of....................................   127
    Alberti, John R., JR Engineering.............................    13
        Prepared statement of....................................    91
    Arnberger, Robert, Superintendent, Grand Canyon National Park     5
        Prepared statement of....................................    66
        Additional testimony by Robert Arnberger.................    35
    Grisham, Mark, Executive Director, Grand Canyon River 
      Outfitters Association.....................................    38
        Prepared statement of....................................   141
    Halvorson, Elling B., President, Papillon Airways, Inc.......     7
        Prepared statement of....................................    67
    Harrison, Robin T., P.E., Consultant.........................     8
        Prepared statement of....................................    68
    Lynch, Robert S., Chairman of the Board, Central Arizona 
      Project Association........................................    36
        Prepared statement of....................................    74
        Statements by participants of various river trips........    78
    Merrill, Brian I., Chief of Operations, Western Rivers 
      Expeditions................................................    40
        Prepared statement of....................................    85
    Reffalt, William C., The Wilderness Society and The Grand 
      Canyon Trust...............................................    42
        Prepared statement of....................................    89

Additional material supplied:
    Grisham, Mark, letter to The Grand Canyon Conservation Fund..   148
    JR Engineering, Analysis Report..............................    93
    Statements by participants of various river trips............   156



 ANALYSIS OF NATIONAL PARK SERVICE DATA ON AIR OVERFLIGHT SOUND AT THE 
   GRAND CANYON NATIONAL PARK, AND THE GRAND CANYON RIVER WILDERNESS 
      MANAGEMENT PLAN AND ASSOCIATED COLORADO RIVERMANAGEMENT PLAN

                              ----------                              


                      THURSDAY, SEPTEMBER 24, 1998

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 1334, Longworth House Office Building, Hon. James V. 
Hansen (chairman of the Subcommittee) presiding.
    Mr. Hansen. Good morning. The Republicans and I think the 
Democrats are holding caucuses and conferences this morning so 
we have a lot of heavy issues going on and so they'll be 
dribbling in, I believe, as we continue.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. Welcome to this oversight hearing on two 
important issues in the Grand Canyon National Park. The first 
deals with the data that was used by the Park Service for a 
1994 report to Congress and subsequent environmental documents 
regarding the substantial restoration of natural quiet and air 
tour overflights conducted over the Grand Canyon and the second 
with a wilderness management plan being developed for the park.
    Perceived problems with safety and the natural quiet caused 
by air tour overflights above the Grand Canyon National Park 
have been recurrent issues since at least 1975 when Congress 
first addressed these issues and passed Public Law 93-620. 
Another law was passed in 1987 which addressed park safety and 
required the Park Service to do a study on noise associated 
with all aircraft on the natural quiet of this and a number of 
other national parks. This law also requested the Park Service 
and FAA to provide recommendations which would substantially 
restore natural quiet in the Grand Canyon.
    These recommendations became the basis for the Park Service 
to conduct studies regarding natural quiet restoration which 
were then integrated into the report to Congress in 1994 and 
other documents. At issue today is how the Park Service 
developed and used the data for these reports, including the 
modeling and the assump-

tions used in the modeling, which led the Park Service to 
conclude that natural quiet has not been restored in the Grand 
Canyon.
    In April 1998, the Grand Canyon National Park issued their 
draft wilderness management plan and environmental assessment 
for public comment. The stated purpose of the plan is to guide 
the management of resources and visitors' uses in the 
wilderness areas and to address wilderness/back country issues 
within the context of the Wilderness Act. For many people, 
however, the plan seems to be becoming the primary document 
used by the Park Service for the management of the entire 
national park, including the Colorado River management plan and 
the general management plan for the park.
    The direction of the Park Service to manage a full 94 
percent of the Grand Canyon as a huge wilderness area has 
caused this Subcommittee considerable concern. For example, 
there are 29,820 acres classified as potential wilderness, 
which includes the Colorado River corridor. The potential 
wilderness classification of the river corridor is important 
because of the possibility of eliminating motorized use of the 
river by commercial river tours. Today, we will be discussing 
this and other issues as managing the Grand Canyon as a huge 
wilderness area.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning everyone and welcome to the oversight hearing 
on two important issues in the Grand Canyon National Park. The 
first deals with the Wilderness Management Plan being developed 
for the park and the second with the data that was used by the 
Park Service for a 1994 Report to Congress and subsequent 
environmental documents regarding the substantial restoration 
of natural quiet and air tour overflights conducted over the 
Grand Canyon.
    In April of 1998 the Grand Canyon National Park issued 
their Draft Wilderness Management Plan and Environmental 
Assessment for public comment. The stated purpose of the Plan 
is to guide the management of resources and visitor uses in 
wilderness areas and to address wilderness/backcountry issues 
within the context of the Wilderness Act. For many people, 
however, the Plan seems to be becoming the primary document 
used by the Park Service for the management of the entire 
National Park, including the Colorado River Management Plan and 
the General Management Plan for the park. The direction of the 
Park Service to manage a full 94 percent the Grand Canyon as a 
huge wilderness area has caused this Subcommittee considerable 
concern. For example, there are 29,820 acres classified as 
``potential wilderness'' which includes the Colorado River 
corridor. The potential wilderness classification of the river 
corridor is important because of the possibility of eliminating 
motorized use of the river by commercial river tours. Today, we 
will be discussing this, and other issues, as managing the 
Grand Canyon as a huge wilderness area.
    Perceived problems with safety and the ``natural quiet'' 
caused by air tour overflights above the Grand Canyon National 
Park, have been recurrent issues since at least 1975 when 
Congress first addressed these issues and passed Public Law 93-
620. Another law was passed in 1987 which addressed park safety 
and required the Park Service to do a study on noise associated 
with all aircraft on the ``natural quiet'' of this and a number 
of other national parks. This law also requested the Park 
Service and FAA to provide recommendations which would 
substantially restore natural quiet in the Grand Canyon. These 
recommendations become the basis for the Park Service to 
conduct studies regarding natural quiet restoration which were 
then integrated into the Report to Congress in 1994 and other 
documents. At issue today is the how the Park Service developed 
and used the data for these reports, including the modeling and 
the assumptions used in the modeling, which led the Park 
Service to conclude that natural quiet has not been restored in 
the Grand Canyon.
    With that as a background, I want to welcome our witnesses 
here today. Because time is short, I would like to ask that 
each of them earnestly try to keep the oral statement to 5 
minutes or less.

    Mr. Hansen. With this background, I want to welcome our 
witnesses here today. Because time is short and one of the 
rules of this Committee is we earnestly try to keep your oral 
statements to 5 minutes. Please keep in mind, by unanimous 
consent, all of the entire statements that you will give will 
be included in the record for us to look at and for our 
perusal. And if you could keep just to 5 minutes. You'll all 
see that clock or those three little lights in front of 
Congressman Stump. And when those go red--or green, yellow, 
red--just like a traffic light. And you all know how a traffic 
light works and, if you're like most Americans, you'll run the 
red light.
    [Laughter.]
    But, anyway, keep in mind that we would appreciate it. If 
you've got something burning in your bosom that you think your 
eternal life is hanging on, well, then go ahead and say it, but 
keep it short.
    We don't limit Members of Congress. That's one of the few 
perks that we still have left around this place. And we're very 
pleased to have our good colleague from Arizona--and the 
National Park of the Grand Canyon is in his area--the 
Congressman from Arizona, Mr. Stump. I understand that Mr. 
Shadegg, Mr. Hayworth, and others will be walking in. They are 
trying to catch a few more tidbits out of the Committee. So, 
Mr. Stump, it's always a pleasure to be with you, my good 
friend. And we'll turn the time to you.

STATEMENT OF HON. BOB STUMP, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Mr. Stump. Mr. Chairman, thank you very much. And let me 
thank you for your favorable response to the request by Mr. 
Shadegg and myself to have this oversight hearing on wilderness 
and oversight matters within the Grand Canyon National Park 
itself. And also to thank you for holding earlier field 
hearings on the issue of oversight. And, with your approval, 
Mr. Chairman, I would like to submit for the record a formal 
statement. And I appreciate the time and energy you and your 
staff have put in on a variety of issues concerning those that 
we face at the Grand Canyon.
    It's a privilege for me to represent the Grand Canyon area 
and to share that area with you, Mr. Chairman, to the north, 
and with my colleague Mr. Shadegg and Mr. Hayworth, that area 
around Flagstaff, the city of Flagstaff, and the Navajo 
reservation to the south. I take great pride in trying to help 
visitors that request our office for ways and times on just how 
to see the canyon and we try to help in every way we can. And 
it is precisely for that diversity of requests that we get for 
various visits and times to visit that I think this hearing is 
so important today.
    A balance between environmental concerns and accommodating 
the many different ways that visitors see and experience the 
Grand Canyon seems reasonable to me. And I am concerned that we 
are headed in the opposite direction, however. Declaring 94 
percent of the park as wilderness and then so severely 
restricting the manner in which the remaining part of the park 
can be used is not a very friendly way to welcome visitors to 
the park. I believe that the ma-

jority of park visitors in their trip to the Grand Canyon is a 
once-in-a-lifetime experience. The very real possibility of 
eliminating motorized raft trips because they don't conform, 
for whatever reason, and demolishing the two lodges that 
visitors sort of see there, doesn't seem to be a friendly way, 
either.
    Quite honestly, Mr. Chairman, I don't believe that the Park 
Service is taking steps to enhance people's trip to the canyon. 
But, rather, through their general management plan, their 
overflight plan, and the proposed wilderness plan, the park 
appears to be asking the visitor to give up how they want to 
see the canyon and fit to the park's idea how they should see 
the canyon.
    I hope today's hearing will shed some light on all the 
Park's plans and really give us that reasonable balance between 
environmental concerns and a diversity of visitor uses and how 
so much wilderness can be justified. And when and how the 
decision was made and how are we going to afford their plans, 
not only in terms of how much it would cost to implement all 
they want to do, but how much it's going to cost the average 
family to visit the canyon.
    And, Mr. Chairman, once again I thank you for having this 
hearing and I'd be glad to and happy to answer any questions 
that anybody may have. And I thank you, Mr. Chairman.
    [The prepared statement of Mr. Stump follows:]
    Mr. Hansen. Thank you, Mr. Stump. We appreciate your 
testimony. And feel free to join us on the dais if you're so 
inclined.
    Mr. Stump. Thank you.
    Mr. Hansen. The Ranking Member, Mr. Faleomavaega, from 
American Samoa is with us. I'll turn to him.
    Mr. Faleomavaega. Mr. Chairman, my apologies for being 
late. Nothing like having jet lag in traffic.
    My personal welcome to the gentleman from Arizona who just 
testified this morning and, for the essence of time, I will 
submit my record--my statement to be made part of the record 
and look forward to hearing from the members----
    Mr. Hansen. Thank you.
    Mr. Faleomavaega. [continuing] and from our witnesses this 
morning.
    [The prepared statement of Mr. Faleomavaega follows:]

  Statement of Hon. Eni Faleomavaega, a Delegate in Congress from the 
                        State of American Samoa

    Mr. Chairman, Grand Canyon National Park is one of the 
magnificent units of the National Park System. It is not 
surprising then that there is a lot of interest in the park's 
management.
    Today's hearing focuses on the Draft Wilderness Plan for 
the park and the related Colorado River Management Plan, as 
well as a review of the Park Service's data on aircraft 
overflights within the park I understand that the public 
comment period on the draft wilderness plan closed just last 
week and that the NPS is still a long way away from putting out 
a revision of the Colorado River Plan for public comment.
    As for aircraft overflights, this has been a source of 
continuing problems for Grand Canyon National Park. I am 
pleased by the recent joint efforts of the National Park 
Service and the Federal Aviation Administration to address 
these problems.
    Mr. Chairman, I appreciate the attendance of our witnesses 
today and look forward to their testimony.

    Mr. Hansen. The first panel that we have will be the 
superintendent of the Grand Canyon National Park. We appreciate 
you being here with us. Also, Elling B. Halvorson, president of 
Papillon Airways; Robin T. Harrison, consultant; John R. 
Alberti in engineering; and Dr. Ahuja, professor and regents 
researcher from Georgia Institute of Technology. So, I think 
we're putting your names up there and if you can--they're on 
both sides; you can see where you are--we'd appreciate you 
coming up and taking your positions, if you would, please. 
Superintendent, you're right on the end there.
    Superintendent Arnberger, do you want to be the first one?
    Mr. Arnberger. Yes, sir. I'd be pleased to.
    Mr. Hansen. OK. I think that's very appropriate. Would you 
mind pulling that mike up to you so we can get this all on 
recording? I appreciate it. We'll turn the time to you, sir. 
Thank you for being here.

  STATEMENT OF ROBERT ARNBERGER, SUPERINTENDENT, GRAND CANYON 
                         NATIONAL PARK

    Mr. Arnberger. Thank you. It's a real privilege to be here 
and thank you for the invitation to represent Grand Canyon 
National Park and the National Park Service on these two very 
important issues. First of all, I will provide you some 
testimony on the acoustics and so forth.
    I'm pleased to be able to provide you some analysis of the 
data relating to the scenic air tour flights over the Grand 
Canyon. Public Law 100-91 in 1987, commonly referred to as the 
National Parks Overflights Act, required a plan providing for 
the substantial restoration of natural quiet and experience of 
the park and the protection of public health and safety from 
adverse effects associated with aircraft overflights. This Act 
also required the National Park Service to submit a report to 
Congress on whether this plan has succeeded in substantially 
restoring the natural quiet in the park.
    Extensive acoustical and sociological research was 
conducted between 1989 and 1993 to provide the information for 
the report. This report was submitted to Congress--excuse me--
in 1994 and published in 1995. In this report, the National 
Park Service concluded that the phrase ``substantial 
restoration of natural quiet'' required 50 percent or more of 
the park to be without the sounds of aircraft for 75 to 100 
percent of the day.
    In the recent case of The Grand Canyon Air Tour Coalition 
versus the Federal Aviation Administration, the U.S. Court of 
Appeals for the District of Columbia recently ruled that the 
use of acoustic data to determine the degree of natural quiet 
is not unreasonable. No acoustic research has been completed at 
Grand Canyon since 1993, although the FAA has initiated some 
visitor-based, dose-response research in the park this past 
summer.
    To predict the acoustic impact of aircraft noise in natural 
and park-like settings, the National Park Service contracted 
with leading modeling experts to design and build a state-of-
the-art computer noise model that would accurately model the 
park acoustic environment. The result was the National Park 
Service Overflights Decision Support System, better known as 
NODSS, the Park Service model, which is able to measure the 
impacts of aviation noise on ground visitors at a resolution of 
300 meters, even with respect to the complex topography of the 
Grand Canyon. Using inputs, in-

cluding the acoustic characteristics of the park and various 
aircraft types and the number and the routing of overflights 
operations, the model is able to characterize how close the 
park is to reaching its goal of substantial restoration of 
natural quiet.
    Now, the FAA uses the integrated noise model, with the 
acronym of INM, to provide predictions of acoustic impacts on 
communities around airports, and its results have been used for 
the preparation of the environmental documents associated with 
the proposed and the final rules. In the Grand Canyon case, the 
FAA has used INM together with NPS acoustic data and the FAA 
estimates of the number of overflights operations to produce 
the results expounded in their environmental assessment.
    An understanding of how much of the NPS natural quiet 
restoration goal has been achieved is critical to the 
rulemaking process in which the NPS and the FAA are now 
engaged. The two models, however, produce somewhat different 
results. As the two models were developed for use in very 
different settings and for very different purposes, it's not 
surprising that they do not produce identical results. Although 
we believe that the NODSS model, the FAA model, is--I'm sorry. 
The NODSS model is the NPS model--is the best product we could 
have produced at the time, neither model has been field-
validated in relation to its ability to precisely accomplish 
the intended purpose.
    To determine how to best model the acoustic impacts of 
overflights-produced noise at the Grand Canyon, the FAA and the 
National Park Service have agreed to conduct a model-validation 
study that should provide additional information regarding the 
accuracy of these models and perhaps others that we have not 
tested at all. The design, implementation, and results of this 
model validation study will be monitored by a panel of 
internationally acclaimed acoustics experts. By combining the 
model validation study with review by a technical review 
committee in an open process, we expect to achieve both better 
science to enlighten our policy and regulatory decisions and to 
also generate greater public confidence our processes, the 
results, and our future decisions.
    That concludes my remarks this morning. I'd be more than 
happy to answer any questions.
    [The prepared statement of Mr. Arnberger may be found at 
end of hearing.]
    Mr. Hansen. Thank you, Superintendent. We're honored to 
have on this Committee John Duncan from the State of Tennessee 
who also chairs the Subcommittee on FAA. Mr. Duncan, do you 
have any comments you'd like to make at this time before we 
proceed with this panel?
    Mr. Duncan. No, Mr. Chairman. As you know, I went to your 
district and we had a hearing on this several months ago and 
I'm still very much interested in it. But I would just go ahead 
and listen to the comments of the witnesses at this time. But 
thank you very much for giving me this opportunity.
    Mr. Hansen. Thank you. Mr. Halvorson, we'll turn to you. If 
you'll pull that mike up to you, please.

STATEMENT OF ELLING B. HALVORSON, PRESIDENT, PAPILLON AIRWAYS, 
                              INC.

    Mr. Halvorson. Mr. Chair, members, and others, it's a 
pleasure to be here today. My name is Elling Halvorson and I 
own Papillon Helicopters, Grand Canyon Helicopters. And I'm a 
part owner of Grand Canyon Airlines. I represent those two 
organizations, as well as the 2,000, more or less, people who 
work in that industry at the canyon and get their living from 
it. Also members of HAI and the United States Air Tour 
Association, who operate in that area.
    You have my written statement and it's before you, but this 
morning I'd like to just speak to you from my heart. In 1986, 
aircraft flew all over in the Grand Canyon. The Public Law 100-
91 was passed in 1987 and, at that time, there was some good 
reason for that law. The thing that was different about that 
point in time and now is that the operators, the FAA, and the 
Park Service all got together to find out from the Park Service 
those sensitive areas that they wanted quietness. We worked 
together closely and we came up with a special rule SFAR 50-2 
that satisfied everyone at that point in time.
    But just as we see the goals changing in the wilderness, we 
see the goals continually changing in the sound issues over the 
canyon. What was good 10 years ago is no good today evidently. 
And I might remind us all that the aircraft is the only thing 
that doesn't ever have to be cleaned up behind. It's the only 
thing that doesn't leave any impact on the Grand Canyon of a 
permanent nature.
    The report to Congress that was required by Public Law 100-
91 had many biases in it. And, in particular today, I'd like to 
talk about the computer modeling. The report says that there's 
only one-half or less than one-half of 1 percent of the entire 
Grand Canyon in which you can't hear aircraft. That is a 
blatant false statement. There are 10 times or more that amount 
of area where you cannot aircraft, touring aircraft, at all, 
immediately adjacent, even, to the superintendent's office. 
There are hundreds of square miles in the park where you will 
never hear a touring aircraft.
    I realize that this was a problem with the report, that it 
had biases. And I tried to call it to everyone's attention. I 
couldn't get any response out of the Park Service and so I 
thought the only way to address this is to get a technical 
study that could be compared against the report to Congress. I 
knew of JR Engineering in Seattle, Washington, a company that 
specializes in aviation acoustics and I made an arrangement 
with them to secure accurate data of every flight during a 
period of the year that went through the Grand Canyon, its 
route, the type of aircraft, and the air speed to which it 
operated, so an accurate analysis could be done and computer 
modeling.
    When I received the preliminary draft, I spoke to many 
people in the Park Service, including my good friend--and he is 
a good friend--the superintendent here. And I actually showed 
them a few pages from the report. I told them that I wanted to 
keep this report confidential. I didn't want to use this 
report. I asked the people in the Park Service to clean up 
their own act and I would put that report away forever because 
I didn't want any embarrassment.
    I held that report for over a year. During that period of 
time, I explained in workshops, in hearings, in written 
responses to NPS, to the FAA, and through these individual 
meetings what was wrong with the report that the Park Service 
had put out. I got no response back. And finally, about 6 
months ago, at a workshop in Flagstaff, Arizona, I was asked by 
the Park Service, by the FAA, by the environmental community, 
if I would share that report.
    And that's the reason that we're here today. I'm not a 
technical person but I know that when I can't hear sound and it 
shows on a chart that I'm hearing sound, that it's basically 
wrong. And I think that you'll find out today, as this 
progresses, that the heart of the issue is that 50-2, the SFAR 
that we're working under, meets and even exceeds the goals that 
the National Park Service had set for themselves. And I would 
repeat that. That we have met or exceeded the goals that the 
Park Service has set for itself.
    And the action that I hope would be taken is to put this 
program on hold, to freeze the goals because we have so many 
moving targets. Freeze the goals that the Park Service has set. 
And that a new report should be prepared that accurately and 
reasonably establishes the conditions at the national park. And 
also that the decibels for noticeability should be standardized 
to everyone's comfort level.
    Thank you for this time. I appreciate you calling this 
hearing. This is the process that it should go through and I'm 
delighted to be here.
    [The prepared statement of Mr. Halvorson may be found at 
end of hearing.]
    Mr. Hansen. Thank you, Mr. Halvorson.
    Mr. Harrison.

        STATEMENT OF ROBIN T. HARRISON, P.E., CONSULTANT

    Mr. Harrison. Thank you, Mr. Chairman Hansen, and members 
of the Committee. I am the guy who can take the credit or 
perhaps the blame for being the fellow who first proposed the 
systematic assessment of natural quiet as a separate resource. 
In 1972, when I and my colleagues made this proposal, we were 
thought of as being somewhat heretical because how can sound, 
as a resource, be equal to the resources that we manage--wood, 
water, wildlife, recreation, et cetera?
    I've spent the last 30 years of my life with the U.S. 
Forest Service as the program leader for aviation and acoustics 
at the U.S. Forest Service Technology and Development Center in 
San Dimas. In that office, I was the fellow who prepared the 
Forest Service report to Congress in response to Public Law 
100-91 and, as I'm sure you're familiar with that report, the 
conclusions are quite different from those of the Park Service. 
In 1972, we proposed that any definition of natural quiet would 
have to be based on human impact and this, after 20-some years, 
is still not the case. As Elling points out, the definitions of 
natural quiet seem to be a moving target.
    As part of my duties at the Forest Service, I was the 
technical adviser to the Park Service in the initial stages of 
their scientific work, which led to the preparation of the 
report to Congress. It is through the work of my colleagues at 
the Forest Service and I that the contractors, the scientific 
contractors, who worked for the Park Service in the development 
of the data that underlies the report that we discussed today, 
that's how that came about.
    In the initial stages of this work, the Forest Service and 
the Park Service worked together, as if it were one project. 
That is, myself and two colleagues from the Forest Service 
advised on technical issues with regard to the Park Service 
study. The initial approach was to get the best scientific 
minds that could be found, contract them to perform research, 
and develop impartial scientific data which could be used to 
develop and support aircraft management studies and wilderness 
strategies for both organizations.
    I was excited and honored to be part of this effort and we 
worked diligently toward timely fulfillment of the 
congressional mandate. I visited many, many Forest Service 
wildernesses, many parks, making measurements of sounds from 
aircraft myself and supervising many more measurements. 
Concurrently with this sound measurement work, we oversaw 
careful research with regard to the effects of aircraft noise 
on wildlife, on structures, with regard to visitor safety, et 
cetera. For the first time in 20-some years, as a researcher 
and manager, I had at my disposal the money and resources to 
answer scientific questions which I had first raised over 20 
years ago.
    But I was troubled by some of my visits to the national 
parks. In Hawaii Volcanoes, for instance, the Park Service 
employees asked me to meet with them. They wanted to put in 
front of me their concerns about how the noise of helicopter 
overflights in and near the park affected them. They wanted me 
to know just what horrible racket they were forced to put up 
with. I asked them about observable effects on wildlife. I 
asked them about visitor complaints. I asked them about 
compromises to safety from the helicopter overflights. But they 
never gave me any concrete data. I didn't, at the time, read 
Public Law 100-91 to concern itself with the employees and so I 
didn't carefully heed the things they said. In retrospect, I 
should have realized what I was seeing and hearing.
    As the scientific work began to roll in, the Forest Service 
team busied itself preparing our report to Congress. But the 
Park Service seemed to be less impressed with the results 
received. Payments were delayed; revisions were demanded; more 
work was proposed. And I found myself being invited to fewer 
and fewer parks and being consulted less often. By this time, 
it was clear to me what was happening. The Park Service was not 
happy with the results that it had obtained from its 
contractors because these results did not support the 
preconceived notion that the parks, and the Grand Canyon in 
particular, had a serious natural quiet problem.
    The problem I have, as an acoustical scientist and 
engineer, with the work that is done for the Park Service is 
not the basic scientific work, which is completely defensible 
and of the highest quality. And my friend Supervisor Arnberger 
is very manly to admit that a reassessment is needed. We've all 
heard the old expression: Garbage in, garbage out. The computer 
program NODSS is probably an excellent framework in which to 
predict the response of park visitors to noise. However, the 
inputs as to what constitutes natural quiet, what is an 
acceptable level, are seriously deficient.
    If I could have not more than 90 seconds, your honor. There 
is a system, a way, that we scientists like to do things. 
Scientific work should be transparent. It's known by the name 
of the peer-review system. Scientists should submit to their 
peers all of the work that they do for review. Arguments will 
ensue at the scientific level and, eventually, more or less 
consensus will be achieved with regard to the validity of 
scientific work.
    The work that has been done at the Park Service has not 
been subject to this transparency. Although NODSS, as I say, is 
an excellent framework with which to begin the work, the 
assessment of human impact has been seriously deficient for 
technical reasons which we simply don't have time to go into, 
but which I have submitted for the record and I ask that it be 
included.
    [The information referred to may be found at end of 
hearing.]
    Mr. Harrison. I'd like to close by saying it's very 
encouraging to me to hear Rob talk about an internationally 
acclaimed panel of acousticians to review this work. I would 
just like to encourage this Committee to reject the Park 
Service's report as it has been submitted and to consider the 
new work the Park Service might do while maintaining oversight 
of the impartiality of the people who review this work.
    Thank you very much. It's a pleasure to have been able to 
address you.
    [The prepared statement of Mr. Harrison may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Harrison. Appreciate your 
comments.
    We've been joined by another one of our Arizona colleagues, 
Mr. John Shadegg. As I explained to you, the members who 
arrive, we would have them give their opening statement, if 
they so desire. And we don't hold the members to a time limit. 
That's one of the perks we have. And we also do say anything 
when they whisper, but when you do, we do. So if we--we would 
like to turn to Mr. Shadegg.

STATEMENT OF HON. JOHN B. SHADEGG, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Shadegg. I thank you, Mr. Chairman, and I will not give 
my full prepared written statement but I would like to submit 
it for the record.
    I want to express my sincere appreciation for your holding 
this hearing. It is an extremely important hearing, I think, 
for the people of my district, for the people of all of 
Arizona, for the people of all of the Southwest, and for the 
people of the Nation. I wrote my substantial paper in law 
school on the difficulties of governmental agency trying to 
strike a balance in public policy. It happened to be the 
Environmental Protection Agency and it was the issue of sulphur 
dioxide and the copper mines in Arizona being pushed both ways 
or counterpressured from opposite directions.
    On public policy questions, it is incredibly difficult and 
I understand and sympathize with the position that all people 
in public administrative positions are in when they have to do 
something like the task of developing this wilderness 
management plan. But I think it is my job now, in my current 
position, to see that they do that in a fashion which produces 
the best possible product.
    I am concerned about portions of the wilderness management 
plan. I am concerned about aspects of the wilderness management 
plan which say, for example, while on the one hand we hear that 
it will not dictate future decisions, such as the question of 
any motors ever on the river, there's language in the plan 
which says ``all future plans have to be consistent with this 
plan.'' I need to get that clarified in my mind.
    I have concern about--well, I have extremely strong 
feelings, Mr. Chairman, about the importance of protecting the 
pristine and unadulterated character of the vast portion of the 
park, including, in my opinion, virtually everything in the 
inner canyon. I have concern that the wilderness plan, 
particularly with regard to areas above the rim, goes too far. 
And it proposes to treat, as wilderness, areas which are not 
currently being treated as wilderness and areas which are not 
currently being used as wilderness and areas which, I believe, 
it is unclear at best that they comply with the requirements of 
the Wilderness Act for designation as wilderness.
    And I think there are grave questions, Mr. Chairman, about 
those areas being closed or now treated as wilderness, in that 
it will restrict the access of people who use them now as 
access points to take back-country hikes and will restrict 
access by people who are either physically handicapped or too 
young or too old to be able to enjoy a pristine back-country 
experience. And I feel very strongly that in the development of 
this plan, we have to strike a very careful balance, we must 
make sure that the undamaged portions of the park, which can 
and should forever be wilderness, are protected in that 
fashion.
    But we have to be equally certain that areas of the park 
which are now not wilderness are not suddenly treated as 
wilderness and access is denied to a number of people. And that 
is a grave concern to me because I think we owe that obligation 
to people who are interested in using the park and can use it 
only in their own ways and not in just the purely back-country 
take a significant block of time and go hike the back country 
fashion.
    I also am concerned--and I'm going to ask questions today, 
Mr. Chairman--about the process that led us to where we are 
right now and the timing of that process. I am committed, 
deeply committed, to public input and I have concerns and 
intend to ask questions about the ability of the general public 
to have input on this plan. So suffice it to say, I have 
concerns. I appreciate the holding of the hearing. I think the 
hearing is incredibly important. And I look forward to being 
able to question and talk with the witnesses as we go forward. 
And I would submit my full statement for the record.
    Mr. Hansen. Without objection, so ordered.
    [The prepared statement of Mr. Shadegg follows:]

 Statement of Hon. John B. Shadegg, a Representative in Congress from 
                          the State of Arizona

    Chairman Hansen, first I would like to thank you for 
holding this important hearing today. As a native Arizonan, I 
am privileged to live in the Grand Canyon State where the Park 
has been a part of my life since childhood. Some of my most 
vivid memories of the Canyon originated with trips I took as a 
child and are refreshed with later trips I have taken with my 
family.
    I consider the Grand Canyon to be one of the most 
stunningly beautiful and pristine natural wonders of the world. 
Its scenic beauty must be protected and preserved to the 
greatest extent practicable. At the same time, it is critical 
that people of all ages, fitness levels and financial means be 
able to enjoy the Park as well. We must strike a careful 
balance, preserving and protecting the natural state of the 
Park while allowing reasonable access for all who want to visit 
it, and we can. My goal is to maintain the awesome beauty of 
the entire Park--and the unaltered and pristine character of 
vast portions of it--while still allowing different people to 
enjoy their Grand Canyon experience in a variety of ways.
    Let me be clear: the integrity of the Grand Canyon must be 
protected. We should set aside significant portions of the Park 
as wilderness, particularly in areas within the Canyon. I do 
not support constructing a gondola from rim to river, building 
casinos, paving roads to the bottom of the Canyon, turning any 
portion of the rim into a parking lot, or any other desecration 
or inconsistent development within the Park.
    However, I am concerned with the draft Wilderness 
Management Plan in its present form. First I believe the 
process leading to its creation was flawed because the plan is 
in large part based on the 1980 draft. No public hearings on 
the plan have been conducted in since 1976--22 years ago. To 
put this in perspective, the last time public hearings were 
held, the immediate past president of The Sierra Club, Adam 
Werbach, was in diapers. Some people who would like to hear a 
presentation of the plan and testify about it had not even been 
born when the only public hearings on the Plan were held, 
although they were able to vote in the past two presidential 
elections. Other people who had the chance to attend these 
hearings and testify in 1976 have been dead for almost a 
quarter of a century! Beyond these procedural deficiencies and 
perhaps because of them, I am concerned that, in its present 
form, the plan does not strike the proper balance between 
preserving wilderness and allowing access.
    As written, the Plan would set aside nearly 95 percent of 
the Park as wilderness, including the Colorado River corridor 
and the vast majority of the land above the North and South 
Rims of the Canyon. It would limit access by eliminating a 
number of roads, and as written, almost certainly will lead to 
a total ban on motorized raft trips on the Colorado River. 
Finally, some critics argue, and it is not clear that they are 
incorrect, that the Plan could have a negative effect on the 
ability of the Park Service to maintain facilities inside the 
canyon including Phantom Ranch and the cross-canyon water 
pipeline.
    Declaring vast areas of the Park, particularly above the 
rim, as wilderness when those areas are not ``untrammeled by 
man . . . or `primeval' [in] character and influence'' and are 
currently being used by recreationalists in a manner 
inconsistent with wilderness designation, could have a 
devastating effect on the ability of people, particularly those 
of different ages and fitness levels, to use and enjoy the 
Park. It would force the closing of an unknown number of roads 
above the rim and ban the use of motorized vehicles on these 
roads. Eliminating most, if not virtually all, roads that have 
existed historically in the name of preservation is not what 
the Wilderness Act contemplated or requires. And, it would 
discriminate against many Park users including individuals who 
are using these roads as access points for back country 
backpacking trips, those who are elderly or disabled and 
families with small children by severely limiting the areas of 
the Park which they can access. While I respect the right of 
individuals who are physically fit enough to use and enjoy the 
vast untouched areas throughout the Park--virtually all of the 
inner canyon--and I strongly support protecting those areas 
through wilderness treatment, I believe it may be unnecessary 
and inconsistent with the language of the Wilderness Act and 
its spirit to close numerous existing roads currently used by 
the public, making the vast majority of portions of the park 
above the rim ``off limits.''
    People who have the time, money and desire to experience 
the Grand Canyon in a completely natural setting should have 
the right to do so and their right should be preserved and 
protected. The Draft Wilderness Management Plan points out that 
the highest proportion of users of remote areas are young 
professionals making more than $50,000 a year. But the elderly, 
disabled and families with small children or those who simply 
cannot afford an extended vacation should not be unreasonably 
denied the opportunity to experience the beauty and splendor of 
other portions of the Park. Simply stated, the Park is big 
enough to accommodate both if we pursue a balanced and 
reasonable approach. The intent of the National Parks Act is to 
ensure that our country's greatest treasures are protected and 
preserved but that they are also available for everyone to 
enjoy--regardless of age, health, or income level.
    Some argue that those who can't enjoy the Grand Canyon in a 
``wilderness'' setting don't deserve to see the Canyon. One of 
the authors who is cited a number of times in the Draft 
Wilderness Management Plan has written:

        Those humans who respect the land are willing to walk long 
        distances. If this is an ``elitist'' attitude, so be it.
    This underlying philosophy toward access to the Grand Canyon is 
incredibly unfair and simply wrong. Many people who, by reason of 
handicap or age, cannot possibly ``walk long distances'' nonetheless 
deeply respect the Park. I would point to the letters in the record 
from various handicapped individuals which make this point in a far 
more compelling fashion than I ever could. The Park does not belong 
only to those who are physically fit enough and financially able to 
take the necessary time off of work to ``walk long distances.'' The 
bias in this statement that the disabled, the young, the old and those 
who cannot afford the time to hike the Canyon therefore categorically 
do not respect it, is outrageous. The Park belongs to everyone.
    In July, I met with Superintendent Robert Arnberger and he assured 
me that he does not wish to limit access to the Park. I am hopeful that 
a Plan which maintains the undeveloped character and scenic beauty of 
the vast untouched portions of the Grand Canyon without unreasonably 
restricting access to large portions of the Park which are not now 
wilderness in character can be developed. I am willing to work with 
Superintendent Arnberger, as well as with other interested groups and 
individuals, including my constituents, to achieve a consensus which 
protects the Park while not ureasonably curtailing the right of 
individuals of all levels of physical ability and financial means to 
enjoy their national park.
    While I am anxious to hear the testimony today, from my review of 
the procedure leading to the development of the Plan, the Plan itself 
and the comments and testimony submitted for this hearing, I must 
acknowledge that it is almost impossible to avoid the conclusion that:

        (1)at a minimum a new Environmental Assessment (EA) must be 
        performed;
        (2) an Environmental Impact Statement (EIS) needs to be 
        prepared in order to comply with the law; and
        (3) that for the benefit of my constituents and others born in 
        the last 22 years, the process should be reinitiated and new 
        public hearings held.
    I hope the National Park Service will seriously consider these 
points and work with Congress and the public and reevaluate its 
position that this Plan is ready for implementation.

    Mr. Hansen. And thank you for your testimony.
    Mr. Alberti, we'll turn the time to you, sir.

          STATEMENT OF JOHN R. ALBERTI, JR ENGINEERING

    Mr. Alberti. Honorable Chairman, members, good morning. My 
name is John Alberti. If I could, before I go on the clock, I'd 
like to introduce into the record color copies of two 
attachments to my testimony. That's attachment two and 
attachment eight. Attachment two is a diagram of the SFAR 50-2 
area, showing the flight-free zones and the flight corridors 
between those zones and around those zones. Attachment 8 is the 
same diagram showing the contours of areas where tour aircraft 
would be audible, according to our study, more than 25 percent 
of the time.
    [The information referred to may be found at end of 
hearing.]
    Mr. Alberti. We're back on the clock now, I hope. I first 
became--my company specializes in aircraft noise and I first 
became involved in the noise issue in the Grand Canyon not to 
study it but to reduce it. Elling Halvorson approached me 5 
years ago to assist him in developing an ultra-quiet helicopter 
for use in the canyon.
    The product of that work, the S-55QT, which only now, 5 
years later, is nearing FAA approval, is 10 decibels quieter 
than existing aircraft operating in the park. The implication 
of that is that, at any given point, that aircraft will be 
audible for about half the time an existing aircraft would be 
and the area over which it would be audible would be less than 
half that of existing aircraft. It's a far more dramatic 
improvement in the noise environment of the park than the Park 
Services claims with the rather draconian measures that they 
propose in their 1994 report.
    My point in bringing that up is that quiet aircraft are an 
extremely desirable solution that continue to make aircraft 
tours available to the public, while protecting the 
environment. It's also a very expensive, very time-consuming, 
and very high-risk undertaking, and very extraordinary for an 
operator to do that out of his own pocket. It's also very hard 
to justify that when the goalposts keep moving and when you 
cannot be sure that the regulatory agencies are going to treat 
your data and the acoustic situation in a scientifically valid 
manner.
    The 1994 report to Congress is the subject and the 
principal conclusion of that report is that substantial 
restoration of natural quiet has not occurred. As 
Superintendent Arnberger described, they define substantial 
restoration as having occurred when 50 percent or more of the 
park is free of audible or noticeable tour aircraft noise 75 
percent or more of the time.
    Reviewing this report, I find the most prevalent error 
really is that of non sequitur. Conclusions are drawn which are 
simply not supported by the data. The very first page starts 
out with a concern that tour aircraft noise might startle 
horses and mules and result in injury, yet there's not an iota 
of evidence that that's ever happened.
    If you turn to attachment three, you find this very 
emotionally evocative diagram of a helicopter sonically 
bombarding a historic site with the implication that it's doing 
structural damage to it. Again, there's not an iota of evidence 
that that's every happened and, in fact, it's an absurd 
assumption given the sound levels of tour aircraft.
    Further, to the substantial restoration of natural quiet, 
the Park Service has sent observers into the park. They had 
professional acoustical technicians go to 23 different sites 
where they expected to find tour aircraft noise. More than half 
those sites were directly under the flight corridors. And these 
observers were vigilant observers who were doing nothing but 
trying to observe aircraft noise; they weren't looking at 
scenery. At 15 of those 23 sites, they reported observing 
aircraft noise less than 25 percent of the time.
    When the Park Service asked the park's visitors: Were you 
annoyed by tour aircraft noise? Only 5 percent were. Sixty six 
percent said: What tour aircraft noise? I didn't even notice 
any.
    The only thing they really have to hang their hat on is the 
NODSS computer model, which, as Superintendent Arnberger 
observed, has not been field-validated. And it's very difficult 
for us to study because we don't know what went into it. 
Luckily about a year ago we did do a study. And in that study 
we found that in 93 percent of the park--and this, by the way, 
our study was done with the FAA's INM program, which is the 
industry standard for aircraft noise measurements and contour 
projection around airports--we found that in 93 percent of the 
park, or the study area which was the eastern half of the park, 
that tour aircraft would not observable more than 25 percent of 
the time.
    The FAA and the NPS did do an INM study of their own. We 
did have a chance to review that. We found a number of very 
alarming assumptions that went into that. One was a very 
unreasonably low threshold of noticeability. That is, the sound 
level which, by their analysis, would trigger them to say that 
an aircraft is now noticeable. They used over most of the park 
15 to 17 decibels which most of us have never experienced. It's 
very near the threshold of human hearing. I'm over the limit; 
I'll be done in just a second.
    It's contrary to a study which the Park Service hired Bolt, 
Brannick, and Newman to do in 1994 where they again sent 
trained observers with highly sensitive low-noise level 
microphones down into the park. If you look on attachment six, 
you will find the results of that. These observers, again, 
vigilant observers, noticed that the average level at which 
they first observed an aircraft was 30 decibels and that's also 
the average level at which they ceased to be able to identify 
the aircraft noise. We used 30 decibels in our study.
    [The information referred to may be found at end of 
hearing.]
    Mr. Alberti. The BB&N report also showed that, for a non-
vigilant observer, someone who might be looking at scenery, a 
level 10 decibels higher was more appropriate as the trigger 
level. Again, in our study, which, again, you see the results 
of in attachment 8, we used the 30 decibel level.
    [The information referred to may be found at end of 
hearing.]
    Mr. Alberti. Just briefly, they've made some incorrect 
corrections. The speed of the helicopter's flying through the 
park is different than that in the government noise model and 
the correction that they made incorrectly increased that level 
where it should have decreased it. They eliminated the lateral 
ground attenuation--and I'm going to leave this to Dr. Ahuja 
because I'm running out of time to discuss. But it's extremely 
extraordinary to change this computer model, the FAA's own 
model, they actually had to go in and change the code. 
Engineering companies like mine cannot do this. It's not a 
user-changeable thing. When we use this thing under FAA 
direction, the lateral attenuation of sound is always included. 
So, as I say, this was very unusual and very unjustified.
    They also assumed that a day is 12 hours, not 24 hours, as 
most of us might suppose. And the effect of that, of course, is 
that when they calculate the percent time above a certain 
level, that doubles that percent time.
    The net result was, of all these errors, is that they've 
greatly overstated the noise impact and I think, as a result of 
that, their study is flawed. It's really contrary to their own 
observations. It's contrary to our neutral computations. And I 
think they've failed to make the case that natural quiet has 
not been substantially restored under SFAR 50-2. Thank you.
    [The prepared statement of Mr. Alberti may be found at end 
of hearing.]
    Mr. Hansen. Thank you.
    Dr. Ahuja, we'll turn to you, sir. If you'll bring the mike 
up to you, please.

  STATEMENT OF K. K. AHUJA, PROFESSOR AND REGENTS RESEARCHER, 
                GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Ahuja. Good morning, Mr. Chairman. I am Krish Ahuja. 
I'm a professor of aerospace engineering at Georgia Institute 
of Technology. I teach aeroacoustics and rocket propulsion.
    I'd like to start out by telling you that, right now, if I 
wasn't speaking, in this room, the decibel level is about 55 
dBA. A typical level in a quiet residence is 40 dBA and, in a 
recording studio, it's about 30 dBA. And if you were located 
twice as far away from me now, my sound would go down by 6 
decibels. Every time distance is doubled, it (noise) goes down 
by 6 decibels. So I just wanted to give you a feel for the 
numbers.
    I'll go directly in here. In August 1997, I was asked by 
Helicopter Association International to provide an unbiased 
opinion of an engineering analysis report which I believe you 
have. This would be JR Engineering report which Mr. Alberti 
prepared. I was asked to give an unbiased opinion on this 
report. The report is entitled: Analysis of National Park 
Service Data on Air Overflight Sound at Grand Canyon National 
Park.
    In my written testimony, this is referred to as JR 182, 
that's the number of the report. Because of the direct 
relevance of this report and this review to this oversight 
hearing, the peer review prepared by me forms the backbone of 
my written testimony.
    Mr. Alberti's analysis claims to have shown--and I think he 
mentioned that, but I'd like to reiterate that. I'm going to 
quote him: ``The government studies were biased and misleading 
due to several invalid and unscientific assumptions that 
overstated sound levels and sound detectability.'' It also 
claims that, ``When these errors are corrected, the result is 
that over 95 percent of the park will meet the Park Service's 
own definition of natural quiet in the busiest month of the air 
tours.'' That's July. And I agree with these claims made by Mr. 
Alberti in his report.
    Mr. Alberti's report shows very convincingly that, even 
with the biasing effects introduced by invalid and unscientific 
assumptions in the government studies, the tour aircraft noise 
level was below 30 dBA, 75 percent of the time, in about 86 
percent of the park. I mentioned earlier that 30 dBA is the 
typical level in a typical recording studio. And also, if one 
accepts the findings of BBN study, which was done for the NPS 
and which is reference three of my written testimony, if one 
accepts that 30 dBA is the average level of onset and offset of 
airplane noise detectability at the canyons, the NPS definition 
of substantial restoration of natural quiet has been met.
    [The information referred to may be found at end of 
hearing.]
    Dr. Ahuja. A second study related to computation of the 
impact of tour aircraft on natural quiet in the eastern Grand 
Canyon National Park, which is also documented in this report, 
and is based on 1996 operations with 1996 aircraft. This report 
provides the contours of time above the threshold of 
noticeability, that is the time some levels are higher than 30 
dBA for each month. I did not compute the predictions, but 
these computations show that actual 1996 air tour operations in 
the eastern end of the park easily met the NPS definition of 
substantial restoration of quiet. The results of this analysis 
seem quite reasonable to me and I have explained that in the 
written testimony.
    Most importantly, I question the elimination by FAA of what 
is referred to as lateral attenuation, and also Mr. Alberti 
alluded to that. Elimination of lateral attenuation in 
computing aircraft noise leads to overstatement of sound levels 
and sound detectability.
    Now what is lateral attenuation? Lateral attenuation is 
defined as the additional sound absorption or attenuation 
experienced by sound propagating to the side of the flight path 
by factors that are not readily accounted for. Lateral 
attenuation is considered to be a function of ground 
properties, the elevation angle of the vehicle--that's the 
aircraft or the helicopter, the distance between the source and 
the receiver, weather conditions near the ground, and the noise 
source characteristics. Thus, this phenomena includes such 
effects as ground reflection effects, refraction effects, 
airplane shielding effects, so on and so forth.
    If lateral attenuation is kept in the computation, one 
would calculate less noise. FAA switched off this portion of 
the computation in their program, in their calculation of noise 
at the national park, which provided an overstatement of noise. 
In summary, my review of Mr. Alberti's report agreed with most 
of his findings. And what is left in time, I would like to 
say--mention to you . . . this lateral attenuation is very 
important.
    If it's not clear: If I am flying an airplane toward you, 
Mr. Chairman, and pretend the airplane has only one helicop--
one propeller, on--say on the left-hand side. And this young 
lady (on the left) is far away on this side and that young lady 
(on the right) is far away on that side and if the propeller is 
only on one side, OK? So one propeller. She, (the lady on the 
left side) would hear more noise than that young lady (on the 
right side). And the reason for that is that the fuselage of 
the aircraft is shielding (noise) and that also goes into 
lateral attenuation.
    Whereas, in all these analysis, people have assumed that 
lateral attenuation is nothing else but absorption by ground, 
it contains many other factors. It's an empirical expression 
and that was switched off in their calculations. And that 
could--and that probably provided about four decibels higher 
noise in their calculations than it really is.
    [The prepared statement of Dr. Ahuja may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Doctor. Appreciate your comments.
    We'll now turn to members for questions and I will limit 
them to 5 minutes each. And we'll start with the gentleman from 
American Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. Chairman, 
I'm somewhat surprised that here we have the highest technology 
or the most-advanced technology in the world or I assumed our 
country has, but we seem to have some very strong disagreements 
on the acoustics, the engineering, the research. I'm somewhat--
I just don't understand--I suppose it's the same as having five 
engineers and five lawyers you'll have five different opinions 
on the same issue. I thought engineering or physics was such an 
exact science, just like adding two plus two equals four. 
Lawyers might have differences of opinion on different issues, 
but I thought these scientific issues ought to be such that you 
don't question the viability of some of the findings.
    Mr. Arnberger, Superintendent Arnberger, I noticed in your 
statement that you have worked closely with the FAA. I mean 
have some of these findings gone to both Arizona universities' 
engineering schools or UC Berkeley or MIT or Cal Poly? I mean, 
I'm very surprised that there definitely is a very strong 
disagreement on the findings on the noise.
    Mr. Arnberger. There is. And I don't think that the science 
of noise measurement over a natural resource is as finely tuned 
a science as all of us would hope. In fact, there are models 
that have been developed that well predict and so forth the 
noise and the impacts of sounds and so forth around airport 
environments, but I don't think that the science of doing that 
type of business around in a natural resource setting, much 
less a place like the Grand Canyon, is, in fact, a precise 
science.
    As a representation of that, the FAA used their model that 
they have had--and it's the only model they have, the INM. And 
the Park Service, believing that, in fact, natural resources 
was a different type of place, went to the private sector, to 
the scientific and the engineering sector to develop this other 
model that, in fact, would give a better representation. And it 
is that difficulty that forms the crux of the issue.
    Mr. Faleomavaega. Let me ask Mr. Halvorson, I noted that 
you commented on Public Law 100-91 that's supposed to be the 
bible of trying to have some sense of factual evidence to 
determine what is the noise situation here, but it seems that 
you're suggesting here that the National Park Service keeps 
moving the goalposts in terms of what requirements--and I can 
fully appreciate your concerns in private industry, the kind of 
requirements and restrictions that are given aircraft 
overflights in the canyon. I mean, you feel that you're really 
getting a raw deal from the National Park Service in this 
instance?
    Mr. Halvorson. Yes, I really do. What's happened here, in 
essence, is that they have gone in and they have aborted the 
computer program. They're the only people that can go in and 
they took out lateral, over-the-ground, attenuation, which is 
the absorption of sound by the ground. They increased the 
decibels of each of the types of aircraft and they estimated 
more aircraft than were flying in the canyon. And those are 
some of the primary things that they have done.
    Another thing they did is that they took this audibility 
factor of the decibels of audibility where their trained people 
were sitting in the canyon trying to hear a sound. And when 
they first heard it, it was at 30 decibels and when they last 
heard it, it was 30 decibels. Well, they then lowered that to 
17 decibels, which is twice less sound than these people 
heard--or a thousand times, it is? I mean, it's an absurd 
level.
    You can do anything with numbers, you know. But if the 
program is kept clean, if the base to which they're working the 
program is a reasonable base, then the facts and the findings 
are going to come out as the JR study shows. Yes, I think we're 
getting a raw deal and I think that report to Congress should 
be put on hold and that this process should be put on hold 
until we get some accurate data.
    Mr. Faleomavaega. One of ironies of overflights--and I'm 
not a scientist, but I know on commercial aircraft they have to 
by requirement of the FAA, you have to put on what is known as 
noise kits or hush kits. They're about $300,000 to put these 
hush kits. Now, technologically, this is not possible for 
diesel-fueled aircraft. I mean, I don't know how else to 
describe them. Not jets.
    Now another thing that I also know for a fact is that the 
military is exempted from any kind of noise kits to put on 
their aircraft. Do we have any sound booms or anything in the 
canyon with these military aircraft overflights?
    Mr. Halvorson. We don't have sonic----
    Mr. Faleomavaega. Nothing?
    Mr. Halvorson. [continuing] sonic booms. They've been 
cooperating pretty well in recent years on their flight 
profiles. For a long time, it was a larger problem.
    There are things that can be done to make these aircraft 
more quiet and what the industry has been asking for is, 
because this is a great expense, give us some incentives to 
help us to achieve this. We want to achieve it. My own 
company--we've spent millions of dollars and 5 years of effort 
to try and get a quiet aircraft certified. Grand Canyons 
Airlines, Scenic Airlines, and some others have put quiet 
propellers on their aircraft. And there are more things that 
can be done. Yes, we can accomplish some sort of----
    Mr. Faleomavaega. I'm sorry. My time's up. Thank you.
    Mr. Hansen. Thank you. Thank the gentleman. The gentleman 
from Arizona, Mr. Stump.
    Mr. Stump. Thank you, Mr. Chairman. Mr. Harrison, what 
happened to the original data that was collected that you said 
showed that there was not a problem with the noise from the 
tour aircraft?
    Mr. Harrison. Well, in the larger--Congressman, it has been 
reported to you in the U.S. Forest Service report to Congress. 
I have a copy which I'd be happy to leave with you and I think 
there is a copy in the record. What we concluded is that, in 
the wilderness system, although there are occasional problems 
with overflights, it is not a broad problem. Admittedly, Grand 
Canyon has a much more intense problem.
    The original data still exists, and it exists in the 
reports of Bolt, Beranek, and Newman and HMMH, the two original 
contractors that were selected by the National Park Service. I 
can't pronounce. I apologize. The gentleman from Samoa. And I'm 
a Hawaiian too. I'm sorry.
    Mr. Faleomavaega. Call me John Wayne. It'll be all right.
    [Laughter.]
    Mr. Harrison. Congressman Wayne has----
    [Laughter.]
    [continuing] has indicated their--I will agree with 
Congressman Wayne and disagree with my good friend Rob here. 
The science does exist.
    Mr. Arnberger. Rob. I'm Rob. He's Bob.
    Mr. Harrison. The good--the science does exist. It's just 
that the way the Park Service has applied it is not in 
accordance with scientific and impartial principles. Part of 
the reason for this, I think, is because of a preexisting bias 
and part of it is because they're badly advised by some of 
their advisers. But the science does exist. John analyzed it 
correctly and SFAR 50-2 has restored the natural quiet and the 
original data does show that.
    Mr. Stump. Thank you. Mr. Arnberger, you stated the Park 
Service used the latest model experts to come up with these 
computer devices that recorded all this. Do you have any of 
those experts here with you today? It was my understanding that 
Mr. Henry was requested to appear before the Committee.
    Mr. Arnberger. No, I do not have any of those experts. The 
letter that we received from the Committee, in fact, invited 
myself. Mr. Henry is absent. He's on a business trip to Moab, 
Utah. He was not formally invited. He's not here. Neither were 
the FAA modeling experts. So I do feel a little bit lonely 
sitting up here and I'm doing my best with this highly 
technical information.
    Mr. Stump. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Dr. Ahuja, I was 
interested in your comparisons of noise levels. And you said 
that a 40 dBA level was the typical very quiet residential 
neighborhood. Is that correct?
    Dr. Ahuja. That's correct.
    Mr. Duncan. And you said a 30 level was the level in a 
sound recording studio.
    Dr. Ahuja. That would be in a recording studio.
    Mr. Duncan. And then I noticed in your report that you say 
you agree with the report by JR Engineering that, when the 
errors are corrected in the government study, the result is 
that, over 95 percent of the park would meet the Park Service's 
own definition of natural quiet in the busiest month of air 
tours, which is July.
    Dr. Ahuja. This is--this was a finding of the JR report.
    Mr. Duncan. But then I noticed, Mr. Alberti--Dr. Alberti, 
in your report, you say that to go to a level of 15 dBA to 17 
dBA, these levels barely exceed the threshold of hearing and 
would be exceeded by rustling leaves, any hint of wind, or a 
hiker's footsteps. Is that correct?
    Mr. Alberti. That is correct. Actually, it's not Dr. 
Alberti, it's Mr. Alberti, but I thank you for the compliment.
    Mr. Duncan. OK. Thank you. Thank you very much.
    Mr. Alberti. That is correct. And that is, I think, an 
important fact when you consider what constitutes 
detectability. If a slight amount of breeze is rustling through 
even past terrain or a brushy area, if the hiker adjusts his 
pack a little, shuffles his feet in the ground, all those 
things will make noise levels well in excess of 15 decibels. 
Fifteen decibels is an extremely low-level. It's very difficult 
even to achieve in a laboratory. It takes special microphones 
to measure it.
    Mr. Duncan. And yet, in your study, you found--or in your 
research on this, you found that in 15 of the--was it 15 of the 
23 locations set up specifically to hear aircraft noise, they 
couldn't detect any noise over the 30 dBA level? Is that right?
    Mr. Alberti. That's right. And that's actually not my 
finding, that's--if you take a look at attachments four and 
five of my testimony, those are copied right out of the 
National Park Service re-

port. The NPS--these were people who were contracted by NPS to 
go and make those measurements.
    Mr. Duncan. Mr. Harrison, you say in your statement that 
you were one of the ones who came up with the original concept 
or idea of protecting natural quiet as a separate resource.
    Mr. Harrison. Yes, sir.
    Mr. Duncan. And would you consider a level of 30 dBA 
natural quiet?
    Mr. Harrison. For all practical purposes, yes, sir, I 
would. The reason for this is that the hearing mechanism is 
very, very sensitive. It's truly an engineering marvel, our 
hearing mechanism. Equally important, to the loudness of the 
aircraft is the loudness of what I've called self noise at the 
listener's ear. And the very lightest breeze, just breathing--
and in the Grand Canyon, you're doing plenty of breathing when 
you're going up and down there--will mask the aircraft sound.
    My big quarrel is not with the data. The guys that got the 
data--I know them all; I've worked with them; and I agree that 
the data is excellent. It's the use of the data and that the 
Park Service just will not consider self noise, background 
noise, and what is technically known as masking in a definition 
of natural quiet. They say in their report that natural is 
compromised when a sound can be heard. That simply is not true. 
Natural quiet is only compromised when a sound is heard.
    Mr. Duncan. Superintendent Arnberger, how many complaints--
Arnberger, how many complaints are you getting now about 
aircraft noise?
    Mr. Arnberger. In the last 2 years, we have received 
somewhere right around 70 to 78 complaints. I think I testified 
to that in St. George last year. I would want to amplify on 
that to say that, while complaints may in fact be statistically 
low in terms of the numbers of people that actually take the 
time to write a complaint, we obviously don't manage the 
resources of the national parks exclusively on the basis of 
complaints.
    Mr. Duncan. I'm amazed, though, because there's been so 
much attention to this issue that people haven't even generated 
more complaints than that. I mean, you've got what 5 million 
visitors out there now. Is that right?
    Mr. Arnberger. That's correct, but you also have to realize 
that about 95 percent of those visitors are, in fact, visiting 
areas that are off-limits to aircraft.
    Mr. Duncan. Well that was going to be my next point. Much 
of the park is already off-limits to aircraft. Is that correct? 
I think I was told----
    Mr. Arnberger. Well, the park is very highly sectored and 
divided up into corridors and so forth. But the vast majority 
of the people that visit Grand Canyon National Park arrive by 
bus or by automobile and spend time in the Grand Canyon Village 
or on the North Rim. Those particular areas, in fact, are off-
limits to aircraft and that aircraft is, in fact, transiting 
through other areas. Those other areas are where back-country 
users and river users are visiting. Those people have to go 
through a significant permitting process and a selection 
process to get that experience because of the need to protect 
that type of wild----
    Mr. Duncan. But aircraft aren't allowed over those areas.
    Mr. Arnberger. Yes, sir, they are.
    Mr. Duncan. And what percentage of the park are aircraft 
allowed over at this time?
    Mr. Arnberger. Right now, 45--well, right now, I believe 
it's 45 percent--if I could explain it to you this way. And the 
reason why I have to explain it to you this way is it's not 
where the aircraft is there, it's whether the sound of aircraft 
is there. And, right now, approximately 45--30 to 45 percent, 
depending on the time that we're talking about here, in fact, 
experiences some form of quiet that meets the goal.
    Mr. Duncan. But the most intrusive aircraft noise at this 
time really is helicopters sent by the National Park Service 
down into the park to pick up injured hikers, aren't----
    Mr. Arnberger. No, I--sorry, I would not agree with you on 
that.
    Mr. Duncan. You disagree with that. But those are the only 
aircraft that are allowed directly----
    Mr. Arnberger. I will admit to you that the National Park 
Services uses an aircraft to save 487 people per year.
    Mr. Duncan. Yes, and I'm sure not complaining about that. 
That's a very good----
    Mr. Arnberger. All of these are medics. But let me make 
another point about that. The National Park Service went out 
and spent a lot of money to, in fact, acquire the first quiet 
helicopter in use on public lands. It's called the Notard and--
the Notel rotor. And we believe that we have to make an effort 
in this particular effort as well. And I'm proud of that 
effort. And I think all of you are proud of that effort 
because, in fact, you helped us to get there as well.
    Mr. Duncan. Mr. Harrison, I notice you say--I was 
interested in this--I was--in your statement, you say: I was 
troubled by my visits to national parks. A meeting--in Hawaii, 
a meeting with the Park employees was arranged at their 
request. They wanted to put in front of me their concerns about 
how the noise of helicopter overflights was distressing them, 
the employees. They wanted to be sure I knew that--what an 
unbearable racket they were forced to put up with. When I 
queried them about the effects on wildlife, about visitor 
complaints, the compromise to the safety caused by these 
helicopter overflights, little or no concrete information was 
forthcoming, merely a reaffirmation that the biggest problem 
was the effect on the Park employees.
    I have a feeling that a lot of this is coming from Park 
employees and people who are really the most extreme of the 
extremists on this issue. Because if it wasn't, I mean, it's 
been said that people who live near airports develop almost 
superhuman hearing. And it's amazing to me that people who are 
sent out to hear these noises can't even hear these noises to a 
degree higher than what we've heard. I'm about to lose my voice 
and my time's up, so I thank you.
    Mr. Hansen. Thank you. The gentleman from Arizona, Mr. 
Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. I find this testimony 
fascinating and I quite frankly am not sure where to begin. I 
want to begin with one clarification, Superintendent Arnberger. 
I thought I heard it reported just a few moments ago that in 95 
percent of the park, the Park Service has already acknowledged 
that natural quiet, as defined by the Park, has been achieved. 
Isn't that what you said?
    Mr. Arnberger. Relative--no, that's not what I said.
    Mr. Shadegg. OK. Please correct me so I understand.
    Mr. Arnberger. OK. What I was saying was that in the 
developed areas of the park, aircraft noise has been 
specifically routed away from those areas so that aircraft 
noise is not part of the mix of the noises that you hear in 
those areas. But to say that natural quiet has been achieved 
down--right in the middle of the Village for the broad 
association of natural quiet, that's not what I'm saying. I'm 
saying, you're not hearing aircraft there because, in fact, the 
aircraft have been moved away from that particular area.
    Mr. Shadegg. Maybe we don't have time to get the answer to 
this, but I then understood you to say--maybe I was mistaken. 
Maybe it was Mr. Duncan who said that the report says natural 
quiet's been achieved in 95 percent of the park. And I believe 
he did say that. Then you said, no, you can perceive aircraft 
noise--or aircraft noise has been removed from 35 to 40 percent 
of the park. And I find a conflict there which I guess we'll 
just have to leave for another time. Perhaps you can clarify it 
in writing afterward.
    [The information referred to may be found at end of 
hearing.]
    Mr. Shadegg. As I listen here, I hear a split between what 
is a reasonable definition of natural quiet and what is an 
unreasonable definition of natural quiet. As I heard the 
testimony, it was that the experts here are saying reasonable 
definition of natural quiet is somewhere around 30 decibels, I 
think, and that you have set a standard at something closer to 
15 or 17 decibels. I know your expert isn't here, but----
    Mr. Arnberger. Well, let me take that. Let me take a try at 
it.
    Mr. Shadegg. Please.
    Mr. Arnberger. First of all, the ambient levels of sound in 
the Grand Canyon are some of the lowest threshold types of 
sounds that are there. And the Grand Canyon is like a giant 
ear. Some of the quietest of the quietest that you could ever 
hear. In fact, it is quieter than you suburban street. It can 
be heard there.
    Our particular position is that the ambient levels--and 
that's measurable and we were able to do that and I understand 
that there are experts that, in fact, disagree with those 
levels--were, in fact, made. And we increased those by three 
decibel points on top of that. I think what's important about 
that is two things, and I think what's important and it was 
upheld in the Appeals Court, and that, in fact, the definition 
of natural quiet and the definition of the goal of restoration 
is in fact a reasonable articulation of the agency. In fact, 
it's a reasonable goal. And that, in fact, a three-plus-the-
ambient is a reasonable level.
    Now, in terms of solving some of the other factual bases 
that have come up here about sound attenuation and so forth, 
some of those same questions, I must admit before you, have 
been from this agency, the National Park Service, to the FAA, 
relative to the use of the INM model. In fact, a helicopter 
speed at 160 miles an hour, I believe, is not something that we 
have espoused.
    Yes, we differ on such things as a 24-hour day. But there 
are no tour helicopters giving tours at night. The 12-hour day 
for tour flight and impacts on the visitor is a 12-hour day, 
not a 24-hour day.
    So, yes, there are some differences such as that.
    Mr. Shadegg. I'm not expert, but I went hiking with my son 
last--weekend before last and I was amazed at--and this has 
been true on every backpack trip I've taken--I'm amazed at how 
little you can hear or sense of the natural environment when 
you're hiking. Now, I grant you, there are other times. I don't 
want to run out of time.
    I take it, you do not agree that, SFAR 50-2 has restored 
natural quiet. Are you proposing to go further? And can you 
give me a short answer? They're going to cutoff my time.
    Mr. Arnberger. The report to Congress clearly stated--and 
that's the issue at hand here--that, in fact, SFAR 50-2 has not 
restored natural quiet to the Grand Canyon National Park. And 
that, in fact, further steps must be taken. And that's the 
process that we're involved in now, is the further steps to 
find a reasonable--some reasonable rulemaking actions that, in 
fact, provide for the substantial restoration of natural quiet.
    Mr. Shadegg. Mr. Harrison, do you agree further steps need 
to be taken?
    Mr. Harrison. No, sir, it's clear to me that the Park 
Service has grossly overstated their case and it's clear to me 
that SFAR 50-2 has substantially restored the natural quiet. 
And, if I may, just before the red light goes off, there seems 
to be a tendency, not amongst the agency, but amongst the 
environmental community, to tar us all with the brush of anti-
environment if we espouse helicopters, if we espouse motorized 
transportation.
    I have spent my professional life silencing the off-road 
vehicles. I have made measurements of every kind of off-road 
vehicle you can imagine. I have developed silencing systems for 
the Forest Service.
    Everybody on this panel is a hard-core environmentalist. 
Everyone of us. And it as important to us to keep things as 
quiet in the natural--in our wildernesses--excuse me; I'm 
getting excited--and our national parks as we possibly can. But 
it is counterproductive to keep forcing more and more and more 
upon the sources: the bikers, the pilots, the tour industry. 
Because what happens then is we can't continue to make our 
vehicles quieter. So I think it is time to call a moratorium on 
anything further and let the industry catch up with what has 
been required.
    Mr. Shadegg. Mr. Alberti, do you think further steps need 
to be taken?
    Mr. Alberti. Well, actually, I would underline what 
Superintendent Arnberger stated and actually Mr. Harrison 
observed also that let's do study the methodology. The NODSS 
program has not been field-validated. He was good enough to 
acknowledge. But let's don't make policy until we've got it 
figured out.
    Mr. Shadegg. So you would say no further steps now?
    Mr. Alberti. That's correct.
    Mr. Shadegg. OK. Dr.----
    Dr. Ahuja. To save time, I'll echo the sentiments of both 
Mr. Alberti and Mr. Harrison.
    Mr. Shadegg. Mr. Halvorson, I was fascinated by your appeal 
for incentives to achieve quiet. I guess, like my friend Mr. 
Faleomavaega--Congressman Wayne, that in this incredibly 
scientific world, we can't make more progress and I think you 
made an appeal to us that we could make more progress if the 
standards from the Park were clear and if the quote, unquote, 
``incentives'' were there for you to do that.
    Could you expand on that and explain to me what incentives 
would work? Is it a part of--OK, set--knowing what the standard 
is so you know if you spend the money, you will have achieved 
it? Or is it financial incentive that you're looking for?
    Mr. Halvorson. Well, I think it's both. If we have the 
incentives to know that if we achieve a certain level of sound 
reduction that we could get some--either some opportunities to 
fly in certain areas or we--possibly tax benefits. We pay $25 
every time we fly over the park. My company paid this year 
close to $1 million just to fly over the park. In addition to 
that, we pay a fuel tax; we pay airport taxes. It's an 
incredible cost to us. To put a quiet aircraft out there, 
whether it's an airplane or a helicopter, is going to cost 
hundreds of thousands of dollars for each vehicle.
    If we could have some relief, say, in the park tax that we 
pay, the $25 every time we fly across the border. If that could 
be applied against some other taxes or excise tax--10 percent 
per passenger--or fuel taxes or applied against the other taxes 
we pay, that would be a great incentive.
    And, you know, I think that this tax in the first place is 
an unfair tax, because we're the only thing that doesn't 
require a rest room, doesn't require a road, takes none of the 
services of the Park Service. We are not averse to paying it to 
the Park Service if it can help their programs, but if we could 
get some relief, if we have quiet aircraft, it would be a great 
incentive for this industry, I can assure you of that. There 
would be a scramble to get quiet aircraft.
    Mr. Shadegg. I want to conclude just with a statement--and 
it's going to include a perhaps off-the-wall thought. I am at 
times mystified by our inability--public agencies and the 
Congress and the Nation--to strike a balance in these areas. 
And I at times have little patience for and am upset by people 
who are absolutists, who say it absolutely has to be 1,000 
percent my way or no way.
    And sometimes there are those who I think take that 
position and do it regardless. That is to say, if they want to 
enjoy the park in an absolute pristine fashion, I am willing to 
work very hard to make that possible to the greatest extent 
possible. But there comes a point where you have to draw the 
line and say that shouldn't deny others their right to enjoy 
the park at all.
    And yet there are those who say, well, I don't want motors 
banned sometimes. I want motors banned all the time, forever 
and ever and ever. I don't want airplane noise diminished or 
restricted to areas, I want airplane noise gone forever and 
ever.
    And there are so many people that I represent who fall into 
a different category, who cannot afford the back-country 
experience, who cannot physically make themselves available. 
Maybe it took them a lifetime to save the money to be able to 
take a vacation in the Grand Canyon National Park and they are 
simply too old and too physically unfit to have the pristine 
experience.
    I want to throw a thought out. I think the balance is what 
we have to achieve and I think we ought to open our minds to 
how we achieve it. And I think that we ought to say to anybody 
who comes in and says, No, it's my way and nobody's else's way 
no matter what. I think we ought to just not listen to those 
people, because they're not being fair.
    In that regard, I want to ask a question. And I'm going to 
ask it about motorized raft trips also, later. Does anybody--
has anybody ever given a thought to saying, OK, given that we 
have different groups of people. The vast majority, quite 
frankly, want to enjoy the park riding on your buses, so 
they're not going to get 15 decibels. It isn't going to happen. 
The vast majority, quite frankly, you said, Superintendent 
Arnberger, that come by bus or car, I think, a huge number come 
by airplane. So they're creating noise as they're coming in.
    But one other thought that occurs to me--and I don't know 
if you've ever thought about it--in striking a balance, did 
anybody ever consider taking a 2- or 3-day window out of every 
2 weeks or whatever it might be--I'm just positing that as a 
hypothetical. Maybe that's too much; maybe that's too little--
and saying: OK, during these days, we're going to say noise is 
dramatically restricted, way below what it currently is now. 
But during the rest of the time, it's going to be what it is 
now or maybe a little above what it is.
    I just think it's so important for us to strike a balance 
and that we cannot let the absolutists cut everybody else out. 
And that's just a rhetorical question. I'm going to raise the 
question about motorized rafts. And I will tell you, the notion 
that we should never, ever, ever allow a motorized raft simply 
is inconsistent with the attitudes of the American people and 
their ability to use the park in a certain fashion.
    Why doesn't anybody talk about taking 1 month a year or 2 
weeks, two times a year, whatever it is, and saying, OK, here's 
a window. We're going to let those who want to raft without a 
motor and without knowing there's not a motor on their raft, 
but not a motor on the raft in front of them or behind them, 
and have that be the time period when there are no motors. But 
for the rest of time, let the rest of the world enjoy the 
canyon and the river with a motor. I don't know why we can't 
use some of those practical aspects, except that some people 
say, No, nobody, my way or no way. I thank you, Mr. Chairman.
    Mr. Hansen. Thank you. Mr. Arnberger, it's come to the 
attention of the Committee that there was a couple of groups 
hired to do this study and eventually came back and said that 
they had achieved quietness, natural quietness. And that they 
were rejected by the Park Service--maybe this was before your 
time; I don't know--they were rejected by the Park Service by 
the pressure of the environmental community until they found 
someone to do the study which would say that natural quietness 
had not been achieved. Have you ever heard that?
    Mr. Arnberger. I have absolutely no knowledge of any of 
that.
    Mr. Hansen. Was there anybody that was----
    Mr. Arnberger. I will certainly carry your question and let 
me get a reply back to you about the selection process or 
whatever of the contractors for the study. I have no--
absolutely no personal knowledge of any of that.
    Mr. Hansen. To your knowledge, was there any firms, groups, 
or organizations, engineering firms that were hired and then 
rejected before the study was done?
    Mr. Arnberger. To my knowledge, none. But I will check into 
that.
    Mr. Hansen. Would you mind looking into that?
    Mr. Arnberger. Yes, sir, I will.
    Mr. Hansen. And give us an answer and give us the names and 
the reasons that they were rejected, if that is the case?
    Mr. Arnberger. I sure will.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. I was part of this bill when it went through. I 
was a past pilot myself and one who has repented from flying 
down the middle of the Grand Canyon in a Piper Super Cub. But, 
as I recall the bill--and I have it here in front of me--which 
is now Public Law 100-91, ``the study shall distinguish between 
the impacts caused by sightseeing aircraft, military aircraft, 
commercial aviation, general aviation, and other forms of 
aircraft which affect these units.'' Did the study do that? I--
we haven't been able to put our hand on the distinction that 
the study was supposed to make, but we don't see it in front of 
us.
    Mr. Arnberger. The distinction of also looking at military 
and commercial flights as well. Is that----
    Mr. Hansen. It specifies all the general aviation----
    Mr. Arnberger. That's right.
    Mr. Hansen. That would include helicopters under other 
forms of aviation, it says.
    Mr. Arnberger. I believe the decision to focus the 
discussions of the report to Congress in on the tour industry 
was as a result of some of the history of the issue, I think, 
up to that point in time, including a tragic mid-air accident 
and so forth you mentioned in the 1975 legislation and so 
forth. That the focus of the efforts of restoration of natural 
quiet was, in fact, to center around the air tour industry.
    And I was not the one that made that decision to implement 
that report to Congress. I was the one that inherited it. But 
that's what I believe is the reason, the rationale, for, in 
fact, focusing on that one sector of the issue.
    Mr. Hansen. I can understand your statement, but that's not 
what the law says. The law says that you will make a 
distinction between all of these and I'm a little disturbed 
that's in not in the report.
    I guess the most powerful people in Congress are those who 
interpret the law after we finish it, that kid right out of law 
school who writes the regulation has become the most important 
guy around this place. That's why we have report language and 
legislative intent. When I was speaker of the house in the 
State of Utah, I insisted upon about a page of legislative 
intent for every para-

graph in every law because I was tired of getting sued on these 
things.
    Anyway, you allow helicopters to go down into the canyon to 
take out people who are injured or people off a raft trip. Is 
that right?
    Mr. Arnberger. These--they are public safety rescue 
missions and, yes, sir, we do--we have to have that capacity.
    Mr. Hansen. It is in the law. I put it there. And it was 
here before us. And, also, when a raft trip is concluded down 
by what do they call that----
    Mr. Arnberger. Whitmore Wash.
    Mr. Hansen. That is also allowed, is that correct?
    Mr. Arnberger. Yes, sir. That's a special provision there 
that basically says a direct flight to pick up those clients. 
And it's not tour flight, but a direct flight to pick up those 
clients at Whitmore Wash is permitted there at that location.
    Mr. Hansen. The law also says that they can make a direct 
flight across the canyon. Is that right?
    Mr. Arnberger. There at that location? I mean, they are 
picking up clients on the south bank of the river, on the 
Walapai lands and they are coming off the north side of the 
canyon. So, in effect, they are flying across that inner canyon 
corridor right there and landing.
    Mr. Hansen. Yes, subheading (c)(1) says, ``which fly''--
talking about helicopters--``a direct route between a point on 
the north rim outside the Grand Canyon Park and locations to 
the Indian reservations and,''--the thing we talked about 
earlier. So that's allowed, is that right?
    Mr. Arnberger. Yes, sir.
    Mr. Hansen. Mr. Shadegg said he didn't want to bring up the 
issue of rafts on the river. But in 1972, there was a group of 
environmentalists who were trying their best to get motors off 
the river. Later on Senator Hatch put some language in that 
one, we have discovered that. And that's come before this 
Committee periodically, ever year or so someone brings it up.
    Mercury did a UGST study on that. They came to this 
Committee and pointed out that the exhaust went in the water 
and all that kind of stuff. And they went down the river and 
took, actually, acoustical things all the way along with 
various river runners.
    Let me turn to our two experts on sound there. What have 
you heard--or you've concentrated on aircraft. What about other 
forms that break into silence? Either one of you want to 
respond to that?
    Mr. Harrison. Well, I'm probably the one who's done the 
broadest of the experts. And, as I'm sure the chairman knows, 
an expert is an ordinary guy that's 50 miles from home with a 
briefcase. But I think of the three of us, probably I'm the one 
who has done the most work on boat noise. And what I have--
although I have not done work specifically in the Grand 
Canyon--what I have found is that technological measures are 
very effective on both inboard and outboard boats and that, 
with careful engineering, either an inboard or an outboard can 
be made so quiet that the loudest source of noise from the boat 
is the water slapping the hull and the motor becomes no longer 
an issue.
    Mr. Hansen. In your expert opinion, would you state that 
the outboard motors, which are used on the Grand Canyon, do or 
do not create a disturbance as far as silence? What would be 
your opinion?
    Mr. Harrison. I think probably currently the currently used 
outboard motors certainly some of them do create a disturbance. 
But I think that's not a large percentage of them. And I think 
certainly that, with just a little regulatory help, that 
situation could be greatly ameliorated.
    Mr. Arnberger. Mr. Chairman, could I give you some----
    Mr. Hansen. Have you ever run the Grand Canyon yourself, 
Mr. Harrison?
    Mr. Harrison. Not in a motorboat, no.
    Mr. Hansen. So you're speaking not as one who has been 
there and listened to it, but more of your curbstone opinion, 
is that right?
    Mr. Harrison. Well, yes. I have made maybe 10,000 boat 
noise measurements in my life, but never in the Grand Canyon.
    Mr. Hansen. I see. Kind of a noisy canyon. A lot of water 
goes down that. Doesn't it, Mr. Superintendent?
    Mr. Harrison. That's exactly my point, that the background 
sound is such that it is very much a masking sound and 
certainly the boat noise is not any problem remote from the 
people who are right there in the canyon.
    Mr. Hansen. I perhaps have something to add. In my own 
opinion, having run it three times, you'd have to have the ears 
of a Doberman pinscher, but go ahead.
    Mr. Arnberger. I have, perhaps, some real-time information 
and it ought to come out in the next panel. In fact, this issue 
of natural quiet and trying to reduce noise and so forth is not 
just an aircraft it is a metropolitan issue here as well, with 
the sound of sirens.
    But the Grand Canyon Outfitters Association that represents 
the professional out there have taken extraordinary steps 
forward, similar to what Elling Halvorson has made and others, 
to, in fact, quiet down engines. And, in fact, the Honda 4-
cycle engine that is being used by a good number of those folks 
right now and by the National Park Service down there is 
contributing to a restoration of natural quiet from that 
particular sector. And it is an extraordinary difference 
between a Mercury 2-cycle and a Honda 4-cycle engine to where 
now the guides can stand in the back and talk in normal voices 
to their clients as opposed to, in the past, having to wear 
earmuffs.
    So the endeavor to, in fact, restore that type of an 
environment, to limit the impacts of noise is a widespread one 
and there is some levels of success occurring on the river 
itself with the concessionaires. And I would assume that some 
of that will come out in the next panel.
    Mr. Hansen. Let me just ask one more question of our 
engineers here. We've also--this Committee has had people 
complain about noises in Yellowstone, Glacier, Yosemite because 
of motorcycles going through. Go ahead.
    Mr. Harrison. A very serious problem, Mr. Chairman. The 
problem does have some parallels and it's interesting that you 
should bring this up because we had a spirited discussion, the 
four of us--Elling and the other two engineers--about just this 
subject this morning.
    The problem that occurs with motorcycles and, to some 
extent, snowmobiles--and, again, I have made probably tens of 
thousands of measurements of these vehicles--is that, while the 
bikes and the snowmobiles, when they leave the manufacturers' 
hands are very quiet--as a matter of fact, snowmobiles are 
quieter than any other vehicle in normal use--the fact that a 
certain percentage of the people that use them modify them, if, 
for no other reason, because they like the loud sound, is the 
contributor or the main contributor.
    Motorcycles are very quiet. Snowmobiles are extremely 
quiet. There is always downward pressure on the manufacturers 
of these vehicles to make the bikes and snowmobiles quieter. 
And this is counterproductive because what it does is it makes 
them run worse and then the guys take the mufflers off because 
they want the bikes to run.
    The Forest Service has been very successful--and I will 
take some credit for their success--in a draconian program of 
noise enforcement. There's a test method that can be run very 
quickly on motorcycles and if you don't meet it, you don't 
ride. Load it up, buddy, we're not letting you ride here. And, 
more importantly, the users themselves have gotten on this 
bandwagon and have put a lot of pressure on their colleagues to 
keep the stock mufflers on the bikes.
    So I can't tell you with a straight face that we have the 
problem solved, but I can tell you that the big problem is not 
the original equipment, but the manufact--but the 
modifications.
    Mr. Hansen. And if, you know, if I had my druthers, very 
personally, the one that I would like to tone down is the kid 
in the car that turns his stereo up so loud you can hear it 
five blocks away.
    Mr. Harrison. This is much more intractable problem.
    Mr. Hansen. That kid is the one I'd like to get to and I 
don't how you do that. Excuse the trivia part of that. Take 
that out of the record, will you?
    [Laughter.]
    The gentleman from American Samoa.
    Mr. Faleomavaega. Just another quick question, Mr. 
Chairman. Thank you. I just wanted to ask Superintendent 
Arnberger, you mentioned that National Park Service has 
contracted with some expert to model--to build this computer 
noise model. What's the approximate cost of the National Park 
Service in doing this?
    Mr. Arnberger. I believe that the cost of the construction 
of the first model that was done by BBN cost us significantly, 
or somewhere between, $500,000 and $1 million.
    Mr. Faleomavaega. And that's just the first phase, right?
    Mr. Arnberger. Yes, sir. I think it's very obvious that at 
that first phase, with the report to Congress, that we, in 
fact, felt that we had a model that was going to work and the 
values were good and we did our work. And as we have moved 
through this process, there's clear indications that both the 
FAA and the Park Service to come together, reevaluate the model 
and some other models, and see where we need to go further with 
that.
    Mr. Faleomavaega. Wait, let me see if I get this. You've 
al--you've expended $500,000 already only on the first phase 
as----
    Mr. Arnberger. The first model that--let me see what my 
colleague here is--yes, $800,000. I knew it was between 
$500,000 and $1 million. And what it--that was the first model 
that was done for--that was the NODSS model done for the report 
to Congress.
    Mr. Faleomavaega. And this is going to be the computer of 
all computers, the model of all models.
    Mr. Arnberger. No, it's not the computer. It's the 
building, the construction of the model, which is basically a 
series of mathematical equations which it works on and then 
puts out a GIS product of some sort.
    Mr. Faleomavaega. And--could I ask, Mr. Chairman, to submit 
for the record? We would like--in fairness to the National Park 
Service this morning, we would like to have you submit for the 
record your expert submission to state whatever--what you 
consider to be, as a different understanding of the science, to 
compare to our friends here who are testifying this morning. Is 
that OK with you?
    Mr. Arnberger. I would be very pleased to do that.
    [The information referred to may be found at end of 
hearing.]
    Mr. Faleomavaega. Now, this money, this $800,000 computer 
or whatever model that you're doing here, are we looking at 
something that is going to be finally built in a 10-month 
period or----
    Mr. Arnberger. I think that the important thing is that 
we're going to pull together a panel of people to in fact look 
at the existing models out there. Not only this model, but, in 
fact, the NODSS model, the INM model. In fact, we know that the 
Air Force has a model that is of some substance and look at 
what pieces we can use and keep and so forth. But for me to be 
able to make a--to give you a clear approximation of when and 
how much it's going to cost, I think that that's why we need to 
have this panel of experts and so forth to help us get there.
    I would tell you that we hope to be pulling this particular 
endeavor together in the next 2 to 3 months. We do not have 
time to waste on this particular endeavor. And, while we're 
looking for accuracy and the best thing possible, I think we 
have to be very careful about recreating the atom here. I think 
there is some sense that there are experts. There is good 
information. Now let's get them together and let's solve this.
    Mr. Faleomavaega. Now this is all in the purpose of 
conforming to the Public Law 100-91?
    Mr. Arnberger. Yes, sir, it is. It's basically in the mid-
life stages of the regulatory effort to, in fact, meet the 
letter of the law and the regulatory process with the FAA to, 
in fact, repopulate the air space in some fashion and manage 
that air space in some fashion. To allow air tourists to 
continue and also to meet the goal of the restoration of 
natural quiet.
    Mr. Faleomavaega. And do you feel that the laws that passed 
in the 100th Congress, the fact that we now have 5 million 
visitors in the canyon, do you think there's going to have to 
be some changes in the law? I mean, I'm a little disturbed by 
this and the fact that what it was 10 years ago is no longer 
the situation now.
    Mr. Arnberger. Well, it's not only the visitors, but in 
those 10 years the air tour industry has doubled, has increased 
over 100 percent. Which is a contributory to some of the degree 
of the prob-

lems. I don't think that that's going to require a 
rearticulation of the law. I think it's going to take more 
intense effort to, with the FAA and the people involved, to 
solve the problem.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Thank you, Mr. 
Arnberger.
    Mr. Hansen. Thank you. Mr. Arnberger, a few last questions 
and we'll let this panel go. You state in your testimony that 
the recent Court of Appeals decision declared that it is not 
unreasonable to use acoustical data to determine the degree of 
natural quiet. However, assessing natural quiet should not be, 
quote, ``one or the other.'' That is, all assessed by 
acoustical measurements or all assessed by visitors complaints. 
The question is this: Do you believe it is also reasonable to 
include visitor complaints and surveys along with acoustical 
data as significant parts of assessing natural quiet?
    Mr. Arnberger. I think that we have done a significant 
number of visitor surveys. It's called dose-response surveys, 
that in fact is part of the mix, yes, it's part of the mix of 
deciding to what measure we are going to be able to achieve the 
substantial restoration of natural quiet. I think the acoustic 
standard is the standard that we are going to stay with to, in 
fact, make that decision. But, I think we will be very, very 
seriously considering all of the dose-response studies that are 
going to be a part of that mix.
    Mr. Hansen. Does it--to what extent do you put any credence 
or weight to the idea of there are certain people who are 
limited in time, who are handicapped, who can only see the park 
by aviation means?
    Mr. Arnberger. I put credence to the fact of an air tour 
industry at Grand Canyon is an important part of the mix in the 
spectrum of visitor activities there. We are not intent on 
dismantling or eliminating the air tour industry from Grand 
Canyon. We are simply trying to strike that balance, as Mr. 
Shadegg brought out the difficulties of finding those places in 
there is what my life is.
    Mr. Hansen. Do you give equal weight to the people in 
aircraft as people in cars who have come to the north rim or 
the south rim?
    Mr. Arnberger. I think we give equal weight in terms of 
evaluating all of the wide spectrum of activities. I think it's 
important to note that, of the 800,000-some people that visit 
the canyon by air tours, 92 percent of those people also come 
into the canyon by bus or by car. So, in fact, it is not just 
an exclusive type of thing of flying over the canyon and 
leaving. Those people land in Tusayan or else they were there 
in the park, went out for the air tour. So they leave not only 
a footprint of some sort through the air, as transitory as it 
might be, but they also leave one on the ground.
    Mr. Hansen. OK. I'll dismiss--I was going to turn to you, 
Mr. Hayworth, to give an opening statement or whatever you 
wanted to do, but I was going to dismiss this committee, but 
maybe you have something you----
    Mr. Hayworth. I--just one question that arises, and I 
apologize for being late and perhaps it's been covered----
    Mr. Hansen. Well, we'll turn the time to you to use as you 
see fit.
    Mr. Hayworth. I thank you, Mr. Chairman. And let me just 
ask this question first and then I'll have a couple of other 
statements. First, Mr. Arnberger, and the rest of the panel, 
can you put down or offer some empirical data as to the number 
of disabled citizens who visit the park, especially via air 
tour? Because it seems to be a unique way to see the wonders. 
Do we have any empirical data on that information?
    Mr. Arnberger. I don't have any data. I--you know, and the 
way I would answer that is that the way for citizens who are 
impaired to see the park is not limited to what might be--to 
only aircraft. In fact, there are wide, wide spectrum of 
opportunities for those citizens to, in fact, enjoy that canyon 
and to see that canyon. And then, second, I would say that I'm 
sure there are a wide number of impaired citizens that do use 
aircraft, but that's not the only exclusive way to enjoy that 
canyon.
    Mr. Hayworth. No, indeed. But I think we would all agree 
today, even as we take a look at the different aspects of this 
decision, having had the privilege of seeing the canyon by air, 
in addition to being on foot, and the magnificent wonder that 
compromise that great national park, I think it's vitally 
important that we don't move to abridge anyone's rights to 
enjoy it. And especially those who may find the going somewhat 
challenging on foot or by vehicle.
    Mr. Chairman, I don't have any other questions for this 
panel if we want to move along. I do have some other statements 
if you would like to have them now.
    Mr. Hansen. Do you have an opening statement that you would 
like to give at this time?

STATEMENT OF HON. J. D. HAYWORTH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Hayworth. Thank you, Mr. Chairman. I just--I simply 
want to thank everyone for taking time to be here. And, as we 
say, Arizona is the Grand Canyon State. Of that, we are proud. 
And that's why you see three of us here, including my colleague 
who still serves on the Resources Committee, Mr. Shadegg, from 
the fourth district.
    Just some important points that I think we need to make 
today. First of all, I do not believe that wilderness 
designation--I don't believe wilderness designation will add 
any further protections to the park. It's already receiving 
protected status because of its affiliation with the National 
Park Service. I believe wilderness designation will make the 
park less accessible to certain people and that's not only 
dealing with air travel here. I just really think we have to 
ask this question of ourselves today: Should any one segment of 
society be forbidden to enter a national park that their taxes 
helped finance?
    I also believe the wilderness designation may substantially 
increase the cost of the Grand Canyon experience. I have heard 
some talk that there are some at the Interior Department who 
try to rationalize this by saying, Well, a family of four may 
go to Disneyland or Disney World and it'll cost them $100. I 
would point out for the record: The taxpayers don't finance 
Mickey Mouse and Donald Duck, at least not to my knowledge. And 
we're not talking about using these natural wonders that exist 
in our society as some sort of natural amusement park. These 
are special, incredible natu-

ral wonders and, again, I think we have to ask: Should the 
American people be priced out of a visit to this wonder of the 
world?
    People in the surrounding areas, private outfitters and 
others, should be involved in this public process and, indeed, 
this process should be open and fair and everyone's views, but 
especially the views of those who have committed no crime, but 
simply been involved in legitimate economic interchange, should 
be seriously considered when deciding the future status of this 
great park.
    And, again, I want to thank everyone for coming to testify, 
but I'd be remiss if I didn't also say that Mark Grisham, who's 
the executive director of the Grand Canyon Outfitters 
Association, is here. He is from the great sixth district, up 
in Flagstaff. We appreciate that as we appreciate all who join 
us here today. And I see my good friend Bob Lynch back there in 
one of the rows too.
    So, Mr. Chairman, thank you for your indulgence. To the 
Ranking Member, my good friend from Samoa, Mr. Faleomavaega, we 
thank you. And to all who have come here to testify today, we 
appreciate your efforts.
    Mr. Hansen. Thank you, Mr. Hayworth. We'll turn to Mr. 
Shadegg for two final questions. We're going to run out of time 
in a little while and we've got one more complete panel to go 
here, so, Mr. Shadegg, we'll turn to you.
    Mr. Shadegg. I just want to conclude one quick point. 
Superintendent Arnberger, I believe that I saw you nodding your 
head when Mr. Alberti indicated that he thought, before further 
restrictions were put on flights and further regulations 
driving down the amount of noise which is allowed or the area 
which is restricted, as expanded, that we should verify the 
studies that have been done and the scientific analyses that is 
being conducted. And I thought I saw you nodding your head. And 
I want to find out if you agree that, before further 
restrictions, we should kind of double check these studies and 
get agreement amongst the scientists.
    Mr. Arnberger. My nodding of my head was for one sector of 
his comments. And that is that we need verification. Now, I 
believe that there are--that concurrently, within the 
regulatory process, as we're moving forward--right now we are 
moving forward in a route structure, as an example. I believe 
that, in fact, a route structure, we can move forward on that.
    But I believe, as we start getting into another requirement 
of the regulation, a noise management plan, which is--a way to 
explain that is how we populate those skies and the routes with 
planes and how many they can there and when they can be there--
that, in fact, we're going to have to have a model that meets 
the test, the scientific test, and meets--and has the capacity 
to, in fact, do that. So I don't want to be so precise as to 
say we should stop everything until such time as we get the 
model. And I want to say very clearly that we see the 
importance of that model and we're moving very quickly on that.
    But to stop everything I don't think that we need to. I 
think that we need to move through this in a concurrent basis. 
And there are going to be some areas that are going to be 
dependent upon model validation. Those areas are going to come 
to a stop and there's going to be some areas that, perhaps, 
don't.
    Mr. Shadegg. So, if I understood that correctly, you agree 
with me in part and you disagree with me in part. You don't 
want to stop doing anything. But you agree that, before we do 
anything dramatic, perhaps it would be good to try to obtain 
agreement on the science.
    Mr. Arnberger. I think that that's been a significant blip 
on the radar screen of both the FAA and the National Park 
Service and we're moving in that direction.
    Mr. Shadegg. I hope you will commit to that and I would 
implore you that it is in everybody's interest for there to be 
a common agreement on the scientific basis. Because then we'll 
all have--and we'll all, I mean, everybody that has a right to 
use the park and uses the park--will have greater confidence in 
whatever levels are then established, based on that science. 
Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. We appreciate this committee and I 
appreciate your patience. You gave good answers and we would 
like to have the opportunity to write further questions to you 
if we have them. Would that be all right? And we appreciate 
your answers. Thank you so much.
    Superintendent, I think you're on for the next too, aren't 
you?
    Mr. Arnberger. Yes, sir, I'm here for the duration.
    Mr. Hansen. All right. Appreciate it. And you're 
accompanied by David Haskell?
    Mr. Arnberger. He's not here.
    Mr. Hansen. Senior scientist, Grand Canyon National Park; 
Robert S. Lynch, chairman of the board, Central Arizona 
Project; Mark Grisham, executive director, Grand Canyon River 
Outfit; Brian Merrill, chief of operations, Western Rivers 
Expeditions; and William C. Reffalt, The Wilderness Society and 
The Grand Canyon Trust. Would these folks please come up?
    Have we got you all in the right place? Superintendent 
Arnberger, do you want to do another opening statement?

  STATEMENT OF ROBERT ARNBERGER, SUPERINTENDENT, GRAND CANYON 
                         NATIONAL PARK

    Mr. Arnberger. Well, I was asked today to separate them 
into the two areas of concern so I----
    Mr. Hansen. All right. All right. We're going to run out of 
time on the use of this room, so we're going to try to hold 
everybody to 5 minutes, including members and panel. If you 
could possibly, we'd really appreciate it. Go ahead.
    Mr. Arnberger. The draft wilderness management plan for 
Grand Canyon National Park was released for public comment in 
June, 1998. And the comment period ended on September 15, 1998. 
And that draft plan essentially calls for the National Park 
Service to manage 1,109,257 acres of proposed wilderness and 
some 29,000 acres of potential wilderness.
    I think that, in the interests of time, we'll say that that 
draft plan is an internal operational management plan that we 
believe represents the proposal, the wilderness proposal, made 
by the National Park Service in 1980. And it is focused most 
especially on some of the more management-focus operations of 
the National Park Service, including what we call a minimal 
tool to assure that, in fact, we're meeting the intent of the 
Wilderness Act, and so forth.
    And, in the interest of time, you have the statement. And 
with at least several members of the panel there, including 
yourself, we've had some good discussion on these things, so we 
probably ought to get along and then provide for that 
opportunity.
    Mr. Hansen. Done?
    Mr. Arnberger. That's it.
    Mr. Hansen. Thank you so much. Mr. Lynch, we'll turn to 
you, sir.

 STATEMENT OF ROBERT S. LYNCH, CHAIRMAN OF THE BOARD, CENTRAL 
                  ARIZONA PROJECT ASSOCIATION

    Mr. Lynch. Thank you, Mr. Chairman, members of the 
Committee. The thing that's missing from Mr. Arnberger's 
statement that I'd like to see is a commitment to do an 
environmental impact statement to corral the issues that I 
think are missing from the draft plan and from the 
environmental assessment that accompanies it. Frankly, I think 
they've missed the boat, no pun intended, not only over 
motorized craft, but over just exactly what the implications 
are of the proposal for wilderness.
    First of all, this is and has to be--and I don't think 
anybody with a straight face could contradict the fact--that 
this is a major Federal action significantly affecting the 
quality of the human environment, the test under NEPA for doing 
an environmental impact statement. It's there. It has to be 
there. I mean, a first-year law student would find this and, 
certainly, the attorneys for the Park Service have to be 
advising Mr. Arnberger and the Service that they are going to 
have do an EIS.
    The EIS process, in my view, if it's properly handled, will 
bring out the issues that are missing now. And let me just 
mention a few of them. The issue with regard to water rights. 
The reason I'm here. The status of the Wilderness Act, as a 
tool for claiming reserved water rights, is an open question. 
It has been litigated over the years since the Act was 
originally passed in 1964. There is no resolve to that, except 
that 2 weeks ago, the State of Idaho filed its appeal in a 
State case that I have referenced in my testimony in which a 
trial judge in Idaho said the Wilderness Act is a tool for 
reserving--impliedly reserving water. A disastrous consequence 
in my view, and one not contemplated by Congress, but, 
nevertheless, it's there.
    This is an open question. It's a serious question in 
Arizona. It's a serious question on the Colorado River. It is 
not analyzed. It is not discussed. It is not part of this plan. 
And the Park Service has sort of stepped in this. I don't think 
they understood the depth to which these issues would come up 
for them while they were focusing on the narrow aspect of 
writing a proposal for designating wilderness in physical 
areas. But when they designated the river corridor as a 
potential wilderness, they brought themselves into a whole new 
world and in one they might not totally understand. One issue 
has to do with the water rights implications. And that's why 
I'm here, because, as I said in my testimony, CAP is the last 
right on the river and anything that implicates water rights on 
the Colorado River we have to be concerned about, and we are.
    We want to see this analyzed. We want to see it discussed. 
We want to have an opportunity to present a case about why this 
designation should not disturb the Law of the River. And we 
want not to have to fight this battle at a later time after a 
wilderness designation when either the Service or other groups 
will come in saying, ``I'm sorry, but you don't have the water 
supply you used to think you had.'' We just can't afford that 
in Arizona.
    We think that they've tripped over some of their own 
statutes that you have passed that have given them commands, 
not just of the Service, but the Secretary of the Interior. The 
1992 Grand Canyon Protection Act mandates a long-term 
monitoring and research program. The draft plan says not only--
the draft plan admits that they will have to restrict Park 
Service use of motorized craft on the river.
    Now if they're going to restrict them, they're also going 
to have to restrict the researchers who are on the river taking 
the scientific measurements. They're going to have to res--I 
mean, it's not just commercial river runners. There is a 
mandated plan under the 1992 Act, in section 1805, that will be 
restricted; there is physical equipment that may not be usable 
along the river corridor anymore if this is designated as a 
potential wilderness. The equipment that's used for remote 
sensing, scientific measurement, and this research program, 
which you mandated, is going to be adversely impacted by this 
designation and that is not analyzed in this plan or this 
environmental assessment.
    There are mandatory consultation requirements. In 1992, you 
put five consultation requirements into the Grand Canyon 
Protection Act. One of them is specific to the monitoring 
program. It's a command to the Secretary of the Interior, the 
same Secretary that Mr. Arnberger answers to, the same program, 
the same park, not done. And the plan admits they haven't 
consulted with the affected interests mentioned in the 1992 
Act.
    The 1992 Act also embellishes on the consultation 
requirements in the 1968 Lower Colorado River Basin Project 
Act. That, too, is a mandated consultation if there is going to 
be a potential effect on the annual operating plan that is 
mandated by the 1968 Act. That hasn't been done.
    A brief mention of the Americans For Disabilities Act 
issues. I attached some stuff that I recently ran across about 
a program, Phoenix Parks and Recreation, and, as it turns out, 
my wife's rotary club helps fund disabled people to take river 
trips. That has to be analyzed.
    There is a statute that you passed, I think in 1986, 
mandating that the Park Service provide access to Indian tribes 
and communities for religious purposes to the park. What's the 
impact of the wilderness designation on that command? It's not 
been analyzed. What about the Hopi salt caves in the upper 
canyon? What about the other sites which at least a half a 
dozen tribes in Arizona and New Mexico and southern Utah 
consider to have religious significance surrounding the canyon? 
Not been analyzed.
    This whole approach to NEPA, to me, and whether to do an 
EIS is like throwing a--rolling a boulder off a hill and just 
saying we won't worry about what it hits until we see what it 
hits. Now's the time to do the analysis. Now's the time to do 
the research. Now's the time to do the EIS and force these 
issues out into the open.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lynch may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Lynch. Mr. Grisham.

  STATEMENT OF MARK GRISHAM, EXECUTIVE DIRECTOR, GRAND CANYON 
                  RIVER OUTFITTERS ASSOCIATION

    Mr. Grisham. Thank you, Mr. Chairman.
    Mr. Hansen. Pull that mike close to you, please. Thank you.
    Mr. Grisham. Mr. Chairman and members of the Subcommittee, 
thank you very much for the opportunity to contribute to this 
oversight hearing today on the Grand Canyon National Park draft 
wilderness management plan. I'm the executive director of the 
Grand Canyon River Outfitters Association, a trade group that 
represents each of the 16 licensed, commercial river-running 
concessionaires who operate in Grand Canyon National Park. As 
we have for the past 2 decades, each year our member companies 
assist roughly 20,000 people from around the country and from 
around the world enjoy a Grand Canyon river adventure.
    Grand Canyon's river outfitters are proud of our industry 
and its mission which, in a nutshell, is to make a safe and 
enjoyable Grand Canyon river experience available to the 
broadest sweep of the American and international traveling 
publics as possible. To do this, we offer a diverse range of 
trip styles. We feel that anyone interested in getting to know 
the Grand Canyon can find the type of river trip that will suit 
them and that they will greatly enjoy and appreciate.
    The age of our patrons ranges from elementary school kids 
to retirees in their seventies and, yes, even in their 
eighties. The outdoor experience level varies from highly 
proficient and experienced outdoors people to those who have 
never spent a night under the stars. This diversity of interest 
is one of the most powerful things about the Grand Canyon river 
experience. These trips are not just for hardcore outdoor 
enthusiasts or the wilderness traveling elite of this country. 
The power of the experience is attested to eloquently by the 
fact that completion of our trips by those new to the outdoors 
regularly engenders a lifelong appreciation of the natural 
world and a recognition of the need to protect special places.
    Everyone agrees that the Grand Canyon river experience is a 
powerful and precious thing, yet its exact nature, what it is 
today, and what it should be tomorrow are things that elude 
simple definition and spawn heated debate. The instincts of 
government administrators continue to be for greater and 
greater control and regulation. At the same time, our 
experience leads us to conclude that a wilderness experience is 
a highly personal thing. We believe that the citizens of this 
nation should be treated as thinking adults and trusted by 
their government to find their own way to that type of 
encounter with the Grand Canyon that best suits their values, 
temperament, physical limitations, and expectations.
    To fully appreciate what is at stake in this debate, it is 
first helpful to understand what is not at stake. This is not a 
debate about protecting unprotected lands. The Grand Canyon is, 
of course, a na-

tional park. It is an intensely managed area, controlled 
completely by the National Park Service. As the members of this 
Committee know well, that agency's statutory obligations 
regarding resource stewardship are substantial. There is no 
imminent threat from which the Grand Canyon must today be 
saved.
    In addition to the many important details that, together, 
serve to describe and define the Grand Canyon river experience, 
there are two fundamental questions that end up really being 
just a single question. First is the matter of how broad or how 
narrow should the public's access be to the Grand Canyon river 
experience. Is the current level which has essentially been in 
place now for the last two decades just about right? Or is it 
too much or too little?
    Second, there is the issue of whether or not to eliminate 
the historic presence of low-power outboard motors from the 
river. Managing the Colorado River corridor as wilderness means 
banning motors. Is this a good or a bad idea?
    To answer that question, we believe one has to understand 
how removing motors would impact public access. It is the use 
of motorized watercraft that makes possible the current level 
of public access, while, at the same time, satisfying the 
various National Park Service resource protection and 
wilderness visitor experience prescriptions now in place. It 
simply is not possible to eliminate motorized watercraft from 
the river without also sharply reducing the public's historic 
access to the Grand Canyon river experience. We believe that 
eliminating motors would reduce public access by 50 percent or 
more from current levels.
    The Grand Canyon River Outfitters Association believes that 
the river corridor through the park should receive the same 
treatment as that given the cross-canyon trail corridor in the 
draft Grand Canyon wilderness management plan. It should be 
classified as a non-wilderness access corridor. Classifying the 
river corridor in this fashion would not mean that anything 
would then be tolerated on the river. It is still a national 
park, heavily regulated by the Park Service.
    The river outfitters are ready, able, and more than willing 
to sit down with the National Park Service, all other 
interested parties, the public we serve, the members of this 
Committee, and to engage in a constructive discussion of how 
current management of the river corridor can be improved to 
even further enhance resource protection and visitor experience 
goals. We are unwilling, however, to lend any support to the 
notion that motorized use on the Colorado River should be 
eliminated. We do not believe that the dramatic reduction in 
public access such management would necessitate--a reduction of 
50 percent or more from current levels--is warranted.
    If Grand Canyon National Park officials insist that either 
the immediate or eventual removal of motors is necessary under 
existing wilderness law and/or National Park Service wilderness 
management guidelines, we believe the time has arrived for this 
Committee and Congress as a whole to take up and to decide the 
Grand Canyon wilderness question once and for all. Thank you 
very much for the opportunity to be here today.
    [The prepared statement of Mr. Grisham may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Grisham. Mr. Merrill.

  STATEMENT OF BRIAN I. MERRILL, CHIEF OF OPERATIONS, WESTERN 
                       RIVERS EXPEDITIONS

    Mr. Merrill. Thank you, Mr. Chairman, and the members of 
the Subcommittee. My name is Brian Merrill. I'm chief of 
operations for Western River Expeditions. Western has been an 
outfitter in Grand Canyon since 1959 and under current 
ownership since 1977.
    As an industry, I am proud of the record that we have as 
protectors of Grand Canyon, as educators about Grand Canyon, 
and as lovers of the resource. And so it's--we are 
uncomfortable about the position we're put in here as being 
anti-wilderness. Wilderness is such a romantic concept and 
without a deep understanding of it, it's easy to just support 
it in a knee-jerk sort of fashion.
    But our understanding of it with regard to the river in 
Grand Canyon is that it is about access for the American 
public. If wilderness status is granted to the river, people 
are going to be shut out of Grand Canyon. And it is, 
admittedly, an economic issue for us. Are we self-interested? 
Absolutely. But the reason is because people are going to be 
kept off our trips. That's why our bottom line is going to be 
affected. Tons of people are going to be kept off our trips.
    For us, it represents--it would rep--carried to its logical 
conclusion, wilderness for the river in Grand Canyon would 
represent, at a minimum, a major recapitalization and 
restructuring of our business. And, for many members of our 
industry, it would represent quite simply the death knell. They 
would go out of business. They just couldn't function under 
extreme wilderness limits.
    Our trips--we run two basic trips through Grand Canyon. We 
run a 6-day trip down to Whitmore Wash that the chairman 
mentioned before. People helicopter out of the canyon and then 
another group helicopters in and runs a 3-day trip through the 
bottom end of the canyon.
    If motors were eliminated, the only option would be a 
minimum of about a 12- up to a 14-day trip down covering 
basically the same portion that our 6-day trip covers now. If 
helicopters were eliminated, then virtually half of the people 
who are experiencing Grand Canyon through our company now would 
be immediately taken away. We take approximately 2,000 people 
on our 6-day trip every year and an additional 2,000 on the 3-
day trip every year. And those 2,000 on the 3-day would be gone 
immediately if the helicopters were removed. There are other 
options that have been proposed: hiking in and out of the 
canyon, mules. And I won't go into the details right now of why 
those are not viable options, but they aren't.
    Motorized rafts are currently chosen by 75 percent of all 
of the people who go through Grand Canyon. Wilderness would 
eliminate that option for them. Motorized rafts provide 
flexibility in terms of contacts that are had on the river. One 
of the main goals of the managers of these plans is to reduce 
and manage the number--the level of contacts that occur between 
groups in Grand Canyon: How many times you see other people on 
the river or see them at attraction sites. The guides of 
motorized rafts have the ability to accelerate, decelerate. 
They can control their speed, communicate with other guides on 
the river, and make sure that these contacts occur less 
frequently. Motorized rafts also pass other groups relatively 
quickly whereas in a rowing situation, it could take hours to 
pass another group and you're contacting them often down the 
river.
    Ironically, wilderness could lead to more contact with the 
land. Currently we, you know, on a 6-day trip we camp five 
times. If we had to stretch that out to 12, 13 days, we would 
be camping 11 or 12 times. And each time you camp, that's more 
impact with the land.
    As these levels of contacts would increase without motors, 
if you had strictly rowboats, it would take a lot more boats to 
accomplish the same level of access. You can't put as many 
people in a rowboat as you can in a motorboat. So if you had 
that increased level of contact, the next step for the Park is 
to reduce the level of boats on the river, therefore reducing 
access even further.
    As Mr. Arnberger so graciously stated, our industry has 
voluntarily committed to convert to quieter engine technology, 
not only four-stroke, there is direct injection technology 
coming on line. They are significantly quieter. We're getting 
compliments from people who run rowing trips that they can 
barely hear these boats as they're going by now. And we have 
committed to convert 100 percent by the year 2001, as an 
industry. Our company will have this technology on our boats 
100 percent by next year, by the 1999 season. We're also 
exploring even quieter, cleaner technology that the ultimate 
result might be an electric engine on a boat in Grand Canyon 
and the industry is very committed to that effort. Hopefully it 
will work out.
    With regard to helicopters, they represent a clean and 
efficient way of getting people in and out of the canyon. They 
provide access for people who otherwise would not be able to do 
it. Quite frankly, our demographics reflect the demographics of 
the nation. We're getting older. We're in less--we're not as 
physically fit as we ought to be.
    And, people, this isn't about parading out the ill and the 
infirm, although many of those people access our trips--people 
who are in wheelchairs, people that have extreme physical 
disabilities are being taken through the Grand Canyon right 
now. Mr. Lynch mentioned the city of Parks--city of Phoenix 
Parks and Recreation. We work closely with that group. We have 
done so for 5 years to provide access to Grand Canyon. But this 
is about the average American, 70 years old, 80 years old, 
someone who's not in shape. They cannot hike in and out of 
Grand Canyon. They can't spend 12 to 15 days in the canyon. 
It's just a barrier that would placed in front of them, without 
motors.
    To conclude, I believe that we should be about protecting 
this resource and providing access. It's the dual mandate of 
the National Park Service. We do not take our partnership with 
the Park Service lightly. As the person who's in charge of 
training for our company, I preach it like a religion to our 
guides. They protect the resource. They interpret the park for 
the people. They love the people. They love the resource. They 
practice that religion that I preach to them with great fervor. 
And I'll stand on that record firmly and proudly. And we 
shouldn't be about keeping people from that experience in Grand 
Canyon. Thank you.
    [The prepared statement of Mr. Merrill may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Merrill. If you notice, you look 
back on the clock there, there's two lights that just appeared. 
We do a lot of things by lights around here. And that means 
that we've got a vote in about 9 minutes and that's about all 
the time it takes to get over there. So I would urge the 
members of the Committee to run over and vote and come right 
back and we'll turn to Mr. Reffalt at that time. Appreciate 
your patience, being with us. And we will take your statement. 
And then we'll turn to the members of the Committee, even I 
know everyone here has a number of questions. So it will stand 
in recess for just a few minutes.
    [Recess.]
    Mr. Hansen. [presiding.] Order. I'm sure the members will 
come in soon. A lot of discussion going on on the floor 
regarding our profile issues around here. So they'll be here, 
I'm sure.
    Mr. Reffalt, could we turn to you, please. I'd hold you 
awhile, but we're going to run out of time for this room, so 
I'd appreciate if we could get your testimony on the record. Go 
ahead.

STATEMENT OF WILLIAM C. REFFALT, THE WILDERNESS SOCIETY AND THE 
                       GRAND CANYON TRUST

    Mr. Reffalt. Thank you, Mr. Chairman. In the interest of 
the time, I will try to abbreviate my testimony--my written 
testimony--severely so we can move onto questions.
    Mr. Chairman, my name is Bill Reffalt. I am the director of 
National Parks and Alaska Lands for The Wilderness Society. I 
sincerely appreciate this opportunity to testify on behalf of 
our members and The Grand Canyon Trust regarding the Grand 
Canyon National Park.
    The Grand Canyon is one of the most unique and in many ways 
grandest wilderness areas in America. Standing on the rim at 
many locations, you can literally see into the heart of this 
magnificent national park. And at the heart of this park, of 
this wilderness and this park, is the Colorado River.
    It has been written that, without the flowing river there 
is no true Grand Canyon. It follows logically that the 
management of the park must deal effectively with these two 
functional--foundational elements of the park, that is, 
wilderness and the river. Many people can claim to be an 
interested stakeholder regarding park management. This would 
include all the past users of the park, the present users of 
the park, and even potential future users of the park.
    In its purest form, the management planning process that's 
currently underway simply grants fulfillment of the expectation 
of all of these people that they will be listened to and have 
an opportunity to have input to park management decisions. It 
supplies the Park Service with the concerns, opinions, ideas, 
and reactions of people who know and use the park and its 
resources. It permits interested parties with differing points 
of view to learn about other views and serves as a forum to 
make known all of the viewpoints.
    We believe that the National Park Service policy guidance 
on planning and wilderness properly reflects the spirit and 
intent of the Wilderness Act. Further, the Grand Canyon 
National Park staff has made a well-founded, reasoned, and 
positive effort to provide all stakeholders with the necessary 
information and an opportunity to respond to management 
proposals and concepts within the context of the administering 
laws. The complexities of the legal structure and the changes 
in park legislation, boundaries, relationships to tribal 
neighbors, and types and magnitude of visitor usage over the 
past 20 years bring potential need for changes in past 
proposals and potential new issues into the management picture. 
For these reasons, among others, we recognize the need for this 
public planning process and we are committed, along with many 
other stakeholder groups, to participating openly and 
constructively in that process.
    We believe that it is important for the future management 
programs to be discussed between and among the stakeholders in 
the context of their impacts upon various visitors and their 
park experience. It is important that the 1.1 million acres 
recommended to Congress for wilderness designation within the 
park have an up-to-date, well-designed, and cohesive management 
strategy, known and understood by the people affected by such 
designation. And we believe that the interested public deserves 
to have this opportunity for input and deserves to have their 
identified concerns and ideas addressed by the Park's 
professional staff.
    We have stated recently in a letter to all members of this 
Committee that we believe it would be premature and 
counterproductive for Members of the Congress to initiate 
legislative actions affecting individual elements of the 
management issues being considered prior to completion of the 
final wilderness management plan and Colorado River management 
plan. Ultimately, the final decisions about wilderness 
designation and many of these other aspects that are related to 
that designation will rest with this Committee and with the 
Congress. Those decisions can be aided and improved by the 
proper completion of the process that's now underway at the 
park.
    Mr. Chairman, I know there are several other important 
issues and administrative processes occurring in and around 
Grand Canyon National Park. To the best of my ability, I would 
be pleased to answer questions about them also. I again thank 
you for the opportunity to testify.
    [The prepared statement of Mr. Reffalt may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Reffalt. We appreciate your 
statement.
    Now, you've all gone into some very interesting areas here. 
The 1964 Wilderness Act passed through Congress and you may all 
recall it says: ``as if man was never there;'' ``no sign of 
man.'' I think the more interesting part of it is what was 
brought up on the Senate and the House floor. Kind of like in 
the court, you get the dicta, you know, what did they really 
mean by their decision. And, really, as you read what, 
especially Hubert Humphrey from Minnesota, said, he said, 
``This would include no sign of man would mean no roads,''--and 
that's a debatable point what constitutes a road. Two tracks a 
road?--``no fences, no structures; as if man was never there.'' 
An interesting statement, he said, he made this statement, he 
said, ``If you're like the first man God put on Earth and 
there's nothing there but you.'' You see, that's what it would 
be like.
    So, I find it interesting. I've been on this Committee for 
18 years and been part of a whole bunch of wilderness bills and 
a lot of proposals. And I've found it interesting that--the 
idea of what was the original intent of Congress doesn't seem 
to be there any longer. I look at wilderness proposals from all 
of the States and, boy, we've got some that go right over 
cities, over Class B and C roads. We've got some that have 
active mines on them. We've got some that have power lines 
right through the middle.
    It also goes on in the Act to talk about mechanized things. 
People interpret that to say motorized, but it says mechanized. 
And that is why the trail bike riders want to take their trail 
bikes into wilderness areas. In the State of Utah, we did the 
Forest Service bill in 1984. A big piece we put in, and it's 
beautiful and probably really qualifies, is called the Uinta 
Mountain. And now there's a big push from a lot of our 
environmental friends who also ride mountain bikes and they 
said, well, we would like to deviate for that.
    If anything, I think this Congress should do is to go back 
and look at the wilderness bill and determine what a road is, 
because that's never been determined. I think it should have a 
Sunset provision to get things off dead center. And I think we 
should really define mechanized.
    When I look at this, Superintendent, and what the proposal 
is, you go through the middle of the canyon and so that puts 
the entire river in the position of a wilderness, if I'm 
reading this right. I'm not sure I am, but if I'm reading this 
right, the whole river would be in it. Yet, we've gotten 
mechanized things and motorized things going right down the 
canyon. So if we're going to do this proposal, we would have to 
write in a very strong exemption for this work that's being 
done as far these--Mr. Merrill's comment about there are rigs 
with motors on them.
    We'd also have to say what a road is. And, if I'm reading 
this right--I'm not sure I am--where you've gone through a lot 
of roads in here. So I would assume that what the Park Service 
is saying is that you would really want to eliminate some of 
these roads or close them and let them come back to what they 
originally were, as the Forest Service does on a regular basis.
    I think that I've never seen one that will receive more 
controversy than the Grand Canyon. In the State of Utah, we 
have about six parks that we are preparing to build to do the 
wilderness part of it. I thought we'd sneak a little south and 
get yours in and get it over with. However, I think yours will 
be more controversial than the next 50 in line.
    And I think Mr. Lynch brought up a very interesting point. 
And another thing we've always talked about is the law of the 
river. And, boy, we're talking on some sacrosanct things. I 
mean, you're walking on eggs when you start talking about a 
man's water. You've heard Mo Udall say--what is it?--you can--
Whiskey's for drinking and water's for fighting. And I think 
that Mo was right. That creates some real problems when we 
start getting into talking about people's water. I got into 
this business 40 years ago by working on a water system and 
have been part of a lot of projects. I can see that yours isn't 
going to be an easy go.
    Mr. Grisham raised a very interesting point. A lot of 
people don't look at it, but, you know, when we create 
something in wilderness, we actually bring more people in than 
was ever there before. When the pioneers went West, a lot of 
that area hasn't changed one iota, not one smidgeon of it until 
we declared it wilderness. Just like the present on the Grand 
Staircase Escalante. It was nothing up until the time it became 
the Grand Staircase. Now people are coming in there by the 
millions. Not to be crude, but the papers down there, they call 
it toilet paper city.
    And so you find yourself in a situation where a lot of 
these designations Mother Nature herself put something in 
wilderness, man comes along and puts it in wilderness. The next 
thing we know, we've got people coming from all angles looking 
at it. So I sometimes wonder and I'd almost wish sometimes we'd 
left this wilderness stuff alone, we would probably have more 
area that would be preserved and in wilderness and pristine 
without man, than highlighting by wilderness.
    But it sure has created a lot of jobs for a lot of people 
and maybe that's the good side of it. Look at all these 
environmental groups now that have lawyers' retirement plans 
and all these good things that they've got that work very well. 
I say that respectfully, my friend from American Samoa.
    [Laughter.]
    But they raise a lot of money. If I got 10 percent of the 
money they raise on me, I'd be doing very well. But, anyway, 
with that meandering said here, I have to go to another 
meeting. And there's nobody I trust more than the gentleman 
from American Samoa and when the gentleman from Arizona, who 
has 2 hours worth of questions, comes back, would you turn the 
gavel back to him?
    Mr. Faleomavaega. [presiding.] Well, if he does come back. 
Because if I'm through with my questions and he's not here, I'm 
going to run this gavel down. Is that OK, Mr. Chairman? So 
it's--I'll be more than happy to assist. Mr. Chairman, you were 
mentioning about Mo Udall's famous statement about whiskey for 
drinking and water for fighting. I like to say whiskey for 
drinking and water for killing. Because that's--water's even 
more precious than gold, I'm told, in the western States. So I 
fully appreciate your comment on that.
    And I think, Mr. Arnberger, I have some additional 
questions now that we're talking about wilderness. Am I correct 
that the draft proposal on the wilderness was strictly an in-
house preparation? There was no consultations with any of the 
community organizations whatsoever?
    Mr. Arnberger. No, that's incorrect from our viewpoint.
    Mr. Faleomavaega. OK.
    Mr. Arnberger. In fact, we have to look at a little bit of 
the history here. The wilderness recommendation made by the 
administration was completed in 1980. That went through a 
public scoping process, four meetings, five meetings around 
Utah and around Arizona. A lot of input and so forth. That 
proposal was completed and went through full public involvement 
process and so forth.
    Subsequent to that, the proposal, the official 
recommendation by the administration, never did come to 
Congress, was never presented. For what reason, I know not. 
And, in fact, we've had two iterations of operational plans 
taking the wilderness law, the Wilderness Act, coupling it with 
the administration's proposal, and trying to make some sense as 
to how we, in fact, manage those lands to protect and preserve 
those, the wilderness suitability of those lands and not 
diminish them should any future action be taken.
    The present draft document you have is an operational plan 
in which 1,000 leaflets and requests for comments went out to 
the public. It's been before the public. We gave an extension 
of the public review of this particular draft plan. And we have 
gotten extensive responses and so forth back from the public, 
which is one reason why we're here.
    Mr. Faleomavaega. Let me ask you another leading question 
on this, Mr. Arnberger. If I'm correct to say that this was 
initiated since 1980?
    Mr. Arnberger. That's correct.
    Mr. Faleomavaega. And then the previous administrations 
kind of waffled on it?
    Mr. Arnberger. That's right. In 1975----
    Mr. Faleomavaega. OK.
    Mr. Arnberger. In 1975, the Grand Canyon Enlargement Act 
specified that a wilderness recommendation would, in fact, be 
completed for Grand Canyon pursuant to the 1964 Wilderness Act. 
We, in fact, accomplished that and then there was a decision to 
wait until the Colorado River management plan was finished. It 
was finished. That proposal was sent to the administration. 
And, in fact, it was basically completed--river management plan 
and wilderness management plan--in 1980.
    Mr. Faleomavaega. So it would seem that substantively that 
you've taken this for the last how many years? I mean, with the 
current draft proposal.
    Mr. Arnberger. Well, with the current draft, we had the 
proposal completed in 1980. We did some sociological research 
in the back-country and we completed our first back-country 
management plan in 1988. And then in 1994, we began the 
planning on our second revision, which we chose to call the 
wilderness management plan, and that's the draft. So we've been 
involved in public comment or in process since 1976, if you 
really want to get to it, to the present.
    Mr. Faleomavaega. But, basically, since 1994, did you say?
    Mr. Arnberger. Yes.
    Mr. Faleomavaega. So it's been about a 5-year period that 
you----
    Mr. Arnberger. Yes, we've been involved--and it's only been 
in the last year that we've got our--the actual documents 
written and so forth and that's where we're at.
    Mr. Faleomavaega. OK. OK. And it's as a result of this 5-
year period in drafting, commenting, and consultations that 
you're proposing 1.1 million acres for wilderness.
    Mr. Arnberger. No, that proposal for 1.1 million acres of 
wilderness is the administration's wilderness proposal made in 
1980.
    Mr. Faleomavaega. From 1980?
    Mr. Arnberger. That's right. This plan is doing nothing 
more than taking that wilderness proposal that was never acted 
upon by Congress--is taking that and putting some management 
and some operational kinds of context to it. So, yes, we're 
proposing it in this plan, but it is consistent with the 
official administration wilderness proposal made in 1980.
    Mr. Faleomavaega. Now, the fact that it was never submitted 
to the Congress since 1980, the report kind of became dormant, 
if you will----
    Mr. Arnberger. Well, it's hard for me to answer that 
particular question of why the report was not forwarded. I 
suspect that there were perhaps certain kinds of political 
reasons at different epochs and eras of history.
    Mr. Faleomavaega. To put it mildly, my friend Ronald Reagan 
was President at the time, I think, after 1980 for 8 years. 
But, no, that's OK. I mean there's nothing wrong with that.
    Mr. Shadegg. [presiding.] I thought Mr. Carter was 
President in 1980.
    Mr. Faleomavaega. No, President Reagan won against 
President Carter in 1980 elections.
    Mr. Shadegg. Held in November 1980, then.
    Mr. Faleomavaega. Wasn't it President Carter became--1976 
and 1980?
    Mr. Shadegg. And President Reagan in January 1981.
    Mr. Faleomavaega. 1981. OK. Well, then, 8 years afterwards 
he was President. Is that all right?
    Mr. Shadegg. You got it.
    Mr. Faleomavaega. OK. My point here, Mr. Arnberger, is that 
I'm sure that you heard the comments made earlier by our 
friends sitting next to you. Am I given the impression that 
there were no consultations with four of these gentlemen 
representing these four different interests and concerns?
    Mr. Arnberger. No, sir. That is not the impression 
whatsoever. In fact, we'd begun this process and the collateral 
Colorado River management plan in full concert with these 
gentlemen. And, in fact, all of us have known the very narrow 
precipice that we have been walking on. And that is the 
unanswered issue of the wilderness issue relative to the need 
to, in fact, devise some management strategies that marches 
into a new century with some of our needs. And all of us have 
been looking for a way to assure ourselves that we do not 
reopen the very damaging issue that happened in the 1980's. And 
I'm not sure whether we're going to make it.
    Mr. Faleomavaega. So--and I'm sorry, Mr. Chairman, I know 
you're--and my time's gone over.
    Mr. Shadegg. No, I'll be happy to let you run over it. It 
appears like this hearing is yours and mine. And I've got about 
3 hours worth of questions so I'm very tolerant.
    Mr. Faleomavaega. All right, Mr. Chairman. Just one more 
brief question. Now I'm sure, Mr. Arnberger, that you've taken 
serious consideration of what Mr. Lynch has stated in his 
statement about the water rights. And how seriously was the 
input on this issue in the drafting of this wilderness 
proposal?
    Mr. Arnberger. Well, the wilderness proposal--I think 
there's an entire section in that wilderness proposal that 
documents the public involvement process. Now I'm not a water 
rights lawyer, but in studying that particular proposal, I 
noted that back in 1977 and 1980 there was substantial comment 
and consultation with the water rights interests in that time, 
including comments from the Arizona Department of Water 
Resources and Bureau of Reclamation. And those--their comments 
are on file.
    Now relative to the precise document that you have in front 
of us, once again, it is based on that recommendation and does 
not depart from the recommendations made in the 1980 proposal.
    Mr. Faleomavaega. I think the concerns expressed by our 
friends that are sitting next to you is that the train started 
moving since 1980 and, despite all their recommendations and 
their suggestions, it seems that the train is not giving heed 
to their concerns. Is that an accurate depiction of what I'm--
--
    Mr. Arnberger. Yes, sir, I think it is. I think that we 
have to look at an extensive public involvement process that 
went into developing the wilderness recommendations in 1980. A 
tremendous amount of controversy. And, in fact, the 
overwhelming public opinion at that particular time was to 
proceed ahead with that wilderness proposal.
    Now there were interests that disagreed with that and that 
resulted in the Colorado River management plan and the Hatch 
amendment that limited some of our funding capacities. Now this 
is a contentious issue. To say that people haven't been heard. 
Yes, I disagree with that greatly. To say that everybody's in 
agreement, I agree--or not in agreement, then I would say, this 
is a contentious issue that wasn't agreed to in 1980 and it's 
not going to be agreed to with any ease now.
    Mr. Faleomavaega. And certainly you were not park 
superintendent in 1980.
    Mr. Arnberger. No, sir, I was a park ranger running around 
in Southern California at that time.
    Mr. Faleomavaega. Just one more question, Mr. Chairman, if 
I might. Am I correct to state, Mr. Arnberger, that this draft 
wilderness proposal is far, far from being completed in any 
form or any results? I mean, this is just being proposed?
    Mr. Arnberger. This is a draft document and it's a draft 
EA. And there has been substantial public comment and some 
substantial concerns that have raised not only legal issues, 
but legislative issues and, quite frankly, I'm not sure exactly 
what our next step is except to say that there's been 
substantial questions raised, which is going to require some 
substantial review before we go further.
    Mr. Faleomavaega. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Shadegg. I thank my colleague. And I can assure you, 
you can have a second round if you're so inclined.
    Superintendent Arnberger, let me begin by saying you and I 
have had some frank conversations about these issues. We're 
going to have another one today.
    Let me walk over history here. My friend, Mr. Faleomavaega, 
says it started in 1980. In point of fact, it started before 
that. Your appendix C walks through the time line. One can 
argue it began in 1971 and I'll bet you maybe it began before 
that.
    But I want to go through the major points here. In 197--
well, 1980--no, I'm sorry, 1971, 508,500 acres were proposed. 
Nineteen seventy five, the National Park Enlargement Act is 
adopted. Nine-

teen seventy six, a preliminary wilderness proposal is offered 
with 992,000 acres--right from your document. Nineteen eighty, 
the first plan is proffered. My understanding, pretty clearly, 
from your staff, is that the current plan that's before us was 
developed as a result of an internal review of the 1980 plan 
and an updating of the 1980 plan which was internal. Is that 
not correct?
    Mr. Arnberger. Well, that's correct. It was done in 1993. 
It was an internal review and it was responding to the 
wilderness proposal that said that internal review should be 
done.
    Mr. Shadegg. OK.
    Mr. Arnberger. And we did that in 1993 and it changed some 
of those acreage amounts.
    Mr. Shadegg. OK. Internal review. And then we move forward 
and in--at what point in time did you send out your scoping 
documents? Nineteen ninety three? Or when were the scoping 
documents sent out?
    Mr. Arnberger. For this particular plan?
    Mr. Shadegg. Nineteen ninety five.
    Mr. Arnberger. It was 1995.
    Mr. Shadegg. OK. At that point in time, no public notice 
went out. Am I correct?
    Mr. Arnberger. I believe you're correct. I don't know that 
for an absolute fact.
    Mr. Shadegg. Which would mean that the first public notice 
that went out would have been in June 1998.
    Mr. Arnberger. For the official comment on the draft.
    Mr. Shadegg. And that, then, invited a 45-day comment 
period.
    Mr. Arnberger. That's correct.
    Mr. Shadegg. I must tell you that, with all due respect, 
that history is stunning because the record establishes that 
the last public hearings at which people could comment on this 
plan, at which hearings were held--and they were held in four 
different cities as I understand, both in Utah and in Arizona, 
including my hometown of Phoenix--were held in--not 1980--but 
1976.
    Mr. Arnberger. That's correct.
    Mr. Shadegg. OK. I've got to tell you. In 1976, Adam 
Warebach, the immediate past president of the Sierra Club, was 
in diapers. He was less than a year old. In 19--there are 
constituents in my district who have been able to vote in the 
last two presidential elections who have not had a chance to 
hear you present this at a public forum and have not been 
afforded a chance to give their testimony on it. And there are 
people who did appear at the last public hearing on this issue 
and gave testimony, who had been dead for nearly a quarter of a 
century.
    I suggest that's a huge flaw in this plan and I will tell 
you, point-blank, I think the Park Service needs to rethink its 
position and if you agreed to my friend Mr. Faleomavaega, 
Congressman Wayne, that this thing is no where near done and 
needs further work, I urge you, in the strongest possible way, 
to recognize that that means you need to hold hearings. You 
need to hold hearings around at least the Southwestern United 
States and Congressman Hansen's State, in my State, preferably 
in my city, and allow for public comment.
    To allow 22 years to intervene between the last hearings, 
1976, 4 hearings, and what appears to be the final promulgation 
of the plan. I know it says draft, but it has a whole table for 
implementation. I just--I don't understand that. I know that 
much of the time delay is not your fault. You sent it in 19--I 
guess following the 1980 development of the plan, you sent it 
to the Secretary of the Interior. He chose not to send it to 
the President. Not your problem. I don't think you were 
superintendent in 1980. You just testified.
    But for whoever is to blame for this massive amount of 
time, I commend you for the internal review of 1993, but I 
simply think, before you can contemplate adopting this plan, 
which would have far-reaching implications for the people of 
Arizona, for the people of Utah, for the people of the entire 
country, I think public hearings where you explain the plan and 
its implications and where my regular folks can stand up and 
say, Gee, I think this is a good idea or a bad idea. They can 
say what I say, which is it is absolutely essential that we 
protect the pristine, untrammeled, untouched nature of that 
portion of the park which is also untrammeled and untouched, as 
the Wilderness Act contemplates. And that's the vast majority 
of the inner canyon. But they can also say, Well, wait a 
minute. Your map shows that we're going to close some roads and 
keep others.
    By the way, I sat with my staff last night and we looked at 
your map. The map says, OK, these green roads are going to stay 
open and these black roads are going to be closed. I can show 
you lots of roads on your map that--lots of roads on earlier 
maps that are not designated--they're on your map--but they're 
not designated whether they will stay open or stay closed. So 
the graphic depiction of that appears that they will not be 
closed, and yet the language of the plan says they will be 
closed. So I think there are very, very serious implications 
and I hope and would urge that you step back and go back to a 
public comment basis.
    Let me ask you--and I should afford you an opportunity to 
respond, I suppose.
    Mr. Arnberger. I really only have one response and it's 
more of a clarification. And, as you and I have discussed, the 
environmental assessment is dealing with that management plan. 
OK? Now the issue that you are bringing up of not--of the 
public input, I believe in fact we have met the requirements of 
NEPA relative to public input on that particular plan. Now that 
is a separate issue from----
    Mr. Shadegg. On the environmental assessment----
    Mr. Arnberger. On the wilderness management plan. Now that 
is a separate issue from the currency of the NPS wilderness 
proposal, completed in 1980. The wilderness management plan, in 
fact, is based upon that proposal and is consistent with that 
proposal, following those recommendations.
    And I'm not disagreeing with you; I'm just trying to, for 
the sake of clarification, to try to indicate there's two 
separate pieces of business here. One is a management plan that 
is based upon a proposal, an administration proposal in 1980. 
And we went through a process there and we believe that's a 
consistent process.
    But the issue of whether, in fact, you want to take the 
entire wilderness proposal back to the people, that's a 
separate issue, in my view.
    Mr. Shadegg. OK. Let's go back to some basics. First of 
all, let's start at ground zero. What is the legal basis for, 
whether it's statute or rule, for the Park Service's 
determination that potential wilderness within a park must be 
treated as wilderness? Is that statute or rule?
    Mr. Arnberger. It's based on statute and then it's further 
articulated--from the Park Service's viewpoint, it's based on 
statute and then it's further articulated in policy.
    Mr. Shadegg. OK. Yes. Our legal counsel says it's not in 
statute and that it is in fact in your policy. In arriving at 
that determination, do you not believe that public input, 
indeed, I think you said, extensive public comment and public 
opinion is important? Don't you believe that, in fact, there 
should be current public input, if you were to adopt such a 
plan?
    Mr. Arnberger. I think that, with what is intended with 
that management plan--and it's founded upon a proposal that's 
already been made and been through public input--that, in fact, 
the public input has been sufficient for that plan. And I still 
say that is a different issue than whether, in fact, it is 
important to pull the original wilderness proposal out and to 
take that forth and to begin that process anew. That's a 
decision that other people will have to make.
    Mr. Shadegg. What other people?
    Mr. Arnberger. Well, that proposal was put together 
pursuant to the 1964 Wilderness Act and pursuant to the 1975 
Grand Canyon Enlargement Act. That proposal was made. It has 
been forwarded to the administration. It has not been forwarded 
to the Congress. There seems to me to be a spectrum of 
alternatives here. This Congress can ask for the proposal. 
Congress can take action. The administration can send it 
forward. The administration cannot. There's a lot of those 
types of actions that I cannot commit or do not have the 
capacity to commit anybody to here at this hearing.
    Mr. Shadegg. I really apologize if I seem slow, but I want 
to get an understanding here. What you are saying is that the 
proposal to treat certain areas--to designate certain areas as 
wilderness went forward a long time ago, and that's not the 
issue now. Not what should or shouldn't be wilderness, but 
rather how we treat what is wilderness. Correct?
    Mr. Arnberger. That's a pretty good characterization.
    Mr. Shadegg. OK, then, so I understand it. I want Joe Six-
Pack back in Phoenix to be able to understand what we're 
talking about.
    Mr. Arnberger. Yes, that proposal went forth and went 
through the public involvement process. And that proposal was 
made in 1980. It went through from, as you say, 1976 to 1980. 
That particular plan is a management plan to basically 
implement that proposal. And it is the second generation of our 
management operations at the park. We had a similar plan in 
1988. It was known as the back-country management plan.
    Mr. Shadegg. Was not the plan submitted to the Secretary of 
Interior in 1980 called the wilderness management plan.
    Mr. Arnberger. Yes, it--no, it was called the wilderness 
proposal for Grand Canyon National Park.
    Mr. Shadegg. And did it address what should be treated as 
wilderness----
    Mr. Arnberger. Yes, sir.
    Mr. Shadegg. [continuing] or how wilderness should be 
treated?
    Mr. Arnberger. It addressed what should be treated as 
wilderness; what roads would be closed; and what kind of uses 
would be allowed. And it would be consistent with the 1964 
Wilderness Act.
    Mr. Shadegg. And this plan is in fact an updating of that 
1980 plan, upon which there was ultimately no action.
    Mr. Arnberger. No, sir, it's not an updating. It is an 
updating of a 1988 management plan. Let me give you an example. 
Another----
    Mr. Shadegg. Well, let me just--let's cut to the chase 
here.
    Mr. Arnberger. OK.
    Mr. Shadegg. If this isn't an updating of the 1980 plan, 
the only hearings that were public hearings that were held were 
held on the 1980 plan and they were held in 1976. So if this 
isn't an updating of that plan, then, Mr. Arnberger, 
Superintendent, there have been no public hearings on this 
plan.
    Mr. Arnberger. It is----
    Mr. Shadegg. I think you're getting yourself in a box, 
which you may not want to be in.
    Mr. Arnberger. Well, I'm not trying to get myself in a box. 
What I'm trying to understand or help you to understand is the 
distinction between a management, an operational plan, at the 
Park level and a proposal made for wilderness designation. Now 
that particular plan is in every way consistent--and if you 
want to say it is an updating, it's an updating--but it is 
consistent with the wilderness proposal made by the 
administration in 1980. In every way, it is consistent with 
that proposal.
    Mr. Shadegg. OK. We've now agreed it is an updating and it 
is consistent and, therefore, public hearings--whatever public 
hearings were ever held on this were held in 1976.
    Mr. Arnberger. They were held in 1976, that's correct.
    Mr. Shadegg. Although I guess you're trying to tell me that 
in part--is there anything in here that's different? I 
understand the 1976 plan was about a quarter of an inch thick. 
This plan's about a full inch thick.
    Mr. Arnberger. The--that particular plan conforms to 
National Park Service guidelines and policy for, in fact, 
putting together wilderness management plans pursuant to the 
wilderness designation. It conforms to the different categories 
and chapters that we have to have in a plan to look at the 
cultural resources, how we're going to manage cultural 
resources, to articulate what trails are going to be stained, 
to articulate to what standard those trails will be maintained, 
to articulate to what level roads will be maintained, and so 
forth.
    Mr. Shadegg. In my office, you told me that this plan was 
an updating of this plan, the back-country management plan, 
September 1988. That's what we're talking about?
    Mr. Arnberger. That's correct.
    Mr. Shadegg. OK. So we're clear here. There have--the only 
public hearings that my constituents could have participated in 
occurred back in 1976, 22 years ago.
    Mr. Arnberger. On the wilderness proposal, that's correct.
    Mr. Shadegg. And it's your contention that that satisfied 
the law.
    Mr. Arnberger. It is my contention that satisfied the law, 
yes, sir.
    Mr. Shadegg. And is it also your contention or is it not 
your contention that that's an appropriate way, putting the law 
aside--maybe we technically complied with the law; you 
apparently believe we did--that that's an appropriate way to 
develop plans within the Park Service, to hold hearings at 
which the public can comment 22 years ago, and then act now?
    Mr. Arnberger. The public commented in 1976 and they 
commented in 1998 as well. That plan that you have there went 
through a public involvement process.
    Mr. Shadegg. Good. We've gotten to a point where we now 
also have a sharp difference of opinion. You sent out 1,100 
scoping documents to interested parties. I don't know who those 
people were, but there was, in fact, no public notice published 
in 1993 to the constituents of my district, correct?
    Mr. Arnberger. That's correct.
    Mr. Shadegg. And there has never been, since, I guess, 
1976, perhaps, an invitation to the general public for public 
comment, short of a hearing? In other words----
    Mr. Arnberger. No, sir, we gave an invitation for the 
public to comment on that draft plan that you have before you.
    Mr. Shadegg. Sent to those 1,100 people.
    Mr. Arnberger. There was--we put press releases out and, in 
fact, you've seen some of those press releases for which there, 
unfortunately, some headlines that were inappropriately and 
incorrectly reported.
    Mr. Shadegg. Interested and motivated groups could submit 
written testimony.
    Mr. Arnberger. We sent--yes, sir. We provided for that, as 
we normally do.
    Mr. Shadegg. OK. Let's go to a kind of a basic rule here. 
The law sets forth the standard for potential wilderness, does 
it not?
    Mr. Arnberger. Yes, sir. Yes.
    Mr. Shadegg. And it would require that, for example, on the 
issue of roads, that there be 500--no, excuse me, 5,000 
contiguous acres where there are no roads and where the area is 
untrammeled by man and unaffected. Is that right?
    Mr. Arnberger. Yes, sir.
    Mr. Shadegg. OK. Do you know how much of--what proportion 
of the land above the rim you propose to now designate as 
wilderness?
    Mr. Arnberger. I don't know the exact percentages. I can 
find out for you. But, obviously, because of the size of the 
canyon, the majority of the acreage is down in the canyon and 
so forth. But I don't know the breakout of above-rim and below-
rim.
    Mr. Shadegg. Now let's talk about inside the canyon for a 
minute. Quite frankly, I don't think we disagree about inside 
the canyon except I'm curious about one issue and some may 
disagree with me. Why shouldn't--why should the cross-country 
corridor be designated as not wilderness, if that's to be 
hiked?
    Mr. Arnberger. Because the decision was is that it did not 
meet the wilderness criteria as articulated in the 1964 Act. It 
has a power right-of-way; it has a water pipeline going down 
the center of it; and it has historic--it has buildings that 
are located in it, different ranger stations and historic 
buildings.
    Mr. Shadegg. Right.
    Mr. Arnberger. So it, in fact, it did not meet that 
criteria.
    Mr. Shadegg. I'm just curious here. Could not the pipeline 
corridor, the power corridor, and the locations of facilities, 
including Phantom Ranch, be exempted from wilderness, but other 
portions of the trail considered wilderness?
    Mr. Arnberger. The way the configuration is, that probably 
would not work.
    Mr. Shadegg. The pipeline and the power line don't 
precisely follow the trail, do they?
    Mr. Arnberger. In several places, they deviate by some 
small sections and then they come in together. And, of course, 
there's water that goes up from Indian Gardens to the rim. It 
gets into an area of practicality and whether that, in fact, 
meets the intent.
    Mr. Shadegg. Well, let me make it clear, I don't disagree 
with the designation of the vast majority of the inner canyon, 
perhaps. We would be completely in agreement on the inner 
canyon, in your proposal, treating it as wilderness. So we're 
in agreement on that part of it.
    But you just said the reason that that was to be considered 
not wilderness is because of inconsistent uses. The raft 
community would say, by that same reasoning, that the river 
corridor should not be considered wilderness and, in point of 
fact, in the 19--either the 1971 or the 1980 plan, it was, in 
fact, specifically not to be treated as wilderness for that 
reason.
    Mr. Arnberger. That's correct.
    Mr. Shadegg. OK. So why the change in reasoning now?
    Mr. Arnberger. In 1975, the Grand Canyon Enlargement Act 
occurred. It told the Park to, in fact, develop a wilderness--a 
new wilderness plan that was, in fact, responsive to the 
Enlargement Act. In fact, we went out and did that. We had 
hearings and so forth. It was--the river clearly meets the 
intent of the legislation, relative to its capacity to be 
designated wilderness. I mean, there's a transitory use there 
on the river.
    That plan was put together and, in fact, it called the 
1970's--after the 1976 hearings, the 1977 plan was put together 
in which it recommended the phase-out of the motorized travel 
on the river to 1985. Accordingly, that potential wilderness 
category was put in the proposal because, in fact, it called 
for the eventual phase-out of motors in 1985. That did not sit 
well with certain constituencies and, in fact, some changes 
were required of us, through an appropriations process. And 
then we redrafted the Colorado River management plan, which it 
basically delayed or forestalled any decision on the motorized 
use on the river. And here I am today.
    Mr. Shadegg. If I heard you, one of the points I think you 
said that would distinguish the river from the trail is that 
the inconsist-

ent use, i.e. motors, is transient, that is it comes and goes 
versus the trail corridor, cross-canyon trail corridor, the 
inconsistent use is permanent.
    Mr. Arnberger. That's correct.
    Mr. Shadegg. OK. In my office, you talked to me also about 
the fact that this plan does not determine or foreshadow or 
even affect an ultimate decision on motors. And that those who 
are deeply concerned about the motor issue need not be deeply 
concerned at this point in time.
    Mr. Arnberger. Both this plan--our attempts with this plan 
and the concurrent Colorado River management plan was an 
attempt to get at some management issues we needed to get at, 
but to defer the question of motors on the river until some 
future date.
    Mr. Shadegg. OK. Do you have the plan in front of you?
    Mr. Arnberger. Do I have the plan in front of me? Very 
quickly, I can. Yes.
    Mr. Shadegg. Would you turn to page 16-152?
    Mr. Arnberger. Yes, sir.
    Mr. Shadegg. Top right-hand column. This is in the section 
on wilderness management implementation plan, which is how you 
implement this plan.
    Mr. Arnberger. Yes, sir.
    Mr. Shadegg. On the right-hand column at the top it says, 
``Prepare other park management plans consistent with the 
wilderness management plan.'' Does that not indicate--and if it 
doesn't, why?--that this, in fact, does impact--perhaps some 
would say decide--but certainly impact the motor issue in the 
future? Because if the Colorado River plan has to be consistent 
with this and if this makes the river corridor wilderness and 
if motors are inconsistent, why doesn't the one, since the 
future plans have to be consistent with this, foreclose that 
issue?
    Mr. Arnberger. The decision was made to put the river 
issue, the river wilderness issue, into the Colorado River 
management plan. When we started out that public process, 
working with the outfitters and working with all the 
constituency groups, we said, very clearly, up-front, that this 
plan is not going to open up the motors versus the oars issues. 
That, in fact, we are going to focus this plan in some other 
areas. And that's what we have attempted to do, to continue 
that deferral of this very, very sensitive and ticklish 
subject.
    Now if there is some language that sends some other 
messages and, to the extent that it does, it has always been 
the intent of my office to, in fact, defer this particular 
issue until such time as Congress makes the decision, when and 
if they do, and if there's some language that does that, then 
we will be more than happy to look at it to try to fashion 
language that does not preclude either designation of 
wilderness or, in fact, the continuation of the present status 
quo.
    Mr. Shadegg. Great.
    Mr. Arnberger. We will look at that.
    Mr. Shadegg. I appreciate that very much. I mean, language 
saying, Look, it is not our intent to foreclose this issue. I'm 
certain we could--it may not satisfy rafters, but it would be a 
step in the right direction and they'd have something to point 
to rather than language which somebody else can point to that 
says the Colorado River management plan has to be consistent 
with this plan. This plan says wilderness. Wilderness means no 
motors. Sorry, guys, it's over.
    Mr. Arnberger. There's--yes, I understand the chain there.
    Mr. Shadegg. Next question: The report says that there has 
been a world heritage designation by the United Nations of the 
Grand Canyon and that that extends the greatest protection 
possible. Can you tell me what world heritage designation is 
and what protections are extended and who has the right to 
protect them and under what rule of law?
    Mr. Arnberger. OK. Let me take a stab at that.
    Mr. Shadegg. OK.
    Mr. Arnberger. The world heritage is a designation 
established by the World Heritage Convention of which the 
United States is signatory to that treaty. It is a designation 
that is simply a designation extended to the most special 
places on the face of the earth, both cultural and natural 
places. Places such as the Taj Mahal or the plains of Serengeti 
and Grand Canyon National Park. It is a designation for the 
world to notify one another that, in fact, this place amongst 
the world's nations, in fact, is one of the most special 
places.
    Now, with it, it carries no requirement that we are to 
conform to any other kind of requirement.
    Mr. Shadegg. Could it?
    Mr. Arnberger. To my knowledge, no it could not. That there 
is nothing that would ever supplant the rules and the laws of 
the United States or the sovereignty of this Nation to, in 
fact, manage that particular resource.
    Mr. Shadegg. Do you know the--can you cite the United 
Nations----
    Mr. Arnberger. Obviously, I cannot. But I can----
    Mr. Shadegg. Get that for us?
    Mr. Arnberger. [continuing] get that for you, yes, sir.
    [The information referred to may be found at end of 
hearing.]
    Mr. Shadegg. I do have constituents who get very worried 
about this issue.
    Mr. Arnberger. I hear about them as well; hear from them as 
well, so----
    Mr. Shadegg. On page 2-14 of the park, it says, ``Congress 
intended park visitation to be contingent upon the ability of 
the NPS to preserve the park environments in an unimpaired 
condition.'' Taken literally, you, of course, would agree with 
me that that's impossible.
    Mr. Arnberger. Well, the unimpaired verbiage is, in fact, 
has its origins within our own organic legislation of 1916 
where, in fact, we will manage these place in an unimpaired 
fashion for future generations. Its been further held up by the 
amendments to that organic Act in 1978 with the Redwoods Act 
where it said we will not do anything in derogation of the 
values and purposes for which those parks are established.
    Now in terms of the ambiguity and so forth of talking about 
what impairment means, then we get into somewhat of the same 
kinds of discussions you get into with the overflights issue of 
what is sub-

stantial? And is 50 percent more or less or is that 
substantial? And those discussions are, obviously, loaded down 
with lots of ambiguity.
    The framers of the organic legislation, I think, had a 
clear intent that they wanted people to use the parks to see 
and enjoy the parks, but they did not want to impair the 
capacity to pass those parks along in an unimpaired type--
unimpaired fashion to future generations. And I think that the 
framers of that legislation saw recreational use and man's use 
of the resource to be, perhaps, maybe difficult at times to 
also taking care of the resource, but not to be inconsistent.
    But the idea, the fundamental idea was not to ruin these 
places so that we couldn't pass them on to our future 
generations.
    Mr. Shadegg. Unimpaired then meaning not damaged and not 
damaged so as not to be able to preserve their character.
    Mr. Arnberger. That would be a good way of getting at it.
    Mr. Shadegg. OK. I want to focus for a little bit on the 
road issue. Do we have the maps that we brought? I have a 
concern about the maps that I've seen. Your staff provided us 
with one map--maybe we should give it to you--with green roads 
marked as those roads that would remain open and black roads 
marked as those roads that would be closed. Let me have my 
staff give you that. I've got it folded up here. Hold on while 
we find the map.
    Let me start first with do you--has the Park Service 
conducted studies on the effect of road closures on access by 
either the handicapped or the elderly? Or, for that matter, by 
backpackers who want to access remote areas of the park, drive 
in a ways, park, and then hike from there?
    Mr. Arnberger. Consideration and so forth of those 
particular issues took place in the wilderness proposal period 
from 1976 to 1980. Those considerations were worked with. There 
was public input. And, in fact, the road closures that we have 
proposed here are consistent with that 1980 proposal.
    Mr. Shadegg. Adam Warebach couldn't comment. Neither could 
either of my kids or the voters in the last two presidential 
elections. I just--I'm troubled by this 1976 hearing for a 1998 
plan. I must tell you that.
    If you look at that map, you can find on it a number of 
roads which are on the map, but are neither green nor black, 
inside the park.
    Mr. Arnberger. Well, according--I must say, I've never seen 
this map, so I appreciate my staff providing it to you.
    [Laughter.]
    I've got some maps and I think we can work our way through 
this. The roads marked in black, by looking at the legend here, 
say they are roads that are closed to mechanized use.
    Mr. Shadegg. Right.
    Mr. Arnberger. Then there are in green are roads that are 
open to mechanized use. Just as a precursor to this, there are 
some 120 to 130 miles of roads that, in fact, were going to be 
closed.
    These roads, in some cases--as you say, the definitions 
here are really tough--in some cases never were public access 
roads. They were, in fact, roads to stock tanks; to certain 
particular areas that were used primarily in the Kanab Plateau 
area, prior to the estab-

lish--the enlargement of the Grand Canyon in 1975; to little 
mining claims; to stock tanks; and so forth. When that use, in 
fact, was moved out of there, those roads over the last 30 
years have gone to, in some cases, barely more than a dirt 
track.
    Now, out of a 130 of those miles of roads, right around 80 
miles of those roads are being converted to public access 
trails. Now there are a total of 10 roads and some 65 miles of 
roads that, in fact, are designed and permitted, under the 
wilderness proposal, to be open to mechanized use and to be 
trail heads. And that is consistent with the 1980 wilderness 
proposal.
    Mr. Shadegg. The Wilderness Act uses the word ``roads.'' It 
doesn't say what kind of roads. It doesn't say stock tank 
roads; it doesn't say former mining claim roads. It says roads. 
And it says that your evaluation--indeed it says the Secretary 
of Interior is to review every roadless area of 5,000 
contiguous acres or more in the national parks and make a 
determination.
    I am a little troubled by what you call public access 
roads. I grew up in Arizona. I've driven in two-wheel drive and 
four-wheel drive vehicles over a whole lot of roads. And I've 
used a lot of maps, like the one in front of you and like the 
one up here, topo maps. And it is my experience that, for every 
road that is shown on a topo map, there are 10 others that are 
not shown.
    And I am concerned, going back to this issue of public 
input, that if your staff gave me that map saying, oh, these 
green lines are the roads that are going to stay open. Isn't 
that wonderful? And these black roads are the only roads we're 
closing. That that mischaracterizes the fact. It sounds to me 
like it mischaracterized it a little bit for you. And in a 
brief period last night my staff and I were able to identify 
quickly four or five roads shown on that map and on this map 
for which there is no indication of whether they will be left 
open or closed.
    However, the specific language of the plan answers that 
question. And the specific language of the plan says: we are 
leaving these roads open, which I presume are the green lines 
on your map, and every map is closed--every other road is 
closed. I would submit to you that a fair argument can be 
raised that, in that aspect, the plan does not comply with the 
Wilderness Act. That, in point of fact, there are vast areas 
where there are roads. There were roads before 1976. And those 
roads, because of their existence, disqualify those areas from 
the language of Congress that they put into the Wilderness Act 
that you have to look at roadless area for 5,000 contiguous 
acres or more.
    Now it may be appropriate, nonetheless, to consider closing 
some of those roads. But when the last public hearings on this 
issue where someone could question you about well, what roads 
did you look at were held in 1976 and the only public comment 
they could make would be based on a map which I believe we can 
demonstrate is inaccurate if not demonstrably misleading, I 
think that raises a serious issue about whether the plan 
comports with the law, No. 1--which is an important standard--
and, No. 2, whether it's well-advised.
    Again, I have this view that we should strike a balance 
between preserving that which is, in fact, wilderness--and I've 
conceded the interior canyon clearly fits that, the vast 
majority of it. But I think we have a careful study to do on 
the rim area above. And I'm not convinced by what I've seen 
that that careful study has been done.
    I would like, for example to know, has an aerial photograph 
been taken of the park? And were these roads identified from 
that aerial photograph or were they--and, if so, how old is 
that aerial photograph? And who got to see it? I'm sorry, Mr. 
Reffalt, you wanted to comment on that point.
    Mr. Reffalt. Yes, Mr. Chairman, I wanted to comment that I 
do not completely disagree with your point about the roadless 
mandate in the Wilderness Act, but I do disagree that that's 
the definition of wilderness in that Act. And the definition of 
wilderness--and I'm reading from the Wilderness Act--contains a 
number of things. This is found in section 2(c) of the 
Wilderness Act. And it does not mention roadless at all in the 
definition.
    It mentions that it is recognized as an area where the 
earth and its community of life are untrammeled by man; where 
man himself is a visitor who does not remain.
    Mr. Shadegg. I used that line untrammeled by man in my own 
press statement on this issue today.
    Mr. Reffalt. That's correct.
    Mr. Shadegg. And I would at least argue that an area where 
you have extensive roads has been trammeled by man. Now maybe 
we disagree on that.
    Mr. Reffalt. I will respond to that when I finish reading, 
Mr. Chairman. ``An area of wilderness is further defined to 
mean, in this Act, an area of undeveloped Federal land, 
retaining its primeval character and influence without 
permanent improvements or human habitation, which is protected 
and managed so as to preserve its natural condition and which, 
one, generally appears to have been affected primarily by the 
forces of nature, with the imprint of man's work substantially 
unnoticeable; two, has outstanding opportunities for solitude 
or a primitive and unconfined type of recreation; three, has at 
least 5,000 acres of land or is of sufficient size as to make 
practicable its preservation and use in an unimpaired 
condition; and, four, may also contain ecological, geological 
or other features.''
    And I would argue that the statement about permanency is 
one of the issues that was dealt with repeatedly during the 
first 10 years of study under the Wilderness Act by the 
agencies and was discussed in literally thousands of hearings 
across this country. And it was determined that, in most 
instances, when you had trails that had been used as, you know, 
cow paths or driveways to water tanks, et cetera, that they 
didn't constitute permanence and that they could be recovered 
and if the area surrounding them was still in a condition that 
allowed for it to be protected in its primeval condition, and 
it still was basically untrammeled, unchanged, it hadn't been 
so mechanized that it was different in nature from the 
surrounding terrain, that it could qualify as wilderness if the 
Congress so determined.
    And that has happened repeatedly. So I find what they're 
doing here in the National Park consistent with all of that.
    Mr. Shadegg. Well, at grave risk of embroiling myself in an 
issue which I do not wish to go into, I will note that when the 
President doesn't know what ``is'' means and isn't sure what 
``alone'' means, it doesn't surprise me that we may have 
disputes or concerns about the ambiguity of the Act.
    There is a definition of wilderness, but there is a 
separate command to look at roadless areas. I don't know how 
you square those. And perhaps you do. I don't know that it's 
worth going too deep into this. But it is my prerogative to at 
least comment that I appreciate your remarks.
    And I think they're--you may be precisely correct except 
that I find areas where there are extensive roads, whether they 
go to stock tanks or otherwise, or being used by my 
constituents who want to go back in there and camp, not to have 
been untrammeled. And if there's a stock tank, I find them 
maybe to have been developed. And who knows what permanent is? 
If permanent improvements meant permanent, there's nothing 
permanent, I mean, so far as I know, except maybe life or 
death.
    And it talks about with the imprint of man's work 
substantially unnoticeable. Again, I've driven a lot of 
Arizona's back country and these roads, you find, precisely 
because they are noticeable. If they were not noticeable, I 
think we wouldn't be talking about them.
    And to make practical its preservation and use in an 
unimpaired condition, some would argue that they are in an 
impaired condition by the roads. As a matter of fact, I guess 
the point would be, if the roads aren't a big deal, what's the 
point in closing if closing them means backpackers who want to 
reach remote areas of the park will not be able to; handicapped 
individuals who want to reach that part of the rural areas of 
the park will not be able to; what value do we serve in closing 
roads that are extant?
    And I guess one of the debates is: What roads are extant? 
Given that all we see from the Park Service is markings on a 
map which show they're going to close some roads, but leave 
other roads, not indicated whether they're closing or not, but, 
in point of fact, in the language of the plan, they are in fact 
closing them without letting people know they're being closed.
    Mr. Reffalt. Well, without getting into that issue, because 
that's a question for the superintendent, again, I would point 
out that we have, today, over a 30-year history of this 
Congress designating wilderness across America. We have areas 
within that system, such as the Great Swamp National Wildlife 
Refuge in New Jersey that is 3,600 acres where the Congress of 
the United States determined that this area of less than 5,000 
acres was similar to an island and that the disturbances that 
had gone on in that area were not sufficient to disqualify it 
from wilderness. I would argue that we have areas across this 
country where there have been trails and other things that 
might have been called roads by some and something else by 
somebody else, but the fact remains that this Congress or 
previous Congresses have determined that they weren't 
permanent.
    And so when you pile up this rather long history of the way 
that it has been dealt with, both in the administrative end of 
it and in the congressional end of it, I think what we find 
here is what the Grand Canyon National Park is doing now and 
what Mr. Arnberger's staff is doing right now, fits nicely 
within all of that context. And so it's not different. It's not 
unusual. It is a little late in some respects, but when you 
look at the number of times that the Acts have been changed, 
the boundaries have been changed, the relationships within the 
park have been changed, then I find cause to say, we agree that 
they should be addressing these issues. And that's exactly what 
they're trying to do in this public process, Mr. Chairman.
    Mr. Shadegg. By no means am I saying they shouldn't be 
addressing this process. What I'm saying is that on its face it 
appears this plan, although a draft, the public comment period 
is closed. And there's no reason to believe right now, as we 
sit here today, that they are going to do a further 
environmental assessment. There's no reason to believe that 
they're going to do an environmental impact statement. And 
there is certainly no reason to believe they're going to hold 
further public hearings. And my point and my questioning is to 
show that the record, to date, is I think both outdated and 
inaccurate.
    But, beyond that, I think you made an excellent point in 
highlighting a concern I had about this. You said in discussing 
this area in New Jersey, where the Congress has decided that, 
even though there may have been development in the past and 
even though there may have been roads or other things 
inconsistent with wilderness in the past, that Congress has 
decided to now go back and say, None of that is so permanent 
that this now cannot be treated as wilderness and we, the 
Congress, are going to do that.
    A substantial problem I have here is with the fact that 
this is not the Congress acting. This is the National Park 
Service acting. Acting to treat this as wilderness, even though 
the Congress has not treated it as wilderness, has not 
designated it as wilderness.
    And a concern that I have that the process which led to the 
park treating it as wilderness--I mean, at the end of the day, 
it is not going to matter if this plan moves forward in the 
absence of this hearing and a chain is put across all of these 
roads because the Park Service wants to put a chain across all 
those roads. It's not going to matter whether the Park Service 
put up the chain or Congress did, the chain's going to be there 
and people are not going to be able to access those areas if 
Mr. Arnberger and the Park Service proceed with this plan as 
proposed and all the roads that I found on this map which the 
map they've handed out doesn't indicate are going to be closed 
are, in fact, going to be closed.
    And it's not going to be Congress saying, We think that 
area can be restored. It's not going to be Congress saying, We 
think it's appropriate to designate this as wilderness. Even 
though, perhaps, that's inconsistent with the requirement in 
the Act that they submit to us areas that are 5,000 contiguous 
acres which are roadless. But, rather, it's going to be the 
Park Service doing that. And I think that makes a big 
distinction between those--the treatment of those areas by 
Congress and the treatment of these areas by the Park Service, 
particularly when I believe the public input, which Mr. 
Arnberger says has been extensive and adequate and which I 
believe has been woefully inadequate. So.
    Mr. Reffalt. Mr. Chairman, the--I agree with Mr. Arnberger 
that there's a distinction to be made here between the 
management plan and the proposal for wilderness. And that 
sometimes gets a little bit difficult to deal with in 
conversation, but I have stated that maybe they're a little bit 
slow. The fact is that the policy statements within his agency 
that require this plan and require many of the features that 
you find in this management plan have been out for years. And 
the Park Service is required under the Wilderness Act to have 
policies of that nature.
    And, fundamentally, the question becomes how can the 
National Park Service or any other Federal agency who is 
directed under law to study the areas and make recommendations 
to you, the Congress, about what does qualify and what doesn't 
qualify and how you should go about dealing with some of the 
issues that they have to deal with in these areas, how do they 
do that unless they protect your right as a Congressman to make 
a series of decisions at some point in time? This area's been 
waiting since 1971, when it was first reasonably finished as a 
study. If they allow things to happen in that park that change 
the fundamental nature of the park from what it was in 1971, 
they're taking away your right as a Congressman and this 
Committee's right to make those decisions of what qualifies as 
wilderness and what doesn't.
    And I think what Mr. Arnberger and his staff are trying to 
do is assure the Congress that they will have an unfettered 
right to make that decision at some point in the future. And I 
applaud them for doing that.
    Mr. Shadegg. Thank you very much. Mr. Reffalt, let me tell 
you, this is not a recommendation. If they begin to implement 
it--and there's a time table for its implementation at the back 
of this--it becomes effective as law. It is not a 
recommendation to the Congress. As I just said, when the chains 
go up across those roads, it will not matter that the Congress 
has not acted.
    And I, quite frankly, believe that you can study the maps 
of the area above the rim and you can go out on the ground on 
the area above the rim and discover that it is not me who is 
proposing to fundamentally change the nature of those areas 
above the rim, but rather the Park Service that is proposing to 
fundamentally change the nature of those areas above the rim.
    They are not currently being used as wilderness. They are 
being driven on by motorized vehicles. They are being used by 
recreationalists. I know them. They have come and talked to me. 
And with a very broad brush, I believe the Park Service, for 
the areas above the rim, in this plan, has said, Forget all 
those roads that are back there that we haven't bothered to go 
look at. We're going to ban mechanized use of them based on 
public hearings held 22 years ago.
    So I think if it were simply a recommendation, if this were 
coming straight to Congress without implementation--and I don't 
disagree with you that if it's potential wilderness, they 
should protect it between now and then. That might be a 
practical thing to do. I don't want to see it despoiled between 
now and then.
    By the same token, I don't want to see their plan, their 
development of a plan, their development of a plan with, I 
believe, inadequate public input because the public hearings, 
for whatever reason, were held 22 years ago, at a time when you 
may not have been in this business, but I certainly was not, 
should become effective and change the character of those lands 
above the rim. And I feel that quite strongly and I hope I've 
made that clear.
    Let's--I want to go to a couple of other questions. There 
is--an issue has been raised, Mr. Arnberger, that designating 
the river corridor will--as a wilderness area--will make it 
more legally probable that you can be sued successfully to 
force motors off the river. Do you disagree with that?
    Mr. Arnberger. Forgive--run that argument by me again.
    Mr. Shadegg. Sure. Under the existing law, you are now 
treating this as wilderness, aren't you?
    Mr. Arnberger. Under policy, we, in fact, manage this area 
as a de facto wilderness.
    Mr. Shadegg. OK. Under policy, you manage it as a de facto 
wilderness. And you have discretion to do that, correct?
    Mr. Arnberger. Well, I have discretion within the bounds of 
policy and law.
    Mr. Shadegg. OK. And that discretion includes the 
discretion to allow motors to be there, right?
    Mr. Arnberger. That--the allowance of motors to be there 
was based upon the 1980 Colorado River management 
recommendation and the reality is is that in the 1980 
wilderness recommendation, the motors are to be phased out by 
1985. So the decision to defer the motor issue basically says 
that, until such future date that the motors are--the use is 
extinguished on the river--and, in fact, this area could stay 
in a potential wilderness classification because, on that date, 
then, in fact, it would meet the wilderness stipulations. That 
was the decision in bringing together the Colorado River 
management plan and the wilderness plan to the same focus point 
on the same issue.
    Mr. Shadegg. So are you saying, then, that rivers are now 
allowed as a--I mean, motors are now allowed on the river as a 
matter of law or as a matter of discretionary policy?
    Mr. Arnberger. What I'm saying is that the proposal that 
the administration made for the wilderness proposal for Grand 
Canyon National Monument provided for those motors to be phased 
out in 1985.
    Mr. Shadegg. OK.
    Mr. Arnberger. That that proposal never was carried through 
because of the changes in the river management plan, it was 
never changed. So we are sitting here with basically a proposal 
that allows that river use--or that motor use until such time 
as it is extinguished, with no date effective.
    Mr. Shadegg. OK. If I hear you correctly, says, you believe 
you have the discretion to allow that use because no law says 
you cannot. No statute says you cannot.
    Mr. Arnberger. I think it's consistent with the proposals 
that have been made prior to my tour.
    Mr. Shadegg. OK. It is argued--and this is not necessarily 
my argument but it is argued by some--that if a written plan is 
adopted, that that plan will then affect your ability to make 
this call as a matter of discretion. And that if the plan calls 
for, in writing, treatment of the river corridor as wilderness 
and says motors are inconsistent with wilderness as this plan 
at least states at one point, that the adoption of the plan 
will enable someone to file a lawsuit and to say that the 
superintendent no longer has discretion to allow motors because 
the plan says the corridor is wilderness and the plan says 
motors are inconsistent with wilderness. Have you heard that 
argument? Do you understand it? Do you reject it?
    Mr. Arnberger. I have not heard that argument. I don't know 
how that would come about. I would--I guess, you know, I would 
say that motors are inconsistent with wilderness and this 
particular area, that river corridor, has been established as a 
potential wilderness. And it says that there are motors on 
there that are inconsistent with the wilderness values and when 
they are removed, then it can become wilderness. So, to the 
extent that that particular argument is made, I would say that 
the argument has already been made in 1980.
    Mr. Shadegg. Mr. Grisham or Mr. Merrill, do you want to 
comment on that?
    Mr. Grisham. Our understanding, our read of this issue, 
sir, is that when the Park Service classified the river 
corridor as a potential wilderness area, it triggered Park 
Service regulations that say a non-conforming use must be 
removed at that point. So the legal challenge that could be 
brought that I think you're making reference to would be that 
they haven't lived up to their own regulatory obligation to 
remove a non-conforming use from a potential wilderness area.
    Mr. Shadegg. So the adoption of the wilderness management 
plan will not advance that legal argument?
    Mr. Grisham. I'm not sure that it's relevant. I'm not sure 
that the adoption of the management plan is relevant to that 
particular legal argument. The relevancy flows from the 
classification of the area as a potential wilderness area.
    Mr. Shadegg. Mr. Merrill.
    Mr. Merrill. I'd just echo what Mr. Grisham said, that one 
of the things we're specifically calling for is the removal of 
that potential wilderness status and classifying the river as a 
non-wilderness access corridor in the same manner that the 
cross-canyon corridor is designated, specifically for that 
reason.
    Mr. Shadegg. And Mr. Arnberger would say that's not an 
issue in the plan--in the management plan.
    Mr. Arnberger. That's correct.
    Mr. Shadegg. OK.
    Mr. Grisham. If I could add to that, sir.
    Mr. Shadegg. Sure.
    Mr. Grisham. We don't believe the Park Service intended it 
to be an issue because their desire was to kind of continue 
this dichotomy in order not to confront the issue, quite 
honestly. It's become an issue recently because it's been 
raised by a variety of constituency groups in their comments to 
the draft management plan.
    Mr. Shadegg. Well, in that regard, would you be satisfied 
with Superintendent Arnberger's earlier offer to put language 
in there that clarifies that it is not intended to be affected 
by this?
    Mr. Grisham. Our comfort level with that course of action 
would be dependant on legal reviews coming both from the 
solicitor's office at the Department of Interior and 
independent confirmations of that.
    Mr. Merrill. And I would have to also agree with my good 
friend Mark that my language would have to go through the--
through a similar food chain of review and so forth.
    Mr. Shadegg. Well, it's clear that that's your intent and 
that that would be something that would give them some level of 
comfort. So, perhaps we find that.
    You know, we've been at this a long time. Mr. Arnberger, 
you would not object if we submitted a few additional questions 
in writing, would you?
    Mr. Arnberger. Absolutely not, sir.
    Mr. Shadegg. Well, in that case, in the absence of any 
other questioners--none of these notes deal with questions, so 
I thank you all very much. I appreciate your time and your 
energy put into this.
    And I do think, as I said at the outset, No. 1, 
Superintendent, you have an incredibly difficult job. You are 
not responsible for the delay since the public hearing, but I 
feel strongly that public hearings are called for. And, No. 2, 
I think this is extremely important. I do think there are far-
reaching implications. I understand you're kind of just trying 
to do your job. It's already been designated wilderness, so far 
as the Park Service is concerned. Now you've got to figure out 
how to manage it.
    And I hope by my comments, I haven't indicated--and I think 
Mr. Reffalt suggested this--that I am antagonistic to doing 
what you are trying to do. I am only concerned that we do it in 
a way that is--that strikes the proper balance that I mentioned 
at the beginning of the meeting. Now, I'm very anxious, 
extremely anxious to protect the pristine areas that can and 
should be protected. I'm a little worried about whether, above 
the rim, we've overreached and not allowed enough public 
comment to decide if we've overreached, but I don't know the 
answers.
    But under no circumstances do I want my comments 
interpreted as saying you shouldn't be trying to do this or 
that you've done anything wrong in trying to do it. So I hope 
we can work--continue to work together. You and I have worked 
together well in the past and I'm sure----
    Mr. Arnberger. Thank you. We have a good relationship. Yes.
    Mr. Shadegg. I'm sure we'll do so in the future. I thank 
you gentlemen very much.
    Mr. Grisham. Thank you.
    Mr. Shadegg. This hearing is closed.
    [Whereupon, at 1:51 p.m., the Committee was adjourned, 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
 Statement of Robert Arnberger, Superintendent, Grand Canyon National 
                                  Park

    Mr. Chairman, thank you very much for the opportunity to 
explain the draft Grand Canyon River Wilderness Management Plan 
and its association with the Colorado River Management Plan, 
and the use by the National Park Service of data relating to 
air tour flights over Grand Canyon National Park.

The Relationship of the Draft Grand Canyon Wilderness 
Management Plan to the Colorado River Management Plan

    The Draft Wilderness Management Plan for Grand Canyon 
National Park was released for public comment in June 1998. The 
comment period ended on September 15, 1998. The draft plan 
essentially calls for the National Park Service to manage 
1,109,257 acres of proposed wilderness, and 29,820 acres of 
``potential'' wilderness, in a manner that is consistent with 
the 1964 Wilderness Act, the 1975 Grand Canyon National Park 
Enlargement Act, and a 1995 directive issued by the Director of 
the National Park Service.
    Specifically, the draft plan calls for a management program 
that would focus on providing the public sufficient access to 
proposed wilderness, the preservation of wilderness resources 
and values, personal safety, and resource protection. The plan 
would establish and rehabilitate areas that have been impacted 
by use, restore to natural condition several four wheel drive 
dirt roads, and relocate and rehabilitate rim access trails. 
The plan calls for the retention of ten primitive roads to 
provide mechanical access to wilderness trailheads and scenic 
vistas. It also provides for stock use of six rim wilderness 
trailheads and one inner canyon wilderness trailhead, and 
defines the criteria for preserving 63 individual trails. The 
cultural resources component of the draft plan calls for the 
National Park Service to develop management strategies to 
determine eligibility of structures for the National Historic 
Register, and the implementation of archeological surveys, 
among other things.
    Consistent with long-standing NPS policy, the plan calls 
for proposed wilderness to be managed in the same manner as 
wilderness that has been designated by Congress. The proposed 
wilderness of 1,109,000 acres is the land the National Park 
Service has recommended pursuant to the 1964 Wilderness Act and 
the 1975 Grand Canyon Enlargement Act to be designated as 
wilderness. By managing this land to preserve its wilderness 
qualities, we are preserving the Congressional intent 
underlying these statutes, which called for the Park Service to 
recommend areas of the park system (Wilderness Act) and Grand 
Canyon National Park (Grand Canyon Enlargement Act) for 
wilderness designation.
    The draft plan treats 29,820 acres of Colorado River 
Corridor as potential, rather than proposed wilderness. The 
reason for this is that this area experiences significant usage 
from motorized rafts, which would be inconsistent with future 
wilderness designation. The draft plan does not propose a 
phase-out of motorized usage and essentially defers to another 
planning instrument, the Colorado River Management Plan, for 
the management of this area.
    The Colorado River Management Plan, which has not gone 
through a meaningful public review since 1980, is in the 
preliminary stages of revision. A revision is necessary because 
since 1980 river usage and the demand for river usage has 
increased, and the impact of usage on the river has become more 
pronounced. Objectives for the new plan include improvements in 
the management of visitor use, the protection of river related 
resources, and ensuring that visitor opportunities are more 
consistent with the goals established by the 1995 Grand Canyon 
General Management Plan. As part of this process, Grand Canyon 
National Park sought ideas from the public as part of a scoping 
process that took place from September 1997, to December 1997. 
In addition, five informal public work groups have been formed 
to address key issues and a method for these groups to seek 
public involvement through the Internet has been established. 
We expect a proposed River Management Plan to be issued for 
public comment within one year.

Analysis of Data from Overflights

    I would like to turn now to the second part of this 
hearing, the analysis of data relating to scenic air tour 
flights over the Grand Canyon. Public Law 100-91 in 1987 
(commonly referred to as the ``National Parks Overflights 
Act'') required a plan providing ``for substantial restoration 
of the natural quiet and experience of the park and protection 
of public health and safety from adverse effects associated 
with aircraft overflights.'' This Act also required NPS to 
submit a report to Congress on ``. . . whether this plan has 
succeeded in substantially restoring the natural quiet in the 
park.'' Extensive acoustical and sociological research was 
conducted between 1989 and 1993 to provide the information for 
this report. This report was submitted to Congress in 1994 and 
published in 1995. In this report the National Park Service 
concluded that the phrase ``substantial restoration of natural 
quiet'' required 50 percent or more of the park to be without 
the sounds of aircraft for 75 to 100 percent of the day. In the 
case of The Grand Canvon Air Tour Coalition vs. The Federal 
Aviation Administration the U.S Court of Appeals for the 
District of Columbia recently ruled that the use of acoustic 
data to determine the degree of natural quiet is not 
unreasonable. No acoustic research has been completed at Grand 
Canyon since 1993, although the FAA has initiated some visitor-
based, dose-response research in the park this past summer.
    To predict the acoustic impact of aircraft noise in natural 
and park-like settings, the NPS contracted with leading 
modeling experts to design and build a state of the art 
computer noise model that would accurately model the park 
acoustic environment. The result was the NODSS (National Park 
Service Overflights Decision Support System) model, which is 
able to measure the impacts of aviation noise on ground 
visitors at a resolution of 300 meters, even with respect to 
the complex topography of Grand Canyon. Using inputs including 
the acoustic characteristics of the park and various aircraft 
types and the number and routing of overflights operations, the 
model is able to characterize how close the Park is to reaching 
its goal of substantial restoration of natural quiet.
    The FAA uses the ``Integrated Noise Model'' (INM) to 
provide predictions of acoustic impacts on communities around 
airports. The FAA produced an expanded version of the model for 
the preparation of environmental documents associated with the 
proposed and final rules. In the Grand Canyon case, the FAA has 
used INM together with NPS acoustic data and FAA/NPS estimates 
of the number of overflights and location of operations to 
produce the results provided in their environmental 
assessments.
    An understanding of how much of the NPS natural quiet 
restoration goal has been achieved is critical to the 
rulemaking process in which the NPS and FAA are now engaged. 
The two models, however, produce somewhat different results. As 
the two models were developed for use in very different 
settings and for somewhat different purposes, it is not 
surprising that they do not produce identical results. Although 
we believe that the NODSS Model is the best product we could 
have produced at the time, neither model has been field 
validated in relation to its ability to precisely accomplish 
its intended purpose.
    To determine how to best model the acoustic impacts of 
overflights-produced noise at the Grand Canyon, the FAA and the 
NPS have agreed to conduct a model validation study that should 
provide additional information regarding the accuracy of these 
models and perhaps others that we have not tested at all. The 
design, implementation, and results of this model validation 
study will be monitored by a panel of internationally acclaimed 
acoustic experts. By combining the model validation study with 
review by a technical review committee in an open process, we 
expect to achieve both better science to enlighten our policy 
and regulatory decisions and to generate greater public 
confidence in our processes, results, and future decisions.
    This concludes my statement. I would be happy to answer any 
of your questions.
                                ------                                


Statement of Elling Halvorson, President, Papillon Airways, Inc., Grand 
                            Canyon, Arizona

    Honorable Chairman, Members of the Resource Committee, and 
Others:
    My name is Elling Halvorson. I reside in Seattle, 
Washington, and represent Papillon Grand Canyon Helicopters and 
Grand Canyon Airlines, as well as members of the United States 
Air Tour Association and Helicopter Association International.
    I have been asked to tell why I commissioned a study, at 
significant personal expense, to demonstrate the actual impacts 
of scenic flights over Grand Canyon National Park.
    Since all aircraft based out of Grand Canyon National Park 
Airport operate in the central region of Grand Canyon National 
Park, the study I authorized was confined to that area.
    My reasons were very simple as follows:

    When I first read the National Park Service's Report to 
Congress, which included their sound study, it became apparent 
to me that the sound study was biased because there is no way 
that aircraft can be heard in certain areas of Grand Canyon 
National Park, which were highlighted with red color as areas 
of impact in the study.
    The National Park Service's Report to Congress reports that 
less than \1/2\ of 1 percent of the parks' almost 2,000 square 
miles is sound free from touring aircraft (approximately 8 
square miles). This is an absolute untruth.
    As certain as I stand before you today, I can assure you 
beyond any doubt that there are hundreds of square miles of the 
Grand Canyon where touring aircraft cannot be heard. The flawed 
study has misled Congress, the Press, and the Public regarding 
the impact of touring aircraft at the Grand Canyon.
    Over the past several years, I have confronted appropriate 
Park Service personnel with the fact that there are flaws in 
their presentation to Congress. I have attempted to advise 
everyone involved in the issue that there were biases in the 
study. I did this through my written and verbal responses to 
the Draft Studies, responses to NPRM's, as well as a formal 
statement at every major meeting called by either the Park 
Service, the Senate Aviation Subcommittee, ``Finding a 
Balance'' workshops, etc., as well as private discussions with 
key members in the National Park Service.
    I was unable to raise any interest in correcting the 
inaccurate data supplied by the National Park Service. 
Therefore, two and a half years ago I commissioned JR 
Engineering to conduct a factual study of air tour overflight 
sound at Grand Canyon National Park. I asked JR Engineering to 
obtain accurate records of type and time of all aircraft that 
flew in the central region of Grand Canyon National Park. I 
asked them to take a conservative approach that could not be 
questioned. The JR Engineering study confirmed my non-
scientific observations regarding noise in Grand Canyon 
National Park.
    After the preliminary study was completed, I met 
individually with key members of the National Park Service and 
told them that the study existed. I outlined for them the 
problems with the National Park Service study. I said that I 
would prefer to not go public with my study since we were 
trying to cooperate with the National Park Service. I recited 
that it would be most pleasing to myself and everyone involved 
if the Park Service would correct the errors in their own study 
and give a corrected presentation to Congress, the Press, and 
the Public.
    I withheld the study for approximately one year hoping that 
some fruit would come from my discussions so there would not 
have to be any embarrassment over this issue.
    During that interim period of time, I shared the study with 
leadership of United States Air Tour Association and Helicopter 
Association International. Although the Helicopter Association 
International did not question the materials, they felt they 
needed some reassurance by outside experts. They sent the study 
for peer review to Dr. Krish Ahuja, a notable technical 
consultants in this field. Dr. Ahuja is a regent researcher and 
professor in the field of aviation acoustics at Georgia Tech 
University.
    After reviewing the work that had been performed by JR 
Engineering, Dr. Ahuja confirmed that aircraft activities in 
the central region of Grand Canyon National Park already met 
and exceeded the goals of the National Park Service. This is 
the heart of the issue ``Aircraft activities in the study 
already exceeded the National Park Service goals for natural 
quiet.''
                                ------                                


                  Statement of Robin T. Harrison, P.E.

    Chairman Hansen, members of the Committee. My name is Rob 
Harrison. I am an engineer trained in aeronautical and 
acoustical engineering and, until my retirement in 1993 from 
the U.S. Forest Service Technology & Development Center at San 
Dimas, California, was the Program Leader for Aviation and 
Acoustics. My duties included the study of the noise of a large 
number of vehicle types and their effect on forest visitors. 
Over my nearly 30 year career, I have made thousands of outdoor 
noise measurements, assessing the effect of the noise from 
airplanes, firearms, motorcycles, boats, dune buggies, chain 
saws and just about anything else you can think of, on visitors 
to our National Forests and Wilderness areas.
    I will take the credit, or the blame, for being, along with 
my colleagues Drs. George Stankey and Roger Clark, the fellow 
who first proposed a systematic assessment of natural quiet as 
a separate resource. The thought that natural quiet was a 
resource to be protected and managed like wood, water, air, 
wildlife, recreation, and other accepted resource values, was a 
radical thought then. The problem that Stankey, Clark and I 
posed, in 1972, was that there was no accepted definition of 
the impact of intrusive noise on wilderness visitors. Although 
almost all outdoor recreation and wilderness management 
professionals now accept that the acoustic environment is a 
resource worthy of our protection, the problem that we raised 
over 20 years ago remains unsolved. Even in our earliest work 
we realized that any legitimate definition of natural quiet 
would need to be framed in terms of human impact. The Park 
Service has rejected this obvious truth, and continues to 
refuse to consider the park visitor in its attempt to define 
natural quiet.
    As part of my duties at the Forest Service, I was the 
Technical Adviser to and co-author of the U.S. Forest Service 
Report to Congress published in 1992. I ask the Committee's 
permission to append to my comments a copy of that report, 
along with copies of other presentations that I have made 
covering this area. They will contain details of some of the 
points which I hope to articulate today, but cannot expand upon 
for lack time.
    Public Law 100-91 mandated that the Park Service and the 
Forest Service study the effects of aircraft overflights. In 
the initial stages of the research effort, the Park Service and 
the Forest Service worked together and the studies required by 
the law were considered as a single project. I and my Forest 
Service colleagues, Bill Makeland Larry Hartmann, were 
consultants and advisers to the Park Service, as the Park 
Service recognized that they had inadequate technical expertise 
to manage such a scientific study. What the Park Service 
contributed to the joint effort, in addition to a share of the 
money to fund the various contractors which actually carried 
out the field studies, was their expertise in contracting. 
Together, the NPS/USFS core team negotiated the contracts which 
led to the initial scientific studies underlying the Report to 
Congress of 1994 which we discuss here today.
    The Park Service's initial approach, which I considered 
admirable, was to look for the best scientific minds that could 
be found, put them under contract, and have them help us 
develop impartial scientific data which could be used to 
develop and support aircraft management strategies for the 
National Parks and the National Forest Wilderness Areas.
    The result of this work was to be two reports to Congress, 
one by the Forest Service, one by the National Park Service, 
which represented what both agencies considered to be the best 
engineering and scientific information which could be gathered. 
Central to this effort was the development of a definition of 
natural quiet.\1\
---------------------------------------------------------------------------
    \1\ When I was a freshman in college, more years ago than I like to 
remember, I had the pleasure and honor of studying with a truly great 
engineer, a man named R. A. Wanless. He was, before his tenure as a 
professor, the State Bridge Engineer of Oregon. In civil engineering 
circles, the bridges of Oregon developed under Dr. Wanless are known 
for their esthetic and engineering beauty. Each answers a particular 
and varied problem, that of bridging a chasm in an esthetic, efficient, 
and durable manner. Dr. Wanless left imprinted on me a basic truth 
which has served scientists and engineers since before Archimedes. That 
is, that a problem well-defined is a problem more than half solved. The 
Park Service has never permitted the development of a definition of 
natural quiet. Any definition of natural quiet which does not consider 
the attributes of the listener, including self noise, is scientifically 
indefensible. The Park Service recognizes this, and, since their goal 
of eliminating aircraft flights over national parks cannot be met if 
natural quiet is so defined, they have waffled this issue to death.
---------------------------------------------------------------------------
    I was excited and honored to be part of this effort, and we 
worked diligently towards timely fulfillment of the 
Congressional mandate. I visited many, many Forest Service 
Wildernesses, and a large number of National Parks, making many 
measurements of the sounds from aircraft and the background 
myself, and supervising many more. The measurement work done in 
the early stages of this project represents the state of the 
art, and produced a large volume of really excellent data. 
Concurrently with the measurement work being carried out by our 
prime contractors, careful research of the literature as to the 
effects of aircraft noise on wildlife and structures, as well 
as surveys of park and forest managers regarding safety, etc., 
were being conducted. Those were great days for me as an 
acoustical engineer and engineering manager. I finally had at 
my disposal the money and resources to answer scientific and 
management questions which I had first raised nearly 20 years 
before.
    I was troubled, however, by some of my visits to national 
parks. In Hawaii Volcanoes, for instance, a meeting with the 
park employees was arranged at their request. They wanted to 
put in front of me their concerns about how the noise of 
helicopter overflights in and near the park was distressing 
them, the employees. They wanted to be sure that I knew what an 
unbearable racket they were forced to put up with. When I 
queried them about effects on wildlife, about visitor 
complaints, or about compromises to safety caused by these 
helicopter overflights, little or no concrete information was 
forthcoming, merely a reaffirmation that the biggest problem 
was the effect on the park employees. I did not read Public Law 
100-91 to concern itself with the employees' acoustical 
environment, and so I did not carefully heed the things they 
had to say at this early stage. In retrospect, I should have 
realized what I was seeing and hearing.
    As the preliminary reports and results started to roll in, 
the Forest Service team busied itself preparing its Report to 
Congress. The Park Service, however, seemed to be less 
impressed with the results received. Payments to contractors 
were delayed, revisions were demanded, more work was proposed. 
I found myself being invited to fewer and fewer parks, and 
being consulted less and less often. By this time, it was clear 
to me what was happening. The Park Service was not happy with 
the results that it had obtained from its contractors, because 
these results did not support the preconceived notion that the 
parks, and Grand Canyon in particular, had a serious natural 
quiet problem.
    The Park Service seems to take the position that any non-
indigenous acoustic signal, regardless of its level, is a 
compromise to natural quiet. In this regard, the Report of 
September 12, 1994, is an instructive document.\2\ Referring to 
Page 3.13, ``When visitors can hear the sound of an aircraft, 
natural quiet does not exist.'' This is simply not so. There is 
a mature body of literature which indicates that the level of 
the intrusive sound at the listener's ear is only a part of 
what affects whether a sound will be heard and reacted to. The 
background sound at the ear, including the self-noise generated 
by the listener, and the activities and attitude of the 
listener, are all equally important in the listener making the 
decision that, yes, indeed, something has been heard. The 
listener must take a further step to identify the sound, and 
then a further step yet that some adverse effect, such as 
annoyance, results. As noted from the statement at Page 3.13, 
the Park Service assumes that if a sound can be heard . . . not 
is heard, not will be heard, but can be heard--implying that if 
it is measurable, or even immeasurable but present . . . it 
will compromise the natural quiet.
---------------------------------------------------------------------------
    \2\ It is interesting to note that the Report to Congress was first 
issued in standard government Xerox green, following the time honored 
adage of government publication: ``Make it look cheap no matter how 
much it costs.'' In July 1995, the same report was reissued in a very 
fancy format with much thicker paper, giving the appearance of greater 
weight. The bias of the preparers of this attractive document shines 
through. I would refer you to Figure 4.6 where, in the original report, 
helicopter noise was assaulting an old building but, in the upgraded 
version, the Statue of Liberty is now under attack by blade slap.
---------------------------------------------------------------------------
    To consider natural quiet as a resource without considering 
potential human listeners is a serious flaw in logic. The Park 
Service has presented no scientific evidence that establishes 
that acoustic vibrations that emanate from tour aircraft (or 
any other source, for that matter) are harmful to any animal, 
plant, land form or other natural or cultural feature of the 
parks. The only harm that can be established is the alleged 
intrusion into natural quiet as perceived by human visitors.
    There is a great deal of disagreement, even amongst 
knowledgeable professionals, as to how loud a sound must be at 
the listener's ear in order to provoke annoyance under various 
circumstances. However, one thing that all professionals agree 
upon is that the only effect of sound at the very low levels of 
aircraft overflights in national parks is annoyance. Certainly 
there are no direct hearing health impacts, no sleep 
interference, no communications interference.
    The Report dismisses any argument that the background sound 
at the listener's ear should be considered, by saying, ``Such 
areas, however, are likely to have very low ambient levels and 
hence intruding sound will be more easily heard.'' Again, 
completely wrong, without support in the literature, and 
absolutely incompatible with current scientific thinking.
    Compare this to the discussion of aircraft noise effects on 
wilderness visitors at Page 2.22 in the Forest Service Report. 
``Few adverse impacts to wilderness users were found resulting 
from overflights.'' ``Seeing aircraft had less impact on 
visitors than hearing them.'' ``The principal adverse impact 
was aircraft noise induced annoyance of a fairly small 
percentage of outdoor recreationists.'' The Park Service 
approach has completely ignored the visitor, and taken the 
listener out of their assessment of the effect of aircraft 
overflights. Their misguided attempt to restore ``natural 
quiet,'' without providing any kind of a scientifically 
defensible definition of natural quiet, is without scientific 
support.
    There has been, since the Renaissance, a basic paradigm 
used by the scientific community to determine what is true and 
correct. It is called the peer review process. Scientific work 
is intended to be transparent. A scientist or an engineer 
prepares a plan and observes the physical universe in 
accordance with this plan to determine whether the proposition 
that he is investigating is or is not so. He prepares his 
findings in as unbiased and straightforward manner as he is 
able, and presents his plan and data to his peers, for review. 
The peers, hopefully without biases of their own, comment, 
dispute and reject or accept. While no one can say that the 
peer review process is perfect, it certainly has served western 
civilization well. The Park Service's findings not only suffer 
by lack of any outside review, they are clearly presented with 
an agenda in mind.\3\
---------------------------------------------------------------------------
    \3\ The U.S. Supreme Court has recently established standards by 
which scientific evidence will be accepted. (Daubert v. Merrell Dow 
Pharmaceuticals. Inc., 509 U.S. 579 (1993)). Basically, the Daubert 
decision states that scientific evidence will only be accepted when it 
is of a type that is accepted in the scientific community, and has 
undergone peer review. My reading of the Park Service report convinces 
me unequivocally that the conclusions are castles built on sand, and 
that the report falls far short of Daubert standards. I would have more 
respect for the Park Service if they would simply come out and say that 
they have made the arbitrary management decision that any atmospheric 
acoustic signal, regardless of its magnitude or character, and 
completely independent of whether it is audible or detectable, 
constitutes a breech of the natural quiet which must be eliminated. 
They, of course, cannot do this because rational people recognize that 
such a situation would be completely inappropriate as well as 
impossible to achieve. So they continue their campaign to restrict uses 
of the national parks by employing pseudo science, and a shifting 
target of a definition of natural quiet.
---------------------------------------------------------------------------
    Since the clear intent of Public Law 100-91 was to assess, 
with scientific integrity, the extent that natural quiet is 
compromised in National Parks, and since it is equally clear 
that the NPS has not done so, I urge you to reject this report. 
It does not fulfill the Congressional mandate of Public Law 
100-91. I further urge you to direct the NPS to develop a 
definition of natural quiet that considers park visitors and 
their activities before they, the Park Service, are allowed to 
further attack legitimate uses of the parks in the guise of 
restoring natural quiet.

          USATA Meeting--16 September 1997--Las Vegas, Nevada

                            Keynote Address

                  Science, Feelings, and Natural Quiet

                        Robin I. Harrison, P.E.

    It is a great pleasure and honor to address you today. It 
is a particular honor to be referred to as a keynote speaker. 
As you have heard from John, I am an engineer, and engineers 
are seldom called to the high office of keynote speaker. I 
think I can explain why this is. Here in the west in particular 
we have always sought dignified, statesmanlike keynote 
speakers. To carry off a keynote speech one must have an almost 
Abraham Lincoln-like bearing. We normally see Abraham Lincoln 
in a high top hat and a frock coat with his right hand 
carefully grasping the lapel of the frock coat. You will 
remember from your college days that engineers were the first 
to embrace the polyester leisure suit with enthusiasm. The 
slipperiness of this material precludes that pose, and 
therefore engineers fell out of favor as keynote speakers, a 
favor, I fear that has never been regained. Normally, as an 
engineer, I carry two plastic pocket protectors, but I left 
them home because I thought they would not look statesmanlike.
    My friend, and your president, has articulately described 
the welcome news that things are looking up for us vis a vis 
the natural quiet issue. I am told that our position is being 
heard in high places, that the National Park Service 
functionaries are treating us with more respect and deference, 
and that the FAA is likewise beginning to see things a little 
bit more our way. You heard Steve discuss how seemingly 
everyone in the world was beating on us. It reminds me of a 
story they told us in law school. If you have the facts, beat 
on the jury. If you have the law, beat on the judge. If you 
have neither, beat on the table. Seems like the other side was 
beating on us, rather than on the table, because clearly they 
have neither the facts nor the law. I am sure Steve thinks our 
success has something to do with his tenure as President of 
USATA. While I certainly will not dispute that, those of you 
who have known me in the past have probably noticed that I 
haven't devoted much time to the aircraft noise issue in the 
last six months or year. I rather suspect that my absence from 
the deliberations has been more important in achieving this 
newfound harmony. I would remind you of the words of a true 
statesman and great keynote addresser, Ronald Reagan: Trust, 
but verify.
    If we are on the threshold of success, as I hope and 
believe we are, it may be well to review some of the basics of 
the science of natural quiet. I have observed, in my 30 years 
with government, that the underlying technical or moral 
correctness of a particular position is often lost in the 
chatter of details that necessarily constitute the bureaucratic 
process. I think it very important that the basic science, and 
that is just another way of saying the basic truth, of the 
overflight noise situation be considered in all of our 
deliberations and negotiations. For this reason, I am going to 
take about 15 minutes of your time, with your kind permission, 
to talk about aircraft overflights from the point of view of an 
engineer who has spent much of his career dealing with them, 
from what I hope to have been the scientific viewpoint. I would 
also like to share a few observations about the folks . . . 
dare I say it, on the other side . . . those who vociferously 
oppose the use of aircraft in any particular corner of the 
world in which they consider themselves to have a legitimate 
special interest. I believe their approach is best described as 
the ``feeling'' viewpoint. I hope to show that their position 
cannot be supported by science, by logic, or even by politics.
    Some people don't want to hear aircraft ever. Or 
motorcycles, or rock 'n roll, or any number of other sounds, 
which signal an activity of which they disapprove. This is 
true, even if they have to strain to hear these sounds. This 
attitude is certainly not limited to people who don't like 
airplanes. As a motorcyclist, I have seen the finest off road 
motorcycling in the world entirely vanish from Southern 
California, simply because the people who didn't like 
motorcycles were better at mobilizing public opinion than the 
people who did like them. And noise was a major argument, 
though it is hard for me to understand how even the loudest 
bike 40 miles from the nearest house, out in the Mojave Desert, 
could be causing any environmental damage by its exhaust note. 
But I digress.
    The traditional objections to aircraft overflight noise in 
such natural areas as the Grand Canyon or other national parks, 
and Forest Service wilderness areas, have been first aimed at 
the effects of noise on wildlife. The Forest Service studied 
this quite closely. Let me quote from the final report summary: 
``Studies of the effects of human intrusions and habitat 
destruction on animals often find profound impacts of human 
activity. It is thus commonly assumed that aircraft overflights 
are equally damaging. The literature suggests that animals 
respond differently to aircraft overflights. Aircraft 
overflights are startling, but animals can adapt to them very 
well under most circumstances. Effects of overflights are 
subtle because animals adapt by habituating behaviorally and 
physiologically to the challenge.'' Further, ``Studies of 
animals of all kinds exposed to noise of all kinds, if 
scientifically defensible, have generally revealed that though 
there may be some temporary disturbance to the wildlife, in no 
case that we were able to find has it been established that 
populations of wildlife have been diminished by aircraft 
noise.''
    Now this is hard to accept for those who take the 
``feeling'' position because they are sure that animals, large 
and small, share their distaste for airplanes. But science has 
not yet shown this.
    A second concern often voiced is the effect of aircraft 
overflights on cultural resources, i.e. buildings and ruins. 
Again, quoting from the Forest Service report, ``Cultural 
resources in National Forest wilderness are not currently 
threatened by sonic booms (likewise, no sonic booms at Grand 
Canyon). Measurement programs have been conducted which 
conclude that there is nominally a minimal risk of damage to 
structures from light low-flying subsonic jet aircraft and 
light helicopters.'' This is not to say tha rotor downwash 
won't cause erosion or damage to fragile cultural resources, 
but at the altitudes that all tour helicopters and airplanes 
fly, direct physical damage to ruins and artifacts is simply a 
scientific impossibility. Of course, all pilots will want to 
respect the desires of native Americans with regard to specific 
cultural locations, especially when ceremonies or services are 
being celebrated. But the feelers often argue ``cultural 
insensitivity'' when trying to indict aircraft noise. Again, no 
science.
    Now another problem of aircraft overflights is that they 
startle people and animals and therefore compromise safety. It 
is felt that rock climbers are blasted off cliffs, horse people 
are thrown from their mounts, hikers are startled into jumping 
into streams, etc. Although many anecdotes have been 
circulated, careful investigation of all complaints lodged to 
the Forest Service indicate that such situations have been 
extremely isolated. I think two or three people have actually 
been hurt because their animals were startled by aircraft and I 
hasten to add these were not air tour aircraft but low flying 
tactical military aircraft. A subdivision of this complaint is 
that the health and well being of government employees who have 
to live around this awful racket is being impaired. When I was 
in the good graces of the Park Service, some years ago, they 
sent me to Hawaii to deal with a noise problem at the Hawaii 
Volcanoes National Park. I made some measurements, and 
interviewed a large number of employees. Inevitably, the park 
employees complained not about the effects on visitors, or even 
on wildlife, but what they felt about their own comfort and 
enjoyment while they were going about their work. Well, the 
levels I measured were greatly below those that the FAA 
considers even marginally annoying, and although I don't always 
agree with the FAA I do have to thank them for their support in 
this. I do not read Public Law 100-91 to include as an effect 
of aircraft overflights the acoustic comfort of government 
employees.
    So this brings us to the current argument over natural 
quiet as a resource. As we know, the Park Service has the duty, 
absolutely, to protect natural resources, to enhance them for 
this and future generations and to keep them insofar as 
possible in a pristine and un-human altered condition. This is 
a laudable goal, and one which I personally absolutely support. 
I think I am probably one of the first guys to consider natural 
quiet as a separate resource, worthy of scientific assessment. 
I started working on this problem in about 1972 when I was at 
the U.S. Forest Serv-

ice Technology and Development Center in San Dimas, and 
continued doing professional work in this area through my 
retirement in 1993. I don't know of anyone who has made more 
measurements of noise under wilderness and park conditions than 
I have, although my colleagues Paul Dunholter, Dr. Sandy 
Fidell, and Nick Miller, and their folks, certainly have a 
significant number under their belts as well.
    I remember a meeting many years ago at Kings Canyon 
National Park which I attended at the request of the Park 
Service. There was concern there about the effects of aircraft 
overflight on the park, the aircraft being quite a different 
nature, Navy tactical jets. I believe that it was at this 
meeting that I first exposed the Park Service to the work that 
Roger Clark, George Stanky, and I had done characterizing 
natural quiet as a wilderness resource. I pointed out that the 
feelings of the listeners were, as far as our research showed, 
the most important determinant of the effect of aircraft noise. 
I must have made quite an impression, because the 
Superintendent wrote a letter to my boss, his boss, the Chief 
of the Forest Service, and the head of the National Park 
Service, all cordially inviting me never to show my face on any 
National Park again. To this day, I have never learned what I 
said to so offend him. It may have been his feelings about the 
fact that I arrived at the meeting on a brand new bright red 
Italian motorcycle.
    In any event, it is well accepted in wilderness and park 
science circles that natural quiet should be treated as a 
natural resource. Given this consensus, it then becomes 
critical to define natural quiet in a way that is 
scientifically consistent. As I am sure most of you know, both 
the Forest Service and the Park Service have spent a great deal 
of time and effort, not to mention your money, in obtaining 
literally tens of thousands of acoustic measurements throughout 
the Forest Service wilderness and National Park systems. With 
the exception of a few inevitable glitches, like the time that 
I kicked Nick Miller's microphone down the wall of the crater 
at Haleakala, the data that was gathered is good. Very good. It 
is technically and scientifically unimpeachable. Some of the 
work done has pushed back the frontiers of outdoor noise 
measurement technology. I am proud to have been part of that 
effort, and will vigorously defend these measurements and how 
they were made.
    However, where and when they were made, and more 
importantly, how they have been used, should be scrutinized. We 
haven't time to discuss the difficulties with where and when 
some of the measurements were made in Grand Canyon. But, how 
these measurements are interpreted is of grave concern.
    The Park Service and its contractors have suggested a 
number of different ways that natural quiet should be defined. 
My problem with all of them is that they fail to recognize two 
basic scientific truths. Everyone has heard the old saw . . . 
pun intended . . . if a tree falls in the woods and no one is 
there to hear it does it make a sound? Well, we know from 
experience that the tree crashing through the branches to the 
ground sends out vibrations in the air which propagate away 
from the points of contact in a sinusoidal manner, decreasing 
their strength in accordance with the inverse square law. In 
other words, it makes a sound. But does it make a noise? Ah, 
here we have a different question. One might pose this 
question, does it disturb the natural quiet? Of course it 
doesn't, if no human is there to hear the natural quiet. Since 
we have established that the sound of the tree falling does not 
bother the animals (unless it falls on them of course), nor the 
cultural resources, then how could it make a noise?
    Let me update this old saw: If a man is walking through the 
woods and talking and there is no woman there to hear him, is 
he still wrong? The scientists among us would say no. The 
wrongness of his conversation can only be judged in the ear, or 
maybe by the feelings, of the listener. Those who prescribe the 
feeling view would insist that the man is wrong anyway, that 
the natural quiet has been violated, and certainly our hiker 
should shut up to restore same.
    Whether or not a person hears, and is annoyed by, the sound 
of an aircraft flying over is a function of a number of things; 
how loud the airplane is at the listener's ear is only one of 
these. Equally important is how loud the background sound is; 
that is, the rustling of the wind in the trees, the sound of 
the animals, the sound of the river. Notice I said equally; I 
mean equally. Using just the sound of the aircraft to assess 
natural quiet is scientifically indefensible. Further, the 
background of the regular hiking noises, shuffling of feet, 
brushing of beards against nylon parkas (probably not too many 
parkas used in Grand Canyon), clanking of canteens, the noise 
of pack animals; all of these things contribute to the 
background which also determines the natural quiet. With the 
exception of artillerymen and rock 'n roll musicians, the 
loudest thing most of us ever hear is the sound of our own 
voice in our ears. This, also, is part of the natural quiet.
    And the bias, or motivation, or attitude of the listener is 
also equally important. How can it be seriously argued that a 
professional listener, paid to hear them, is no more likely 
than the average hiker or rafter to ``detect'' an airplane 
acoustically? Yet this is the method the Park Service used to 
determine if aircraft sounds are destroying the natural quiet.
    Congress, in its wisdom, did not define natural quiet in 
Public Law 100-91. Depending on one's point of view one might 
logically assume that Congress intended it to be described 
scientifically, not with reference to feelings. Defining 
scientific problems with reference to feelings has been the 
source of great mischief. Ask any apple fammer about the havoc 
done by that eminent epidemiologist, Meryl Streep, who was 
allowed to testify that she felt Alar in apples was endangering 
our children's health, etc., etc., etc. I expect that the 
National Park Service will contend that it has considered the 
background sound, self-noise, etc., but with all due respect to 
my friends there, I don't see the evidence of this. I do 
understand that we are making progress with this position, and 
to be scientifically correct, we must continue to do so.
    The issues of natural quiet in the National Parks are 
extremely complex. My viewpoint is admittedly that of an 
engineer and professional aviator. There will of course be 
disagreements over how best to resolve these issues. But my--
our--position is supported by good science.
    I do not mean to be overly critical of those who take a 
feeling attitude toward our magnificent national parks and 
wildernesses; I have a feeling, maybe almost religious, 
attitude about flight. I want for us to be able to continue to 
share the spiritual feelings of seeing our parks from the air 
with people from all over the world. I want as many people as 
possibly can to fly above our parks and wildernesses to enjoy 
them and to feel them and hold them, without, I might add, 
causing the slightest environmental impact to the parks. It 
thrills me to hear that things are looking better, because it 
would be both scientifically and morally wrong for our industry 
to be limited or eliminated by feelings about natural quiet and 
aircraft sound that are neither scientifically nor morally 
supportable.
    Thank you so much.
                                ------                                


 Statement of Robert S. Lynch, Chairman of the Board, Central Arizona 
                          Project Association

    Mr. Chairman, Members of the National Parks and Public 
Lands Subcommittee, thank you for the opportunity to appear 
here today and testify on the proposal of the National Park 
Service to designate the Grand Canyon National Park as a 
wilderness and the implications of that proposal for the 
Colorado River, the Service's Colorado River Management Plan, 
the Law of the River, and the Central Arizona Project. I have 
the pleasure of serving as Chairman of the Board of the Central 
Arizona Project Association, an Arizona non-profit association 
established in 1946 to promote authorization, construction and 
operation of the Central Arizona Project. Our Association 
membership represents business, resource, local government and 
agricultural interests throughout the State interested in the 
continued success of the Central Arizona Project.
    The Project itself consists of over 300 miles of canal 
system and a regulating reservoir that provides an average of 
1.5 million acre-feet of water annually to roughly two-thirds 
of the population of the State, industries, agriculture and 
Indian communities in central Arizona. That quantity of water 
represents over half of the entitlement of the State of Arizona 
to water from the Colorado River and some 20 percent of the 
entitlement of the three Lower Basin states (Arizona, 
California and Nevada) to water from the Colorado River.
    Our interest in the draft Wilderness Management Plan stems 
from our concerns about water issues related to the Colorado 
River. Simply put, the Central Arizona Project is the last 
water right on the river. Anything that can or might affect its 
ability to take water from the river and deliver it to the 
citizens of central Arizona attracts our interest. This draft 
Wilderness Plan is one of those things.

WATER ISSUES

    There is an ongoing dispute over whether designation of 
public land as a wilderness carries with it an implied 
reservation of water rights under the so-called Winters 
doctrine. This remains an unanswered question in Federal law. 
It is a hot topic and it is currently being litigated. Most 
recently, a trial court in Idaho issued an opinion in a water 
adjudication that the Wilderness Act has the effect of 
impliedly reserving water. In re SRBA, Case no. 39576 DC Idaho, 
5th Judicial District, December 18, 1997. That case is on 
appeal to the Idaho Supreme Court. Obviously, the opinion of a 
state court in Idaho does not bind the United States but it is 
the United States in the person of a Justice Department 
attorney that is promoting the reserved rights claim.
    Translated to Arizona and the Lower Colorado River, you can 
easily see why we are interested. Designation of the Colorado 
River as ``potential wilderness'' positions the Service to 
manage the river corridor as if it were wilderness and 
precurses the ultimate designation of the river corridor as 
wilderness. If that intent remains, then the consequences of 
that clearly visible future action must be included in the 
present plan and the present environmental analysis. Along the 
way, the Service will have to address the reserved water rights 
issue and become educated in what we call the Law of the River. 
The Law of the River is a collection of compacts, Supreme Court 
and other court decisions, Acts of Congress and other Federal 
actions that define the rights of the Basin states to this 
invaluable resource. The river is also impacted by the 1944 
Treaty with Mexico which obligates the system to specified 
water deliveries and, under certain circumstances, to surplus 
water deliveries. How a new reserved water right might affect 
this complex legal system must be analyzed. Anything less would 
be a piecemeal and inappropriate application of relevant 
Federal law.

DRAFT WILDERNESS MANAGEMENT PLAN

    I have reviewed the Draft Wilderness Management Plan for 
the Grand Canyon National Park and its accompanying 
Environmental Assessment. This is a significant new initiative 
for the Park and one that deserves careful and detailed 
consideration. It is a major Federal action significantly 
affecting the quality of the human environment under the 
National Environmental Policy Act and it is an action that 
requires consultation under Section 7 of the Endangered Species 
Act. Consultation under Section 106 of the National Historic 
Preservation Act is also required. As you will note from my 
comments below, I believe that consultation under the 1968 
Lower Colorado River Basin Project Act and consultation under 
the 1992 Grand Canyon Protection Act are also required. Given 
these requirements, I think it is incumbent upon the National 
Park Service to factor in the comments they are receiving, 
publish a revised Draft Plan as a proposed action and begin the 
formal processes that NEPA and ESA require. Other consultations 
can be programmed to coincide with those processes. I have the 
following specific comments in this regard.

Scope of the Plan

    On page 2 of the Executive Summary, the Service attempts to 
set aside the riverine corridor of the Colorado River as 
covered by the Colorado River Management Plan, which it later 
tells us will be amended to be consistent with this Plan. The 
Service also tells us that it is proposing the Colorado River 
corridor as a potential wilderness in this Plan. Then it 
attempts to end the discussion by saying that issues specific 
to river management will be addressed in that specific Plan and 
are not within the purview of this Plan. That is just not true. 
If the Service is going to conform the river plan to this Plan, 
then it is impacting that Plan now and making changes to it 
now.
    On page 4, the Service tells us that, among the proposed 
actions included in this Plan is one to ``develop methods for 
determining suitability of the Colorado River and its 
tributaries for inclusion in the National Wild and Scenic 
Rivers system.'' In spite of that being a part of this Plan, 
the Service acknowledges that it has not consulted with the 
basin states, water users and water user organizations, power 
users and power user organizations or river recreation 
interests.
    Wild and Scenic Rivers designation also implicates water 
use and the Law of the River. Consultation under the 1968 and 
1992 Acts is mandatory. The rights to Colorado River water, 
including Central Arizona Project water supplies, cannot be 
implicated in this Plan's intended process without such 
consultation. The hydropower resources of the river, 
specifically Glen Canyon Dam, cannot be implicated here without 
such consultation.
    Finally, on page 5 of this Executive Summary, the Service 
acknowledges that this Plan will provide ``specific direction 
for revising other Park management plans consistent with the 
wilderness management requirements.'' In other words, the 
decision-making will take place in the context of development 
of this Plan and the Colorado River Management Plan will then 
merely be conformed to it. Clearly, issues related to the 
Colorado River in its course through the Grand Canyon National 
Park are as much a part of this Plan as issues related to 
terrestrial and riparian management elsewhere in the Park.
    These conclusions drawn from the Executive Summary are 
confirmed at various places in the draft Plan itself, including 
pages 2-20, 16-158, 16-159, 16-160, 16-161, the latter pages 
including the implementation schedule. Additionally, the 
discussion of the National Environmental Policy Act attempts to 
glide over the ``major Federal action'' issue (draft Plan, pp. 
2-16 and 2-17). It cannot. This is a major undertaking that 
will have significant long-term consequences for the Grand 
Canyon National Park. Its environmental screening requirements 
cannot merely be shoved aside for another day when site-
specific issues come up.

ENVIRONMENTAL ASSESSMENT

    On its face, this document is inadequate. The purpose of an 
environmental assessment is to form the basis for either 
deciding to do an environmental impact statement or prepare a 
Finding Of No Significant Impact (FONSI). This document does 
not do that. It provides no basis for testing the NEPA 
threshold of whether the proposed plan is a ``major Federal 
action significantly affecting the quality of the human 
environment.'' Merely describing the benefits of the Plan as 
the National Park Service sees it is not adequate. The question 
is whether or not there will be major impacts, not whether they 
will be beneficial in the eyes of the writing agency.
    Nor has the Environmental Assessment properly identified 
the use of the NEPA process. This is a classic example of when 
a programmatic EIS is prepared. On page 3 of the EA, the 
Service acknowledges that more NEPA and other screening will be 
necessary for specific projects. The implication is that this 
significant Plan will see no further screening under NEPA, ESA 
or NHPA. There is no attempt to analyze why the Plan might not 
require an EIS.
    The EIS requirement would be met, in and by itself, by the 
statement on page 7 of the EA concerning the Colorado River 
portion of the Park:

        ``The Colorado River Management Plan revision will address 
        implementing wilderness management requirements and strategies 
        within the ``proposed potential'' wilderness river corridor.''
    The Service has already acknowledged that the criteria for a 
proposed Wild and Scenic River designation will be set in this Plan, 
and acknowledged that it will set the criteria for river corridor 
wilderness designation in this Plan. Now it admits that the river plan 
changes will merely implement these prior decisions. If the decisions 
are made here, the EIS is done here. The dialogue must be expanded to 
cover the water and power resources the Colorado River supplies. 
Moreover, the importance of the corridor is acknowledged on page 10 of 
the EA. Endangered species involvement along the river corridor is 
acknowledged on page 11. Nevertheless, these subjects are not discussed 
in any assessment ot environmental impacts in the EA.
    Oddly enough, the actions in the proposed Plan related to proposed 
designation of the Colorado River as a Wild and Scenic River are 
described but not analyzed in the discussion of the impacts related to 
the preferred alternative (the draft Plan):

        ``This alternative calls for conducting an inventory of all 
        tributary streams to quantify flow data and riparian 
        vegetation. It provides for adopting methods for determining 
        suitability of the Colorado River and its tributaries for 
        inclusion in the National Wild and Scenic Rivers System, 
        ultimately providing an additional protective layer for these 
        rare, intact environments.''
    Not only is this an impact, it is stated as a foregone conclusion. 
Yet another reason the proposed Plan is a major Federal action.
    Other discussions of the proposed action clearly show that this 
Plan will deal with the river corridor, administrative practices and 
the like (page 17). Indeed, Service patrols which now rely on motorized 
watercraft are identified as probably having to go to non-motorized 
watercraft as a result of this Plan (page 17). That is an obvious river 
impact. It also raises the issue of whether commercial and non-
commercial permit users will have to do likewise. Yet another river 
corridor impact. That same discussion is continued on page 18.
    Moreover, significant use impacts are totally missing from this 
analysis. Nowhere in the discussion of visitor use, use of horses and 
mules or other visitor use is there any discussion of the additional 
pressure that will be put on the Park from the constraints of current 
uses that this Plan envisions. There is no discussion of limiting 
visitors. The additional pressure put on the Park by allowing the same 
number or more visitors while constraining the current opportunities 
for experience must be analyzed.
    In addition, there is no mention of the proposed development at 
Tusayan and how that increased population at the edge of the Park will 
impact wilderness management. Additionally, the Draft Plan at page 2-16 
states that ``mechanized or motorized equipment is inappropriate for 
public purposes like recreation, education, or scientific study that is 
not serving administrative purposes.'' That statement, if an 
appropriate application of the Wilderness Act of 1964, would remove 
from the Grand Canyon Monitoring Research Center the ability to use its 
mechanized pontoon boats for scientific study. The scientific study is 
related to the effects of power operations at Glen Canyon Dam and not 
to administrative purposes related to the Wilderness Act.
    Finally, I wish to bring up an issue that just caught my attention 
last week. The Draft Plan (p.2-16) briefly mentions the Americans with 
Disabilities Act. It con-

cludes that people in wheelchairs can use their wheelchairs in a 
wilderness but the Park Service doesn't have to do anything to help 
them. In the normal case of going out in the middle of nowhere, that 
sort of statement might make sense. But it doesn't here. I was curious 
and asked around. I found that the Phoenix Parks and Recreation 
Department supports a specific program for people with disabilities so 
they can go on river trips and have access to places like the river 
corridor of the Grand Canyon. Indeed, I am told that the river running 
companies must include in permit renewal applications a specific 
program for providing access to people otherwise protected by the ADA. 
I don't know if taking motors off the river will totally bar disabled 
access to river running, but obviously it will limit it. The point is 
that this is a serious concern and passed over in the Draft Plan and 
the Environmental Assessment. Yet another reason this is a major 
Federal action. I have take the liberty of including some materials I 
acquired only last week about this interesting and worthwhile program 
for people with disabilities. Having just recently been on a river trip 
myself, I was fascinated by this obviously worthwhile program.

SUMMARY

    The Service needs to start the EIS process as soon as possible. It 
bands to expand the stated scope of the Plan to cover the riverine 
corridor and to open a dialogue with the affected interests that 
enlarged scope will draw into the process. The Service needs to expand 
the analysis of the Plan to include the additional subjects commenters 
have brought to its attention.
    The Grand Canyon National Park is too important to the country and 
to the park system to have an overarching plan like this assembled 
largely out of public view. This Plan deserves more public scrutiny 
than it has gotten and the Park Service should be diligent in seeing 
that public scrutiny occurs.
    Thank you Mr. Chairman and members of the Subcommittee for the 
opportunity to comment on this very important National Park Service 
initiative.

[GRAPHIC] [TIFF OMITTED] T1282.001

[GRAPHIC] [TIFF OMITTED] T1282.002

[GRAPHIC] [TIFF OMITTED] T1282.003

[GRAPHIC] [TIFF OMITTED] T1282.004

[GRAPHIC] [TIFF OMITTED] T1282.005

[GRAPHIC] [TIFF OMITTED] T1282.006

[GRAPHIC] [TIFF OMITTED] T1282.007

   Statement of Brian I. Merrill, Chief of Operations, Western River 
                           Expeditions, Inc.

    Mr. Chairman and members of the Subcommittee, thank you for 
the opportunity to represent Western River Expeditions in your 
consideration of the Grand Canyon Wilderness Management Plan 
and the Colorado River Management Plan. Western River 
Expeditions is one of the original whitewater rafting companies 
in Grand Canyon (established in 1959) and has been managed 
under current ownership since 1977. We also operate in 
Canyonlands National Park, Westwater Canyon, and Desolation 
Canyon in Utah.
    We very much appreciate the attention this Subcommittee is 
giving to Grand Canyon. My comments today address the specific 
effects the proposed Wilderness and Colorado River Management 
plans will have on my employer, Western River Expeditions. 
Although Mark Grisham, Executive Director of the Grand Canyon 
River Outfitters Association, has been called to testify on 
behalf of all Grand Canyon River Outfitters, I hope my comments 
will also paint an accurate picture of the concerns expressed 
by our colleagues.
    In our opinion, the Colorado River corridor through the 
bottom of Grand Canyon National Park should be specifically 
designated as a non-wilderness corridor. It should not be 
included as part of a comprehensive wilderness recommendation 
for Grand Canyon and should not be left as ``potential 
wilderness'' as the National Park Service currently has it 
listed.

WILDERNESS VALUES?

    As Grand Canyon Outfitters, we are dealing with two 
different processes here. The Grand Canyon Wilderness 
Management Plan which is actually the renamed Backcountry 
Management Plan and the Colorado River Management Plan which 
deals only with the river corridor through the bottom of Grand 
Canyon. The former deals with the bulk of the land and the 
latter the river, its banks and side canyons.
    Park officials want to manage the entire park as wilderness 
whether or not it carries official wilderness designation. Most 
of the backcountry area is proposed for full wilderness status. 
The cross-canyon corridor (the area including Phantom Ranch and 
the trails that lead to it from either canyon rim) is proposed 
as non-wilderness. The river is proposed as ``potential'' 
wilderness. Potential wilderness is a National Park Service 
term that requires the Park to manage the river as wilderness 
thereby eliminating ``non-conforming uses'' such as helicopters 
and outboard engines.
    The proposed new Colorado River Management Plan (CRMP) has 
as its core, ``wilderness management.'' It was the stated 
intention of the Park to defer the wilderness question on the 
river to the CRMP. They did not want the controversy involved 
with the motors/no motors issue to bog down the overall 
wilderness recommendation. Pressure from environmental groups 
and Congress are making them deal with the issue of wilderness 
on the river now rather than later.
    All of the issues being discussed by the Park are colored 
by ``wilderness values,'' as those values are perceived by 
those drafting the plan. For example, if the NPS planners 
decide to reduce the size of group that can travel together 
from the current number of 36 to 20, it will be because people 
cannot have a ``true wilderness experience'' in any group 
larger than 20. If the ability of people to spend just three 
days seeing part of the canyon is eliminated, it will be 
because the NPS feels a true ``wilderness experience'' cannot 
be had in a short amount of time.
    So far, no scientific evidence has been presented 
indicating that any of the proposed changes are necessary. 
Likewise, the visitors who are using outfitters to access the 
resource are not complaining. There is general agreement on the 
part of everyone involved, including the Park managers, that 
the river corridor is in better shape today than it was 20 
years ago. This appears to be crisis management where no crisis 
exists.
    Outfitters are placed in an interesting position. Our 
actions show that we are ardent protectors of Grand Canyon and 
its river corridor. In our hearts, we hold wilderness values 
and are concerned about protection of the resource. Outfitters 
have always been on the cutting edge, if not the actual 
inventors, of most of the low-impact camping technologies used 
by responsible campers everywhere. The National Park Service 
has taken our innovations and integrated them into their rules 
and regulations. We are in the canyon every week and would be 
insane to behave any differently. However, we are placed in 
opposition to many environmental organizations. These 
organizations take extreme positions with regard to motors, 
trip lengths, group sizes, and other issues that severely limit 
the general public's ability to see Grand Canyon from the 
river.
ACCESS TO GRAND CANYON

    Millions of Americans access national parks each year, and 
Grand Canyon is one of the most popular of all the parks in the 
system. Of the millions who visit Grand Canyon annually, merely 
20,000 of them get to do it from the bottom on the river. It is 
a unique and wonderful experience, and any outfitter can relate 
tale after tale of individuals whose lives have been changed by 
a Grand Canyon river trip of any length or type.
    For years outfitters have been the means by which most of 
the visitors access the Colorado River through Grand Canyon. 
Western River Expeditions has been there from the early days of 
outfitting and has developed a loyal following and a solid 
reputation for providing high quality trips which can be 
enjoyed by a wide variety of people of varying abilities and 
ages. If you can judge from the comments of our guests, we do a 
tremendous job.
    Plain and simply, if the river corridor through Grand 
Canyon is given wilderness status or if the Park achieves its 
clearly stated goal of managing the river as wilderness (even 
without wilderness status), the amount of people who access the 
river through our company will immediately be cut by more than 
half. If the worst case scenario occurs, fully three fourths of 
our passengers will be kept out of the canyon. Statistics for 
the entire industry will be presented by Mr. Grisham and are 
equally grim.

MOTORIZED RAFTS IN GRAND CANYON: A QUESTION OF ACCESS

    Motorized rafts are seen as a ``non-conforming use'' when 
it comes to wilderness. When managing for wilderness, motors 
have to be eliminated. There is precedent for allowing motors 
even in a wilderness. The Frank Church/River of No Return 
Wilderness in Idaho is the prime example. It is managed by the 
National Forest Service, and the Wilderness Act grants specific 
power to the Secretary of Agriculture to authorize such a use. 
It is not clear, however, that the Secretary of the Interior 
has the same authority. This point would have to be settled 
legally. The cleaner option is to simply eliminate the river 
corridor from the wilderness recommendation.
    This will not be the first time the issue of outboard 
motors on the Colorado River in Grand Canyon has been debated. 
In the late 1970's the Park decided to eliminate motors from 
the river and backed off after pressure from Congress. Many 
members of this Committee were active in that effort and still 
deserve our gratitude. Amazingly enough, 20 years later, we are 
right back here debating the same issues of access, and who 
deserves to be in Grand Canyon.
    The Grand Canyon Wilderness Planning Team which is 
responsible for the plans being discussed here today, has as 
one of its primary goals keeping the level of contacts between 
users to a minimum. Motorized rafts provide flexibility when 
coordinating with other river users. Guides discuss potential 
stops and campsites with each other, and the motorized rafts 
are able to adjust their pace accordingly. This one element, 
cooperation between the guides is the single best method for 
reducing contacts in the canyon. They are already doing a 
stellar job.
    If motors are eliminated from Grand Canyon, the number of 
contacts between groups will sharply increase due to the need 
for so many oar-powered rafts. Motorized rafts and the larger 
groups they accommodate, require far fewer campsites. It 
follows that as the number of contacts increase because of the 
larger number of oar rafts, NPS planners will then want to 
reduce overall use even further to reduce the number of 
contacts. The estimates of reduction in access presented by Mr. 
Grisham and me today may represent merely the tip of the 
iceberg.
    Motorized rafts on the Colorado River through Grand Canyon 
are necessary and appropriate.
        <bullet> Wilderness will reduce access to Grand Canyon 
        dramatically. Roughly 75 percent of all commercial passengers 
        choose to traverse Grand Canyon on a motorized raft each year. 
        If oar power boats are the only option, appoximately half of 
        these people will not get to go.
        <bullet> Wilderness will reduce access for people with physical 
        disabilities. Individuals with mobility and sensory impairment, 
        older people in their 70's and 80's, and families with younger 
        children often choose the larger motorized rafts because they 
        are more comfortable and perceived to be safer.
        <bullet> Wilderness will require a far greater number of 
        watercraft to provide the same access. To replace all motorized 
        rafts on the river with oar rafts while providing the same 
        level of access, the number of rafts on the river at any one 
        time would have to increase by an estimated 500 percent. The 
        next step would be to reduce that number of rafts thereby 
        reducing access even further.
        <bullet> Wilderness will actually create more contact between 
        groups. Two oar trips passing one another can take half a day. 
        Motorized rafts pass relatively quickly. When the level of 
        contacts increases, the NPS managers will be compelled to cut 
        use and reduce access.
        <bullet> Wilderness will arguably create more impact on the 
        land portion of the canyon. With a motor, a group can travel 
        faster allowing plenty of time for hiking and exploring, but 
        the amount of camping that occurs is nearly half of that of a 
        rowing trip. More rowing trips means more time spent on the 
        land, therefore more impact. Again, the logical next step would 
        be to decrease use and reduce access.
    The Grand Canyon outfitting industry is actively working toward 
limiting if not eliminating the noise caused by outboard motors. 
Historically, 2-cycle outboard motors have been used to power rafts 
through Grand Canyon. Quieter and cleaner outboard motor technology is 
now available and the industry has voluntarily agreed to convert 100 
percent to these motors by the year 2001. One hundred percent of 
Western River Expeditions' boats will be using the new engines by the 
start of the 1999 river season. These engines are substantially 
quieter. Many oar powered rafters have reported that they can barely 
hear them as they pass.
    Another effort being spearheaded by the Grand Canyon River 
Outfitters Association is the development of a practically noiseless 
and emission free electric engine which is powered by fuel-cell 
technology.
    There is a false perception put out by extreme wilderness advocates 
and some Park officials that anything less than wilderness status will 
result in the proliferation of motor use on the river. This is simply 
false. Motor use has not increased since the last attempt to eliminate 
them and it will not in the future. Outfitter efforts to find less and 
less obtrusive technology, and well-established National Park Service 
limits also point away from proliferation.

HELICOPTERS AND EXCHANGE TRIPS:
ANOTHER QUESTION OF ACCESS

    Western River Expeditions provides two basic trips through Grand 
Canyon. You can spend six days travelling from Lee's Ferry to Whitmore 
Wash (188 River Miles) or three days travelling from Whitmore Wash to 
Pearce Ferry on Lake Mead (91 River Miles, 89 of which are within Grand 
Canyon National Park). At Whitmore, there is a helicopter landing pad 
located on Hualapai Nation land. The guests from the six-day trip 
helicopter out to a guest ranch on the rim of the canyon (the Bar 10 
Lodge) and the three day guests helicopter in to begin their trip. Many 
of our guests spend a day and a night at the ranch before beginning the 
river portion of the trip. There they participate in ranch activities 
and listen to interpretation about Grand Canyon.
    Whitmore has been used as a river access point since 1912. Since 
1978, it has been an approved passenger exchange point. Helicopters at 
Whitmore have been in use since 1985. As early as 1973, there was 
helicopter use at another pad near Lava Falls (10 miles upstream), but 
the outfitters voluntarily eliminated that use and consolidated at 
Whitmore.
    The Bar 10 Lodge is owned and operated by the Tony and Ruby Heaton 
family. It gives employment to the Heaton children as well as providing 
a $100,000 yearly payroll to other employees. In addition, since 1985, 
the Bar 10 has added over one million dollars ($1,000,000) of user fee 
revenue to the Hualapai Tribe. A twelve dollar ($12.00) fee is charged 
by the Hualapai for each person in or out of the canyon. The 
elimination of Whitmore would not only limit river access; it would put 
the Heatons out of business, and eliminate this source of revenue for 
the Hualapai.
    Whitmore is a critical element in the CRMP and in the overall 
effort to manage Grand Canyon as wilderness. The Park has stated that 
the exchanges taking place at Whitmore are incompatible with 
``wilderness values'' for two reasons. One: Helicopters disturb the 
natural quiet, and are incompatible with the ``no mechanical devices'' 
requirement of wilderness management; and Two: Three days is not enough 
time for a person to adequately enjoy and appreciate Grand Canyon.
    The debate over helicopters and the noise they make is not nearly 
as simple as it seems when you consider the alternatives and the 
numbers of people who will be shut out of the Canyon. The arguments 
against shorter trip lengths are quite frankly offensive.
    Wilderness values are in the heart and mind of the beholder. In 
meetings with Grand Canyon officials outfitters have been told point 
blank that some people do not deserve to be in Grand Canyon. Usually, 
this sort of elitist rhetoric is attributed to fringe elements who 
would shut everyone out of the backcountry except themselves. So when 
the very people who are the arbiters of what is fair and appropriate 
for the river use this exclusionary type of language it causes a great 
deal of concern.
    We have been told the river through Grand Canyon will be managed as 
part of a ``regional'' system of rivers that would include the Green 
and San Juan rivers in Utah as well as the upper stretches of the 
Colorado in Utah (Westwater and Cataract Canyons). Under this approach 
people wanting a shorter river trip would have to go to Cataract 
Desolation or some other ``less deserving'' stretch of water. We are 
told that Grand Canyon should be reserved for those people who are 
willing to spend the appropriate amount of time (8 days with a motor 
and 13 days without seem to be the minimum numbers). Apparently this 
will assure that everyone who travels through the Canyon has the proper 
attitude and reverence toward the Canyon. I am not being facetious 
here. I am simply repeating the ideas that have been expressed to us by 
NPS administrators.
    This attitude runs contra to the experience had by the thousands of 
people who enjoy Grand Canyon every year through Western River 
Expeditions or one of several other outfitters. These guests do it in a 
short amount of time in the lower end of the Canyon. We can produce 
thousands of letters from our guests who have had meaningful even life 
changing Grand Canyon experiences in merely three days. These people 
believe in their hearts and minds that they have had a valid wilderness 
experience. Park officials and other extreme wilderness advocates 
apparently want to save these people from themselves. Now I am being 
facetious but also accurate.
    Whitmore is not the only place where shorter exchange trips occur 
although it is the only place where helicopters are used. The Park has 
also identified the need to reduce the frequency of exchanges at other 
points in the Canyon such as Phantom Ranch. Exchange trips provide an 
increased opportunity for people to access Grand Canyon from the river. 
Not everyone can afford the time or the cost involved with a longer 
trip. Are these people undeserving of Grand Canyon? According to some 
within the NPS the answer is ``yes.''
    Helicopters provide a clean and efficient means for people to 
access the lower end of Grand Canyon. One of the primary goals of those 
writing the CRMP seems to be the elimination or extreme reduction of 
Whitmore as an exchange point. There have been references to possible 
alternatives to helicopters such as hiking and mules. Both of these 
solutions would lead to the elimination of Whitmore because of the 
logistical difficulties they present.
    Many of the people who currently exit and enter the canyon via 
helicopter would not be physically capable of hiking in or out of the 
canyon. It is a difficult hike in one of the hottest parts of the 
canyon where there is no water or shade. Our customer demographics 
mirror the demographics of the nation in general. People are getting 
older and not everyone is in top physical condition. Roughly two-thirds 
of our guests are age 50 or older with some in their 80's. Hiking would 
create a physical barrier that would keep many people from seeing the 
canyon. The Park already struggles with the number of people who have 
to be rescued from the trails leading to Phantom Ranch. Dehydration and 
physical injury are commonplace.
    The option of transporting guests in and out of the canyon via 
mules is ironically more environmentally damaging than helicopters. To 
further the irony, mules were once used and helicopters were seen as a 
cleaner, more efficient approach, so we switched. Hundreds of mules 
travelling up and down the trail and milling around on a beach on the 
edge of the river would result in scarring of the landscape, offensive 
odors, and swarms of flies. Phantom Ranch can be held out as an example 
of the difficulties presented by mules. There are an equal number of 
people calling for their elimination from the Park.
    The outfitters who use helicopters at Whitmore are not insensitive 
to the wishes of those who would prefer not to see a helicopter in the 
canyon. The time of helicopter operation is restricted to the morning 
hours and the actual time the helicopters are over Park airspace is 
measured in minutes (2.76 minutes per flight to be exact). We believe 
this is a very small amount of time relative to the access it provides.
    At a recent meeting of a working group of outfitters who use the 
helicopter pad, means of reducing total airtime were discussed with 
promising results. We are also investigating quieter, larger capacity 
helicopter technology that would reduce dramatically the noise levels 
as well as the number of trips in and out of the canyon.
    The helicopter pad is actually located on land owned by the 
Hualapai Nation and is located in a part of the canyon where there are 
very few camps, and very little morning traffic. The bottom line is 
that most of the people who do not use the helicopters never see or 
hear them. Those visitors who do use them, love them.

FOR WHOM ARE WE SAVING THE CANYON?

    If I can brag a bit about our crew, they are as good as it gets in 
the industry. We have a group of trip leaders and guides who have been 
doing this for a long time, are passionate about the river and the 
canyon, and love sharing their knowledge and skills with their guests. 
Without guides, most people would not have the skills or knowledge to 
visit the bottom of Grand Canyon. For those who do choose to use a 
guide, their experience is enriched through the education and insight 
provided. Any outfitter in Grand Canyon can make this same claim.
    As an industry, the Park has left us with the distinct impression 
that people who choose to utilize our services and the talents of our 
guides are less worthy than those who go it alone. Furthermore, if they 
choose an outfitter, but don't choose the right kind of trip, they are 
even less worthy. The fact is that most people cannot make it through 
Grand Canyon by river without the assistance of an outfitter. Likewise, 
a large percentage of these people cannot afford to spend more than 
just a few days in the canyon. Grand Canyon is for these people just as 
surely as it is for the individual who wants to spend a month in the 
canyon on his/her own raft. To believe otherwise is elitist and 
offensive.
    We should be about preserving Grand Canyon and providing access. 
The National Park Service is charged with a dual mission: preserve for 
future generations and provide access to the American public. That 
mission is currently being accomplished very well. A relatively large 
number of people get to experience the Colorado River through Grand 
Canyon each year with no detrimental effect to the resource.
    Once again, It is our firm belief that THE COLORADO RIVER THROUGH 
GRAND CANYON SHOULD BE LISTED AS A NON-WILDERNESS CORRIDOR. Protections 
that are already in place are more than adequate, and Grand Canyon 
users (both commercial and private) will always be committed to its 
protection regardless of the wilderness debate. Any increased 
regulation will only result in people being shut out of Grand Canyon.
    Mr. Chairman and members of the Subcommittee, thank you for your 
time and consideration of Grand Canyon, and thank you for letting us 
participate in this process
                                 ______
                                 
 Statement of William C. Reffalt, Director, National Parks and Alaska 
  Programs, The Wilderness Society and representing The Grand Canyon 
                                 Trust

        ``The river rolls by us in silent majesty; the quiet of the 
        camp is sweet; our joy is almost ecstasy.'' (John Wesley 
        Powell, 1869, as he and his companions completed exploration of 
        the Colorado River and the Grand Canyon)

    Mr. Chairman my name is Bill Reffalt; I am Director of National 
Parks and Alaska Lands for The Wilderness Society. I appreciate this 
opportunity to testify on behalf of our 225,OOO members and The Grand 
Canyon Trust about the current National Park Service management 
planning efforts at the Grand Canyon National Park.
    The Grand Canyon, as a geological phenomenon, is one of the most 
awesome demonstrations of the effects of erosion over time in the 
world. As a National Park, it is one of the world's most spectacular 
scenic areas. These characteristics, and many other features and 
elements combine to make the Grand Canyon one of the most visited 
parks, and visiting it among the most sought after experiences in the 
world. We only have one Grand Canyon and it took a very, very long time 
for it to reach the peak of grandeur for which all mankind recognizes 
it. Over 5,000,000 people visit the park each year and that level 
continues to rise.
    The Grand Canyon is one of the most unique, and in many ways 
grandest, wilderness areas left in America. Yes, there are other great 
canyons, and some are very scenic and have several special features. 
But, there is only this one that has it all. To stand at the rim of the 
Grand Canyon and try to take it all in, to cope with its meaning, is a 
humbling experience. Standing on the rim at many locations one can 
literally see to the heart of this magnificent National Park. And, at 
the heart of this wilderness is the Colorado River--Mother Nature's 
Grand Canyon land-sculpting instrument. Freeman Tilden has written that 
``Without that flowing river there is no true Grand Canyon.''\1\ It 
follows logically that management of the Park must deal effectively 
with these two foundational elements of the park: the wilderness and 
the river.
---------------------------------------------------------------------------
    \1\ (Freeman Tilden, 1951, The National Parks. Alfred A. Knopf, 
NY.)
---------------------------------------------------------------------------
    Management of the Grand Canyon National Park is something about 
which a lot of people can claim to be an interested stakeholder. 
Hundreds, even thousands, feel that they have a right and an obligation 
to be involved and to be heard. In its simplest form, the management 
planning process currently underway at the Grand Canyon National Park 
grants fulfillment of that expectation. It supplies the Park Service 
with the concerns, opinions, ideas and reactions of people who know and 
use the park and its resources. It permits interested parties with 
differing points of view to learn about other views and serves as a 
forum for making known all viewpoints. It is a time-tested process that 
can lead to greater understanding and support for park programs.
    We believe that the National Park Service policy guidance on 
planning and wilderness properly reflects the spirit and intent of the 
Wilderness Act (Public Law 88-577; 16 U.S.C. 1131-1136). We also 
believe that the Grand Canyon National Park staff has made a well-
founded, reasoned and positive effort to provide all stakeholders with 
the necessary information and an opportunity to respond to management 
proposals and concepts within the context of the administering laws. 
The complexities of the legal structure and the changes in park 
legislation, boundaries, relationships to tribal neighbors, and type 
and magnitude of visitor usage over the past 20 years bring potential 
need for changes to past proposals and potential new issues into the 
management picture. For these reasons, among others, we recognize the 
need for this public planning effort and we are committed, along with 
many other stakeholder groups, to participating openly and 
constructively in that process.
    We believe that it is important for the future management programs 
to be discussed between and among the stakeholders in the context of 
their impacts upon various visitors and their park experience. It is 
important that the 94 percent of the Park recommended to Congress for 
wilderness designation has an up-to-date, well designed and cohesive 
management strategy known and understood by the people affected by such 
designation. And, we believe that the interested public deserves to 
have this opportunity for input and deserves to have their identified 
concerns and ideas addressed by the park's professional staff.
    As we have said recently in a letter to all members of this 
Committee, we believe that it would be premature for Members of 
Congress to initiate legislative actions affecting individual elements 
of the management issues being considered prior to completion of the 
final Wilderness Management Plan and Colorado River Management Plan. 
Intervention prior to completion of those plans would, in our view, be 
counterproductive. Ultimately, the final decisions about wilderness 
designation, its integration with river management, Wild and Scenic 
River designation and related matters will rest with this Committee and 
the Congress. Those decisions can be aided and improved by the proper 
completion of the process now underway at the park.
    There are several other important issues and Administrative 
processes occurring in and around Grand Canyon National Park. For 
example, we and others continue to be involved in the issues associated 
with the regulation of air tour overflights. We are deeply concerned 
about deterioration in major components of the park infrastructure and 
the urgent need for vastly improved mass transit to the park and a well 
planned and executed people-mover system within the park. Although I 
have elected to focus this testimony on the wilderness and river 
management planning as suggested in the Committee's invitation to 
testify, I would be happy, to the extent that I have sufficient 
background and information, to respond on behalf of The Wilderness 
Society to questions on other matters affecting future park management 
and visitor experience.
    Again, I thank you for the opportunity to comment on matters 
affecting this important icon of America's National Park System.

[GRAPHIC] [TIFF OMITTED] T1282.014

[GRAPHIC] [TIFF OMITTED] T1282.015

[GRAPHIC] [TIFF OMITTED] T1282.016

[GRAPHIC] [TIFF OMITTED] T1282.017

[GRAPHIC] [TIFF OMITTED] T1282.018

[GRAPHIC] [TIFF OMITTED] T1282.019

[GRAPHIC] [TIFF OMITTED] T1282.020

[GRAPHIC] [TIFF OMITTED] T1282.021

[GRAPHIC] [TIFF OMITTED] T1282.022

[GRAPHIC] [TIFF OMITTED] T1282.023

[GRAPHIC] [TIFF OMITTED] T1282.024

[GRAPHIC] [TIFF OMITTED] T1282.025

[GRAPHIC] [TIFF OMITTED] T1282.026

[GRAPHIC] [TIFF OMITTED] T1282.027

[GRAPHIC] [TIFF OMITTED] T1282.028

[GRAPHIC] [TIFF OMITTED] T1282.029

[GRAPHIC] [TIFF OMITTED] T1282.030

[GRAPHIC] [TIFF OMITTED] T1282.031

[GRAPHIC] [TIFF OMITTED] T1282.032

[GRAPHIC] [TIFF OMITTED] T1282.033

[GRAPHIC] [TIFF OMITTED] T1282.034

[GRAPHIC] [TIFF OMITTED] T1282.035

[GRAPHIC] [TIFF OMITTED] T1282.036

[GRAPHIC] [TIFF OMITTED] T1282.037

[GRAPHIC] [TIFF OMITTED] T1282.038

[GRAPHIC] [TIFF OMITTED] T1282.039

[GRAPHIC] [TIFF OMITTED] T1282.040

[GRAPHIC] [TIFF OMITTED] T1282.041

[GRAPHIC] [TIFF OMITTED] T1282.042

[GRAPHIC] [TIFF OMITTED] T1282.043

[GRAPHIC] [TIFF OMITTED] T1282.044

[GRAPHIC] [TIFF OMITTED] T1282.045

[GRAPHIC] [TIFF OMITTED] T1282.046

[GRAPHIC] [TIFF OMITTED] T1282.047

[GRAPHIC] [TIFF OMITTED] T1282.048

[GRAPHIC] [TIFF OMITTED] T1282.049

[GRAPHIC] [TIFF OMITTED] T1282.050

[GRAPHIC] [TIFF OMITTED] T1282.051

[GRAPHIC] [TIFF OMITTED] T1282.052

[GRAPHIC] [TIFF OMITTED] T1282.053

[GRAPHIC] [TIFF OMITTED] T1282.054

[GRAPHIC] [TIFF OMITTED] T1282.055

[GRAPHIC] [TIFF OMITTED] T1282.056

[GRAPHIC] [TIFF OMITTED] T1282.057

[GRAPHIC] [TIFF OMITTED] T1282.058

[GRAPHIC] [TIFF OMITTED] T1282.059

[GRAPHIC] [TIFF OMITTED] T1282.060

[GRAPHIC] [TIFF OMITTED] T1282.061

[GRAPHIC] [TIFF OMITTED] T1282.062

[GRAPHIC] [TIFF OMITTED] T1282.063

[GRAPHIC] [TIFF OMITTED] T1282.064

[GRAPHIC] [TIFF OMITTED] T1282.065

[GRAPHIC] [TIFF OMITTED] T1282.066

[GRAPHIC] [TIFF OMITTED] T1282.067

[GRAPHIC] [TIFF OMITTED] T1282.068

[GRAPHIC] [TIFF OMITTED] T1282.069

[GRAPHIC] [TIFF OMITTED] T1282.070

[GRAPHIC] [TIFF OMITTED] T1282.071

[GRAPHIC] [TIFF OMITTED] T1282.072

[GRAPHIC] [TIFF OMITTED] T1282.073

[GRAPHIC] [TIFF OMITTED] T1282.074

[GRAPHIC] [TIFF OMITTED] T1282.075

[GRAPHIC] [TIFF OMITTED] T1282.076

[GRAPHIC] [TIFF OMITTED] T1282.077

[GRAPHIC] [TIFF OMITTED] T1282.078

[GRAPHIC] [TIFF OMITTED] T1282.079

[GRAPHIC] [TIFF OMITTED] T1282.080

[GRAPHIC] [TIFF OMITTED] T1282.081

[GRAPHIC] [TIFF OMITTED] T1282.082

[GRAPHIC] [TIFF OMITTED] T1282.083

[GRAPHIC] [TIFF OMITTED] T1282.084

[GRAPHIC] [TIFF OMITTED] T1282.085

[GRAPHIC] [TIFF OMITTED] T1282.086

[GRAPHIC] [TIFF OMITTED] T1282.087

[GRAPHIC] [TIFF OMITTED] T1282.088

[GRAPHIC] [TIFF OMITTED] T1282.089


</pre></body></html>
